<html>
<title> - THREE YEARS LATER: ARE WE ANY CLOSER TO A NATIONWIDE PUBLIC SAFETY WIRELESS BROADBAND NETWORK?</title>
<body><pre>[Senate Hearing 114-100]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-100

                  THREE YEARS LATER: ARE WE ANY CLOSER
                     TO A NATIONWIDE PUBLIC SAFETY
                      WIRELESS BROADBAND NETWORK?

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 11, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-368 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 11, 2015...................................     1
Statement of Senator Thune.......................................     1
Statement of Senator Nelson......................................     3
    Prepared statement...........................................     3
Statement of Senator Ayotte......................................    92
Statement of Senator Booker......................................    95
    Article dated February 9, 2015 by Lynda Cohen of 
      AtlanticCity.com entitled ``Atlantic City to lead way with 
      broadband network for public safety''......................    95
Statement of Senator Manchin.....................................    98
Statement of Senator Peters......................................   100
Statement of Senator Fischer.....................................   103
Statement of Senator Blumenthal..................................   105
Statement of Senator Cantwell....................................   108
Statement of Senator Wicker......................................   110
Statement of Senator Daines......................................   111
Statement of Senator Klobuchar...................................   114
Statement of Senator Udall.......................................   115
Statement of Senator Gardner.....................................   117
Statement of Senator Markey......................................   119

                               Witnesses

Hon. Bruce H. Andrews, Deputy Secretary, U.S. Department of 
  Commerce.......................................................     4
    Prepared statement...........................................     6
Chief G. Keith Bryant, President and Chairman of the Board, 
  International Association Of Fire Chiefs.......................     8
    Prepared statement...........................................    11
Mark L. Goldstein, Director, Physical Infrastructure Issues, 
  Government Accountability Office...............................    13
    U.S. Government Accountability Office, ``Public Safety 
      Communications: Preliminary Information on FirstNet's 
      Efforts to Establish a Nationwide Broadband Network''......    14
    Prepared statement...........................................    15
Susan Swenson, Chairwoman, First Responder Network Authority 
  (FirstNet).....................................................    27
    Prepared statement...........................................    29
    FirstNet, U.S. Department of Commerce, FY 2014: Annual Report 
      to Congress................................................    35
Hon. Todd J. Zinser, Inspector General, U.S. Department of 
  Commerce.......................................................    79
    Prepared statement...........................................    80

                                Appendix

Response to written questions submitted to Hon. Bruce H. Andrews 
  by:
    Hon. John Thune..............................................   123
    Hon. Roger F. Wicker.........................................   123
    Hon. Bill Nelson.............................................   127
Response to written question submitted to Mark L. Goldstein by:
    Hon. John Thune..............................................   128
Response to written questions submitted to Susan Swenson by:
    Hon. John Thune..............................................   128
    Hon. Roger F. Wicker.........................................   130
    Hon. Cory Gardner............................................   131
    Hon. Bill Nelson.............................................   134
    Hon. Maria Cantwell..........................................   135
    Hon. Cory Booker.............................................   136
Response to written question submitted to Hon. Todd J. Zinser by:
    Hon. Maria Cantwell..........................................   138

 
                  THREE YEARS LATER: ARE WE ANY CLOSER
                     TO A NATIONWIDE PUBLIC SAFETY
                      WIRELESS BROADBAND NETWORK?

                              ----------                              


                       WEDNESDAY, MARCH 11, 2015

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Nelson, Ayotte, 
Booker, Manchin, Peters, Fischer, Blumenthal, Cantwell, Wicker, 
Daines, Klobuchar, Udall, Gardner, and Markey.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. This hearing will come to order.
    We convene this morning to conduct oversight of the First 
Responder Network Authority, also known as FirstNet. In 2012, 
Congress established FirstNet with a mandate to deploy an 
interoperable nationwide wireless broadband network for 
America's first responders. Three years later, our committee is 
revisiting this issue for the first time since we passed the 
Spectrum Act. Today's hearing will examine the progress and 
challenges FirstNet is encountering as it moves forward with 
the important mission of building a twenty-first century 
communications platform for our country's emergency personnel.
    The title of this hearing asks whether we are any closer 
today to having this twenty-first century public safety 
network. Of course, in a literal sense, we are. The Spectrum 
Act was enacted; FirstNet has been stood up; consultations with 
the states have begun; and FirstNet is on the verge of 
releasing its highly anticipated Draft Request for Proposals.
    But in other ways, we are still a very long way away from 
having an interoperable public safety network. There are a 
great many things that can go terribly wrong unless good 
decisions are made right now. For example, FirstNet's 
forthcoming RFP will give us a sense of whether a network can 
be built to meet the needs and expectation of a diverse 
audience of emergency responders in a cost-effective way that 
secures FirstNet for future generations. FirstNet must work 
diligently to make itself a self-funding entity because, 
frankly, we are not in a budget environment that can easily 
tolerate spending more than the $7 billion taxpayer dollars 
that has already been committed to the network. We are also 
confronted with many pressing and unanswered questions due to 
the complexity of establishing a new communications system.
    Stakeholders, including many in my home state of South 
Dakota, have questions about what FirstNet will mean for them. 
There are legitimate concerns about how much network access 
will cost local police and fire departments who are already 
dealing with constrained budgets. And, if the network is 
competitive from a cost perspective, many wonder whether it 
will be appreciably better than what first responders currently 
use. I know FirstNet is aware of these issues and I encourage 
the organization to be sensitive to the unique challenges of 
local communities.
    Last year, I asked GAO to examine FirstNet and its progress 
in building the network. In just a few minutes, we will hear 
from Mr. Goldstein about GAO's findings and the concerns that 
they raise.
    Ms. Swenson, I hope and ask that FirstNet will take this 
constructive criticism seriously and will improve its approach 
to building the network. Specifically, I urge FirstNet to more 
fully assess the risk it may face in pursuing its laudable 
objectives. I also ask FirstNet to implement a detailed data 
analysis plan that builds upon the valuable lessons learned 
from the early builder projects.
    I share GAO's view that, without such a plan, FirstNet 
might not take full advantage of the sizable Federal investment 
that has already been made in these Early Builder projects.
    The Commerce Department's Inspector General also recently 
released a report on FirstNet that raised several issues 
concerning FirstNet's ethics and procurement practices. I look 
forward to hearing what lessons FirstNet has learned from this 
report and whether the IG's findings have been fully addressed.
    The Department of Commerce also finds itself at a crucial 
stage of this process. The Department should ask itself whether 
it is being the best partner it can be to FirstNet in 
facilitating development of a public safety network that makes 
us all more secure. FirstNet's unique position as an 
independent authority within the Department comes with some 
risk. So much so, that one commentator recently asked whether 
FirstNet is on the path to becoming the next Healthcare.gov, 
the Obamacare website best known for its disastrous rollout 
thanks to the mismanagement, only the challenge of setting up 
this network is arguably many times greater. I strongly 
encourage the Department to do everything it can to learn from 
the many mistakes of Healthcare.gov.
    FirstNet itself also has questions it will need to answer 
for this endeavor to be successful. For instance, to what 
degree will emergency responders wish to join a network 
affiliated with the Federal Government? What is the value to 
wireless carriers of secondary network access when public 
safety has priority access? Who exactly will be permitted to 
use the public safety network?
    As this committee proceeds with oversight of FirstNet, I 
will focus particularly on whether a high quality and useful 
network can be offered to first responders in rural America. 
FirstNet will be a failure if it leaves large pockets of rural 
America uncovered or served by second-rate solutions.
    We have an experienced and knowledgeable panel with us 
today, and I expect their testimony will provide the Committee 
with important insight into the issues that I raised. And I 
want to yield now to my distinguished Ranking Member of this 
Committee, the Senator from Florida, Senator Nelson, for his 
opening remarks.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, I know the Committee members 
would like to hear my dulcet tones but I would prefer to hear 
the witnesses. And so, I will enter my remarks for the record.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Thank you Chairman Thune for holding this hearing today on the 
ongoing work of FirstNet.
    Just over three years ago, we took the monumental step of passing 
legislation to create a first of its kind nationwide wireless broadband 
network for first responders. The need for that network had been 
evident for over a decade. And a strong bipartisan coalition came 
together in the Senate--in fact, in this very committee, led by former 
Senators Rockefeller and Hutchison--to respond to that need.
    We sought to give our Nation's first responders--who put their 
lives on the line each and every day--the tools they need to 
communicate effectively during emergencies.
    I am proud to have been an early supporter of the legislation that 
eventually created FirstNet. It represented a sea change in our 
Nation's approach to public safety communications. It looked to the 
future. I well remember testimony in this committee from the New York 
City Police Commissioner that the average 16-year-old had more 
communications capability in a smartphone than a police officer had in 
a police radio.
    That is unacceptable. FirstNet will address that disparity.
    We knew the mission we gave FirstNet would not be easy--but the 
stakes of inaction were too high. We tasked FirstNet with creating--
effectively from scratch--a nationwide interoperable network devoted to 
the needs of the public safety community. FirstNet is a unique hybrid: 
Congress asked the FirstNet board to think like an entrepreneur, with a 
limited budget, and to launch a startup enterprise within the confines 
of the Federal Government--a monumental task.
    The fact that the FirstNet board was not named until August 2012 
and had no employees makes what FirstNet has accomplished to date that 
much more impressive.
    Of course, in launching FirstNet with the urgency the legislation 
gave it, there have been a few bumps along the way. Both the Commerce 
Inspector General and the Government Accountability Office (GAO) have 
reviewed FirstNet's work and found concerns that should be addressed. 
It's my understanding that FirstNet and the Department of Commerce have 
taken steps to remedy those concerns.
    I am confident that FirstNet's board and executive leadership team 
will redouble their efforts to carefully abide by all applicable rules 
and regulations going forward and refine their operations, where it 
makes sense, to incorporate GAO's suggestions. This is even more 
important given the limited Federal funds for this critical effort. We 
must always guard against waste, fraud, and abuse in all programs.
    In the end, we cannot lose sight of what brought Congress to create 
FirstNet three years ago--our nation's first responders deserve an 
advanced nationwide interoperable wireless broadband network to help 
them do their jobs to protect us all.
    I want to thank the witnesses for appearing before the Committee 
today and for their thoughtful comments on FirstNet and its work. I 
look forward to hearing your testimony.

    The Chairman. Very good.
    Well, we will get underway. And I want to start by 
introducing our distinguishing panel today. First, we have with 
us Mr. Bruce Andrews. He serves as Deputy Secretary with the 
Department of Commerce.
    He will be followed by Mr. Keith Bryant. Mr. Bryant serves 
as the Fire Chief for the Oklahoma City Fire Department and as 
the President and Chairman of the Board at the International 
Association of Fire Chiefs.
    Mr. Mark Goldstein. Mr. Goldstein serves as the Director of 
Physical Infrastructure issues at the Government Accountability 
Office, referenced earlier.
    Mr. Susan Swenson. Ms. Swenson serves as the Chairwoman of 
the First Responder Network Authority, also known as FirstNet.
    And finally, Mr. Todd Zinser. Mr. Zinser serves as 
Inspector General to the Department of Commerce.
    So we will start on my left and your right with Mr. Andrews 
and proceed. And, if you can, keep your comments confined as 
closely to 5 minutes as possible and then we'll proceed with 
questions.
    Mr. Andrews, welcome.

  STATEMENT OF HON. BRUCE H. ANDREWS, DEPUTY SECRETARY, U.S. 
                     DEPARTMENT OF COMMERCE

    Mr. Andrews. Good morning, Chairman Thune, Ranking Member 
Nelson and member of the Committee. Thank you for inviting me 
here today to testify.
    I feel a special affinity for FirstNet because I actually 
worked on the staff of this Committee when Senator Rockefeller 
and Senator Hutchison originally conceived of FirstNet. And, as 
we all know, this mission arose as a result in the wake of the 
9/11 attacks, when the work of our brave first responders was 
seriously impaired by the problems with communications. We at 
the Department are proud of our active role in helping to stand 
up and support this important program. This is a difficult 
mission, but we are confident that FirstNet is making strong 
progress towards meeting its goals.
    A nationwide first responder network, a key recommendation 
of the 9/11 Commission, will enhance public safety 
communications across agencies and jurisdictions. Congress 
established FirstNet as an independent authority within the 
Department's National Telecommunications and Information 
Administration, NTIA, to develop and maintain this network.
    FirstNet is a unique Federal entity and one of the most 
significant initiatives in the Department's portfolio. It is a 
startup with the challenges of standing up a self-sustaining 
world-class network within the applicable rules and regulations 
of the Federal Government. Suffice it to say, that has it 
challenges.
    The Department actively supports and oversees FirstNet. 
Senior leadership from the Department, NTIA, and FirstNet meet 
on a regular basis to discuss the status of FirstNet's project, 
milestones, and potential risks. Now that FirstNet is maturing, 
it depends less on our staff and its day-to-day activities. 
However, we continue to offer support and guidance to FirstNet 
and its strategic development.
    Secretary Pritzker and I are personally engaged on 
FirstNet, and she has leveraged her experience in creating and 
running companies to help FirstNet. For example, we led a 
collaborative process through which FirstNet developed a 
Strategic Roadmap and cost model validated by outside 
independent experts.
    The Department provides certain legal, procurement, human 
resources, and administrative support to FirstNet, where it 
does not otherwise have its own resources or direct authority. 
In doing so, we seek to streamline and expedite Federal 
processes.
    NTIA works with FirstNet on statutory compliance, internal 
controls, financial management systems, and annual independent 
audit. NTIA also administers the state and local Implementation 
Grant program, which supports consultations with state, 
regional, tribal, and local jurisdictions.
    In December, the Department's Inspector General issued an 
audit report regarding the management of certain FirstNet 
disclosure reports and the monitoring of certain FirstNet 
contracts. The Department appreciated the Inspector General's 
efforts and takes these matters seriously. We concurred with 
the Inspector General's recommendations and have taken a number 
of steps to address them. It is important to emphasize that the 
report focused on FirstNet's early operations and to highlight 
the Department's full efforts on these matters.
    As Congress recognized, FirstNet needs public and private 
sector board members with deep technical expertise and 
experience in wireless broadband communications. However, to 
get such private sector board members, it was likely that they 
would retain interest and affiliations with the industry thus 
creating a need to consider carefully potential conflicts of 
interest. The Department anticipated and addressed this issue 
through a robust ethics program that worked closely with 
FirstNet board members to counsel them regarding their 
employment and financial interest even before they entered 
government service.
    Although, some administrative requirements may not have 
been fulfilled, board members made the necessary material 
disclosures. Notably the Inspector General's report did not 
identify any violations of conflict of interest laws or 
circumstances that affected FirstNet decisionmaking. It is also 
important to note that the early FirstNet contracts resulted in 
valuable work product that has been critical to the rapid 
establishment of this organization; and to your point, Senator, 
earlier about getting this stood up as quickly as we can.
    To be clear, administrative errors were made and the 
Department takes those mistakes seriously. For example, we are 
implementing increased review of financial disclosure reports, 
increasing the level of review of potential conflicts of 
interests arising from acquisitions, and working to ensure that 
employees receive appropriate ethics training.
    FirstNet has grown significantly and is now in a stronger 
position to exercise its own governance and oversight to 
provide clear direction and structure for the organization. I 
also think it is important that we emphasize our appreciation 
to the private sector board members. These private citizens are 
making significant sacrifices for an important goal in trying 
to do it the right way.
    FirstNet has made strong progress. It is achieving its 
milestones according to this strategic roadmap related to state 
consultations, draft requests for network proposals and public 
notice and comment. In addition, FirstNet is now fully funded 
due to the proceeds from the FCC's recent auction. This coming 
year will be critical as FirstNet transitions to a new phase 
focused on developing and deploying its network. To be clear, 
we understand the mission will not be fulfilled quickly. We 
want FirstNet to set ambitious but realistic timeframes and 
deadlines. And we understand that some internal deadlines have 
not and will not be met. None of that undermines the hard work 
being performed by this terrific team in place at FirstNet.
    Creating a multibillion dollar, public safety wireless 
network is a major undertaking. We take our responsibility for 
this project very seriously and we will continue to help ensure 
that FirstNet succeeds in its important mission.
    Thank you again for the opportunity to discuss FirstNet's 
progress and challenges. And, as you can see, FirstNet is 
making strong progress toward its goals. I appreciate the 
Committee's time and welcome your questions.
    [The prepared statement of Mr. Andrews follows:]

    Prepared Statement of Hon. Bruce H. Andrews, Deputy Secretary, 
                      U.S. Department of Commerce
    Good morning Chairman Thune, Ranking Member Nelson and Members of 
the Committee. Thank you for inviting me to testify on the First 
Responder Network Authority (FirstNet) and its progress and challenges 
in establishing a public safety broadband network. I feel a special 
affinity for FirstNet because I worked on the staff of this Committee 
when Senator Rockefeller and Senator Hutchison originally conceived of 
FirstNet and drafted the original authorizing legislation.
    As we all know, the mission of FirstNet arose in the wake of the 9/
11 attacks, when the work of our brave first responders was seriously 
impaired by problems with communications. We at the Department of 
Commerce (Department) are proud of our role in helping to stand up this 
important program, and the Department plays an active role in 
overseeing and supporting FirstNet. This is a difficult mission, but we 
are confident that FirstNet is making strong progress towards meeting 
its goals.
FirstNet's Mission and Structure
    In 2012, Congress passed legislation as part of the Middle Class 
Tax Relief and Job Creation Act (Act) calling for the construction of a 
nationwide, interoperable wireless broadband network for public safety 
first responders. This network, a key recommendation of the 9/11 
Commission, will allow police officers, fire fighters, emergency 
medical service professionals, and other public safety officials to 
communicate with each other across agencies and jurisdictions. The Act 
established FirstNet as an independent authority within the National 
Telecommunications and Information Administration (NTIA), which is part 
of the Department, to develop, operate, and maintain the much-needed 
public safety wireless broadband network.
    FirstNet is headed by a 15-member Board responsible for making 
strategic decisions about FirstNet's operations. The U.S. Attorney 
General, the Director of the Office of Management and Budget, and the 
Secretary of the Department of Homeland Security serve as ex-officio 
members of the FirstNet Board. In addition, the Secretary of Commerce 
appoints 12 non-permanent members of the FirstNet Board, with a 
statutory requirement to include representatives of state and local 
governments and the public safety community. We have been tremendously 
fortunate to have had a strong and dedicated Board to help steer 
FirstNet through its initial formation and now into its deployment 
phase.
    FirstNet is a unique entity in the Federal Government, and a unique 
and one of the most significant initiatives in the Department's 
portfolio. It has a novel structure, with a mix of Board members from 
both the public and private sectors and placement as an independent 
entity within NTIA. Under the Act, FirstNet also has a statutory 
exemption from some Federal requirements but not others; and the 
ability to leverage auction proceeds, spectrum leases, and user fees to 
succeed. Since FirstNet's inception, the Department has made the 
success of FirstNet's important mission a top priority. It is important 
to remember that FirstNet is a start-up with the challenge of standing 
up a self-sustaining, nationwide, interoperable, world class 
telecommunications network, within the applicable rules and regulations 
of the Federal Government. Suffice it to say, that has its challenges.
Departmental Support of FirstNet
    The Department has been actively involved in supporting FirstNet 
and overseeing its activities. During its earliest days, FirstNet 
depended heavily on Department and NTIA staff for administrative and 
program support. Now that FirstNet is maturing as an organization, 
there is less of a need for such involvement in FirstNet's day-to-day 
activities.
    The Department and NTIA, however, continue to offer support and 
guidance to FirstNet on its strategic development. Secretary Pritzker 
and I have engaged personally on FirstNet, and she has leveraged her 
experience creating and running private-sector companies to help 
FirstNet. For example, we led a collaborative process with FirstNet 
through which FirstNet developed a Strategic Roadmap and cost model 
validated by outside, independent experts.
    The Department also provides certain legal, procurement, human 
resources, and administrative support to FirstNet, where it does not 
otherwise have the resources or direct authority to provide such 
services itself. In doing so, we seek to streamline and expedite 
Federal processes whenever possible and collaborate with FirstNet on 
creative solutions. For example, the Department worked with FirstNet to 
expedite its hiring by leveraging the Commerce Alternative Personnel 
System. The Department also assisted FirstNet with its procurements, 
facilitated efforts to identify appropriate larger-scale acquisition 
assistance for the future, helped FirstNet find office space, and 
worked closely with FirstNet to establish its administrative processes 
and functions.
    NTIA and the National Institute of Standards and Technology (NIST), 
through their joint Public Safety Communications Research program, 
collaborate with FirstNet on standards, interoperability research and 
testing, and technical information sharing. NTIA also works with 
FirstNet on its compliance with the Act's provisions, working with 
FirstNet on its administrative functions as it gains its own 
capacities, and managing the annual independent audit of FirstNet. 
Additionally, NTIA has assisted FirstNet with putting into place 
appropriate internal controls, appropriate processes, and strong 
financial management systems. NTIA will continue to pay close attention 
to the implementation of the FirstNet operations.
    NTIA also administers the State and Local Implementation Grant 
Program, which supports state, regional, tribal, and local 
jurisdictions' consultations with FirstNet on the deployment of the 
nationwide public safety broadband network. NTIA also collaborates with 
FirstNet on NTIA's other statutory requirements contained in the Act. 
For example, NTIA is responsible for reviewing and approving FirstNet's 
fee structure annually, developing a state opt-out construction grant 
program, and developing a Next Generation 9-1-1 grant program.
Office of Inspector General's Report
    In December 2014, the Department's Office of Inspector General 
(OIG) issued an Audit Report regarding the management of certain 
financial disclosure reports and the monitoring of FirstNet contracts. 
The Department appreciates the effort reflected in this report and 
takes these matters seriously. The Department concurred with the OIG's 
recommendations and has taken a number of steps to address them, which 
I discuss below. With respect to both ethics and contracting, however, 
it is important to emphasize that the report focused on issues arising 
from FirstNet's early operations and to highlight the Department's full 
efforts in anticipating and addressing these issues.
    As Congress recognized when it established FirstNet, this ambitious 
project would require both public-sector and private-sector expertise, 
and would require that Board members have deep technical expertise in 
wireless broadband communications and experience in building, 
deploying, and operating commercial telecommunications networks. 
Accordingly, FirstNet was created with a unique governance structure 
that includes both public-sector and private-sector Board members. Many 
of these Board members sacrificed in a number of ways, including 
financially, to serve FirstNet's public safety goals. The private-
sector Board positions provide the Board, and FirstNet as a whole, with 
significant and deep private-sector experience in the 
telecommunications industry. To stand up a network, it is critical that 
we have Board members with substantial industry experience. However, to 
get people with extensive private-sector experience, it was likely that 
such Board members would retain interests and affiliations within the 
telecommunications industry, thus creating a need to consider carefully 
potential conflicts of interest.
    The Department addressed this issue through a robust ethics program 
that worked closely with FirstNet Board members to counsel them 
regarding their employment and financial interests, even before they 
entered government service. Although some administrative requirements 
may not have been fulfilled with respect to filing certain financial 
disclosure reports timely, Board members made the material disclosures 
necessary to identify and address potential conflicts. Notably, the OIG 
report did not identify violations of conflict of interest laws or 
circumstances that actually affected FirstNet decision-making.
    Regarding contracts issues, it is important to note that the early 
FirstNet contracts resulted in valuable work product that has been 
critical to the rapid establishment of the organization. During 
FirstNet's early days, like most start-ups, it sought and received 
first-rate feasibility research, technical analysis, strategic 
planning, and outreach services from highly specialized consultants, 
whose work product has laid the groundwork for executing FirstNet's 
mission.
    To be clear, administrative errors were made along the way, and the 
Department takes those mistakes seriously. The Department has taken 
significant steps to address these errors. For example, we are 
implementing increased review of financial disclosure reports filed by 
FirstNet Board members and staff, increasing the level of review of 
potential conflicts arising from FirstNet acquisitions and other 
matters, and working to ensure that FirstNet and Department employees 
receive appropriate ethics training. In addition, we have provided 
additional training to and oversight of the Department Contracting 
Office handling certain FirstNet contracts.
    Since FirstNet's inception, the Department, NTIA, and FirstNet have 
strived to stand up and operate this start-up organization in a 
compliant and first-rate manner. Over the past year, FirstNet has grown 
significantly in its organizational structure, and this growth has 
provided greater resources, rigor, and oversight in the management of 
its operations. FirstNet is now in a stronger position to supplement 
the Department's efforts to implement policies and procedures, and 
exercise its own governance and oversight that provide clear direction 
and structure for the organization. I also think it is important that 
we specially emphasize our appreciation to the private-sector Board 
members. These private citizens are making significant sacrifices for a 
noble goal, and trying to do it the right way. They deserve our 
appreciation.
Continued Progress
    With support from the Department and NTIA, FirstNet has made strong 
progress. FirstNet's ability to make progress on deploying the network 
is further enhanced now that FirstNet is fully funded under the Act's 
provisions. Proceeds from the Federal Communications Commission's 
recent AWS-3 auction will provide the full $7 billion provided for 
FirstNet under the Act. FirstNet is achieving its milestones according 
to the Strategic Program Roadmap related to state consultations, 
requests for network proposals, and public notice and comment. This 
coming year will be critical, as FirstNet pivots to a new phase focused 
on developing and deploying its network. To be clear, we know and 
understand that the FirstNet mission will not be fulfilled quickly. We 
want FirstNet to set ambitious, but realistic time frames and 
deadlines. And we understand that some internal deadlines have not and 
will not be met. None of that undermines the hard work being performed 
by the terrific team in place at FirstNet.
Conclusion
    Creating a multibillion dollar, interoperable, nationwide, public 
safety wireless broadband network is a major undertaking. We take our 
responsibility for this project very seriously. Senior leadership from 
the Department, NTIA, and FirstNet meet on a regular basis to discuss 
current status of FirstNet's project milestones, potential risks, and 
upcoming actions. The Department and NTIA will continue to play a key 
support and oversight role to help ensure that FirstNet succeeds in its 
important mission.
    Thank you again for the opportunity to discuss FirstNet's progress 
and challenges in establishing a public safety wireless broadband 
network. As you can see, FirstNet is making strong progress towards its 
goals. I appreciate the Committee's time and welcome questions.

    The Chairman. Thank you, Mr. Andrews.
    Chief Bryant.

 STATEMENT OF CHIEF G. KEITH BRYANT, PRESIDENT AND CHAIRMAN OF 
      THE BOARD, INTERNATIONAL ASSOCIATION OF FIRE CHIEFS

    Mr. Bryant. Good morning, Chairman Thune, Ranking Member 
Nelson, and members of the Committee.
    The International Association of Fire Chiefs represents 
more than 11,000 leaders of the Nation's fire, rescue, and 
emergency medical services. I would like to thank the Committee 
for this opportunity to provide a public safety perspective on 
the need for a nationwide public safety broadband network and 
to examine the progress made by the First Responder Network 
Authority, or FirstNet.
    FirstNet's goal of building the nationwide public safety 
broadband network to meet the needs of first responders is a 
matter of critical importance for public safety. While the task 
will not be easy, the IAFC believes that FirstNet is developing 
the leadership, staff, and support from states, public safety, 
and other key stakeholders required to make this network a 
reality.
    As a fire chief and as a firefighter who has responded to 
numerous large-scale events including natural disasters and a 
major act of terrorism, I know firsthand the benefits that the 
FirstNet network stands to offer in terms of improving 
communications, coordination, and situational awareness during 
emergency response operations. Just as smartphones have changed 
our personal lives, FirstNet devices and applications 
ultimately will change the way local fire and Emergency Medical 
Service departments operate.
    In terms of daily operations, America's firefighters deal 
with an increasingly complex environment that requires ever-
increasing amounts of information and data to keep citizens and 
themselves safe. The FirstNet network will make it possible to 
gain quick access to new tools and applications that provide 
location data and other vital information for firefighting. It 
will enable the exchange of real-time data and audio/video 
feeds on the fireground to assist incident commanders with 
operational decisionmaking and maximize search and rescue and 
fire suppression effectiveness.
    The FirstNet network will make a profound change in how 
Emergency Medical Service is practiced. In the field of EMS, it 
is important to arrive at a patient's location and transport 
him or her to emergency care at the hospital within minutes. 
The FirstNet network will facilitate critical decisionmaking in 
real-time in the field, which, in turn, will help save lives.
    Lessons learned from many events throughout the nation tell 
us that under emergency conditions, the nation's cellular 
carrier networks quickly become overwhelmed and unusable for 
the transmission of emergency data. We experienced this 
firsthand in Oklahoma City twenty years ago when the Alfred P. 
Murrah Federal Building was bombed. The full deployment of 
FirstNet's nationwide public safety broadband network will 
ensure that America's first responders can access vital 
information under all emergency conditions.
    Candidly, I think there was skepticism from some in public 
safety after FirstNet was formed that our concerns were not 
being hear initially and that the network would not end up 
being a mission-critical network. Public safety organizations 
have consistently said that the network must be mission 
critical at the outset. Under the leadership of new Chairwoman 
Sue Swenson, FirstNet has sought greater input from the Public 
Safety Advisory Committee and engaged with public safety far 
more than previously. The Public Safety Advisory Committee is a 
40-member committee established in statute to provide 
significant recommendations and advice to FirstNet on mission-
critical issues. Public Safety Advisory Committee meets several 
times a year including once this past year near my hometown in 
Norman, Oklahoma.
    We believe public safety's ongoing input through the Public 
Safety Advisory Committee is vital at all stages of the 
network's development so that it will be tailored to meet the 
needs of the end users, America's first responders and other 
public safety entities.
    The IAFC and public safety in general also are very pleased 
with the naming of Chief Jeffrey Johnson, former President and 
Chairman of the Board of the IAFC, as Vice-Chair of FirstNet. 
Chief Johnson is a well-recognized in fire and emergency 
service community as a leader on public safety communications 
issues.
    We believe FirstNet has worked to create opportunities for 
the public safety community to help shape the design of the 
network in several states and territories. For instance, the 
FirstNet Board members, including Chairwoman Swenson and 
executive-level staff, have traveled throughout the country 
over the past year, reaching out and connecting with local and 
state public safety officials. This outreach has dramatically 
improved over the past year and we look forward to it 
continuing as the network is deployed.
    FirstNet's state consultation process is a key element to 
its success and is a venue where IAFC members and other public 
safety personnel are able to ensure that the FirstNet is 
meeting our needs. FirstNet has made tremendous strides with 
state consultations in the past year conducting more than 100 
engagements involving 20,000 stakeholders in Fiscal Year 2014. 
Many of our members have attended and reported favorably on the 
FirstNet's team engagement in their respective states and 
territories. I understand that FirstNet intends to hold 
consultation with the remaining states and territories by the 
end of this year.
    While there are still gaps in understanding and agreement 
during these in-person meetings on what the final network will 
look like, how much it will cost for public safety to use, and 
the network's exact coverage areas, these are exactly the types 
of questions that should be, and are being asked and debated at 
state consultations throughout the country. Public safety must 
be included in these conversations and we appreciate FirstNet's 
engagement with the public safety community over the past year.
    We realize there is still a lot of work to be done and 
FirstNet must continue to move quickly on several key 
activities in 2015. Collectively, these and other developments 
from the last year have helped foster a more inclusive, 
transparent and productive dialogue between FirstNet and the 
public safety community. The FirstNet network is urgently 
needed to increase the safety and capabilities of all public 
safety personnel and protect the American people. However, it 
is not only FirstNet, which bears the responsibility of 
success. It also falls on all public safety officials to ensure 
success in the creation and administration of the broadband 
network.
    I feel confident that FirstNet is on the right path toward 
building a broadband network that will serve the nation's 
firefighters, Emergency Medical Service providers, and other 
emergency responders.
    I truly appreciate the opportunity to be before you today 
and offer this testimony. Thank you, sir.
    [The prepared statement of Mr. Bryant follows:]

Prepared Statement of Chief G. Keith Bryant, President and Chairman of 
       the Board, International Association of Fire Chiefs (IAFC)
    Good morning Chairman Thune, Ranking Member Nelson, and members of 
the Committee. I am Keith Bryant, fire chief of the Oklahoma City Fire 
Department, and President and Chairman of the Board of the 
International Association of Fire Chiefs (IAFC). The IAFC represents 
more than 11,000 leaders of the Nation's fire, rescue and emergency 
medical services. I would like to thank the Committee for this 
opportunity to provide a public safety perspective on the need for a 
nationwide public safety network and to examine the real progress that 
the First Responder Network Authority (FirstNet) has made.
    The Middle Class Tax Relief and Job Creation Act of 2012 (P.L. 112-
96) established FirstNet as an independent authority within the U.S. 
Department of Commerce's National Telecommunications and Information 
Administration. Under the act, FirstNet is tasked with building, 
deploying, and operating a self-funding, sustainable, interoperable 
broadband network for public safety entities across the country and 
within U.S. territories.
    FirstNet's goal of building the nationwide public safety broadband 
network to meet the needs of first responders is a matter of critical 
importance for public safety. While the task will not be easy, the IAFC 
believes that FirstNet is developing the leadership, staff, and support 
from states, public safety, and other key stakeholders required to make 
this network a reality for first responders and the public who call on 
them for help in their time of need.
    As a veteran fire chief, and as a firefighter who has responded to 
numerous large-scale events including natural disasters and acts of 
terrorism, I know firsthand the benefits that the FirstNet network 
stands to offer in terms of improving communications, coordination, and 
situational awareness during public safety operations. Just as 
smartphones have changed our personal lives, FirstNet devices and 
applications ultimately will change the way public safety operates. The 
ability for a single communications network to be used to dispatch 
Emergency Medical Services (EMS) personnel, a medical helicopter, fire 
personnel, and other emergency responders from different jurisdictions 
all at the same time, while enabling video, text, and data 
communications at broadband speeds will save critical minutes when it 
matters most.
    As circumstances and technology continue to make our world smaller, 
situational awareness, real-time information, and data are critical to 
the safety of America's fire and emergency service and the public we 
are sworn to protect. In terms of daily operations, America's 
firefighters deal with an increasingly complex environment that 
requires ever-increasing amounts of information and data to keep 
citizens and themselves safe. The FirstNet network will make it 
possible to gain quick access to new tools and applications that 
provide location data and other vital information for firefighting. It 
will enable the exchange of real-time data and audio/video feeds on the 
fireground to assist incident commanders with operational decision-
making and maximize search and rescue and fire suppression 
effectiveness.
    The FirstNet network will make a profound change in how EMS is 
practiced. In the field of EMS, it is important to arrive at the 
critical-condition patient's location and transport him or her to 
emergency care at the hospital within minutes. The FirstNet network 
will facilitate critical decision-making in real time in the field 
which in turn will help save lives.
    Lessons learned from many events throughout the Nation tell us that 
under emergency conditions, the Nation's cellular carrier networks 
quickly become overwhelmed and unusable for transmission of emergency 
data. We experienced this first hand in Oklahoma City twenty years ago 
when the Alfred P. Murrah Federal Building was bombed. The full 
development of FirstNet's nationwide public safety broadband network 
will ensure that America's first responders can access vital 
information under all emergency conditions.
    Candidly, I think there was skepticism from some in public safety 
after FirstNet was formed that our concerns were not being heard 
initially and that the network would not end up being a mission-
critical network. Public safety organizations have consistently said 
that the network must be mission critical at the outset. Under the 
leadership of new Chair Sue Swenson, FirstNet has sought greater input 
from the Public Safety Advisory Committee (PSAC) and engaged with 
public safety far more than previously. The PSAC is a 40-member 
committee established by the law creating FirstNet to provide 
significant recommendations and advice to FirstNet on mission-critical 
issues. The PSAC meets several times a year, including once this past 
year near my home town in Norman, Oklahoma.
    The PSAC developed and delivered the following documents to 
FirstNet this past year:

  <bullet> A Human Factors Report that analyzes the long-range impacts 
        of the network on the way law enforcement, fire, and EMS 
        operate;

  <bullet> A Potential Users Report that identifies and categorizes 
        lists of potential network users;

  <bullet> A report containing Use Cases for Interfaces, Applications, 
        and Capabilities that envisions practical examples for how the 
        network will be used.

    Recently, the PSAC has been tasked with researching how local 
incident commanders might use priority and preemption on the network as 
well as envisioning what types of devices are necessary for public 
safety personnel in each respective field. We believe public safety's 
ongoing input through the PSAC is vital at all stages of the network's 
development so that it will be tailored to the needs of the end users--
America's first responders and other public safety entities.
    The IAFC and public safety in general are also very pleased with 
the naming of Chief Jeffrey D. Johnson, former President and Chairman 
of Board of the IAFC, as Vice-Chair of FirstNet. Chief Johnson is well-
recognized in the fire and emergency service community as a leader on 
public safety communications issues.
    We believe FirstNet has worked to create opportunities for the 
public safety community to help shape the design of the network in 
several states and territories. For instance, FirstNet Board members, 
including Chair Swenson and executive-level staff, have traveled 
throughout the country over the past year, reaching out and connecting 
with local and state public safety officials. This outreach has 
dramatically improved over the past year and we look forward to it 
continuing as the network is deployed.
    FirstNet's state consultation process is a key element to its 
success and is a venue where IAFC members and other public safety 
personnel are able to ensure that FirstNet is meeting our needs. 
FirstNet has made tremendous strides with state consultations in the 
past year conducting more than 100 engagements involving 20,000 
stakeholders in Fiscal Year 2014. Many of our members have attended and 
reported favorably on the FirstNet team's engagement in their 
respective states and territories. FirstNet has met with 16 states and 
territories; they have over 20 additional scheduled by the end of this 
summer. The IAFC believes that is it critical that FirstNet continue 
its nationwide outreach and consultation to ensure coordination with 
the public safety community in urban, rural, and remote locations, 
including island states and tribal nations. I understand that FirstNet 
intends to hold consultations with the remaining states and territories 
by the end of this year.
    While there are still gaps in understanding and agreement during 
these in-person meetings on what the final network will look like, how 
much it will cost for public safety to use, and the network's exact 
coverage areas, these are exactly the types of questions that should 
be--and are being--asked and debated at state consultations throughout 
the country. Public safety must be included in these conversations and 
we appreciate FirstNet's engagement with the public safety community 
over the past year.
    Public safety fought hard to establish FirstNet because we knew 
that we were being left behind compared to the technologies available 
for personal-use communications. The IAFC, and public safety, are 
united behind the desire to see FirstNet succeed and we will continue 
to fight for public safety's access to the best available technology to 
keep the public safe.
    We realize there is still a lot of work to be done and FirstNet 
must continue to move quickly on several key activities in 2015, but 
collectively, these and other developments from the past year have 
helped foster a more inclusive, transparent, and productive dialogue 
between FirstNet and the public safety community. The FirstNet network 
is urgently needed to increase the safety and capabilities of all 
public safety personnel and protect the American people. It is not only 
FirstNet which bears the responsibility of success, but it also falls 
on all public safety to ensure success in the creation and 
administration of the broadband network. I feel confident that FirstNet 
is on the right path toward building a broadband network that will 
serve the Nation's firefighters, EMS providers, and other emergency 
responders.
    Thank you for the opportunity to testify at today's hearing. I look 
forward to answering any questions that you may have.

    The Chairman. Thank you, Chief.
    Mr. Goldstein.

           STATEMENT OF MARK L. GOLDSTEIN, DIRECTOR,

                PHYSICAL INFRASTRUCTURE ISSUES,

             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Goldstein. Good morning, Chairman Thune, Ranking Member 
Nelson, and members of the Committee.
    I am pleased to be here today to discuss our ongoing work 
on FirstNet. FirstNet is talked with establishing a nationwide, 
interoperable, wireless broadband network specifically for 
public safety. We are currently finalizing a report on 
FirstNet's efforts. As such, the findings I am reporting this 
morning are preliminary in nature.
    The 2012 Act established numerous responsibilities for 
FirstNet, provided $7 billion from spectrum auction proceeds 
for the network's construction, and required FirstNet to be 
self-funding beyond this initial allocation. As part of that 
effort, FirstNet is working with five Early Builder projects 
that are permissioned to build local and regional interoperable 
public safety broadband networks.
    My statement addresses, one, FirstNet's progress carrying 
out its responsibilities and establishing internal controls, 
two, how much the network is estimated to cost and how FirstNet 
plans to become self-funding, and three, what lessons can be 
learned from our early builder projects.
    Our preliminary findings are as follows: First, GAO found 
that FirstNet has made progress carrying out the 
responsibilities established in the act, but lack certain 
elements that affect internal controls. FirstNet has made 
progress establishing an organizational structure, planning the 
nationwide public safety broadband network, and consulting with 
stakeholders. Nevertheless, stakeholders GAO contacted sited 
upcoming issues such as deciding the level of network of 
coverage, which will be difficult for FirstNet to address as it 
continues to carry out its responsibilities.
    With respect to internal controls, FirstNet has begun 
establishing policies and practices consistent with Federal 
standards, but it has not fully assessed its risks or 
established standards of conduct. Given that FirstNet faces a 
multitude of risks to achieve its complex objectives, fully 
assessing risks would help FirstNet respond to risks in a 
proactive way. Developing standards of contact would help 
FirstNet address conduct and performance issues in a timely 
manner.
    Second, GAO found that a nationwide public safety broadband 
network is estimated to cost billions of dollars and FirstNet 
faces difficult decisions determining how to fund the network's 
construction and ongoing operations. Various entities have 
estimated the cost to construct and operate such a network from 
$12 billion to $47 billion of the first 10 years. The actual 
cost of FirstNet's network will be influenced by FirstNet's 
business model especially the extent of personal partnerships, 
use of existing infrastructure, efforts to ensure network 
reliability, and network coverage.
    For example, the cost of the network will likely increase 
if FirstNet does not utilize commercial partnerships and at 
least some existing infrastructure. The 2012 Act provides 
FirstNet $7 billion to establish the network. To become self-
funding, FirstNet is authorized to generate revenue through 
user fees and commercial partnerships, the latter of which can 
involve secondary use of the network for non-public safety 
services. However, GAO's ongoing work suggests that FirstNet 
faces difficult decisions in determining how to best utilize 
these revenue sources. For instances, widespread network 
coverage can attract more users and thus user fee revenues, but 
is expensive to construct and maintain especially in rural 
areas, as the Chairman has noted.
    Finally, we found that FirstNet has taken steps to collect 
and evaluate information and lessons from the five Early 
Builder projects that are developing local and regional public 
safety networks, but it could do more to ensure that it 
properly evaluates and incorporates these lessons. For example, 
FirstNet has asked the projects to report on the experiences of 
their networks' users and has assigned contractors to collect 
and log lessons.
    However, preliminary results indicate that FirstNet does 
not have a plan that clearly articulates how it will evaluate 
those experiences and lessons. GAO has previously found that a 
well-developed evaluation plan for projects like these can help 
ensure that agencies obtain the information necessary to make 
effective program and policy decisions. Given that the Early 
Builder projects are doing on a local and regional level what 
FirstNet must eventually do nationally, an evaluation plan can 
play a key role in FirstNet's strategic planning and program 
management, providing feedback on both program design and 
execution and ensuring FirstNet has not missed opportunities to 
incorporate lessons the projects have identified.
    Chairman Thune, Ranking Member Nelson, members of the 
Committee, this concludes my remarks. I would be happy to 
answer questions at the appropriate time. Thank you.
    [The prepared statement of Mr. Goldstein follows:]

                     GAO Highlights--March 11, 2015
Public Safety Communications
Preliminary Information on FirstNet's Efforts to Establish a Nationwide 
        Broadband Network
Why GAO Did This Study

    Public safety officials rely on thousands of separate radio systems 
to communicate during emergencies, which often lack interoperability, 
or the ability to communicate across agencies and jurisdictions. The 
2012 act created FirstNet to establish a nationwide, interoperable, 
wireless broadband network for public safety use. In doing so, the act 
established numerous responsibilities for FirstNet, provided $7 billion 
from spectrum auctions proceeds for the network's construction, and 
required FirstNet to be self-funding beyond this initial allocation. As 
part of the effort, FirstNet is working with five ``early builder 
projects'' that have permission to build local and regional 
interoperable public-safety broadband networks.
    This statement is based on preliminary information from GAO's 
ongoing review of FirstNet. This statement addresses (1) FirstNet's 
progress carrying out its responsibilities and establishing internal 
controls, (2) how much the network is estimated to cost and how 
FirstNet plans to become self-funding, and (3) what lessons can be 
learned from the early builder projects. GAO reviewed relevant FirstNet 
documentation and public-safety network cost estimates recommended by 
agency officials and experts; surveyed the state-designated FirstNet 
contact in 50 states, 5 territories, and the District of Columbia; and 
interviewed FirstNet officials and public safety and wireless industry 
stakeholders selected for their telecommunications and public safety 
experience, among other things.
What GAO Found

    GAO's ongoing work has found that the First Responder Network 
Authority (FirstNet) has made progress carrying out the 
responsibilities established in the 2012 Middle Class Tax Relief and 
Job Creation Act (the 2012 act) but lacks certain elements of effective 
internal controls. FirstNet has made progress establishing an 
organizational structure, planning the nationwide public-safety 
broadband network, and consulting with stakeholders. Nevertheless, 
stakeholders GAO contacted cited upcoming issues, such as deciding the 
level of network coverage, which will be difficult for FirstNet to 
address as it continues to carry out its responsibilities. With respect 
to internal controls, FirstNet has begun establishing policies and 
practices consistent with Federal standards, but it has not fully 
assessed its risks or established Standards of Conduct. Given that 
FirstNet faces a multitude of risks to achieve its complex objectives, 
fully assessing risks would help FirstNet respond to risks in a 
proactive way. Developing standards of conduct would help FirstNet 
address conduct and performance issues in a timely manner.
    A nationwide public-safety broadband network is estimated to cost 
billions of dollars, and FirstNet faces difficult decisions determining 
how to fund the network's construction and ongoing operations. Various 
entities have estimated the cost to construct and operate such a 
network from $12 to $47 billion over the first 10 years. The actual 
cost of FirstNet's network will be influenced by FirstNet's (1) 
business model, especially the extent of commercial partnerships; (2) 
use of existing infrastructure; (3) efforts to ensure network 
reliability; and (4) network coverage. For example, the cost of the 
network will likely increase if FirstNet does not utilize commercial 
partnerships and at least some existing infrastructure. The 2012 act 
provides FirstNet $7 billion to establish the network. To become self-
funding, FirstNet is authorized to generate revenue through user fees 
and commercial partnerships, the latter of which can involve secondary 
use of the network for non-public safety services. However, GAO's 
ongoing work suggests that FirstNet faces difficult decisions in 
determining how to best utilize these revenue sources. For instance, 
widespread network coverage can attract more users, and thus user fee 
revenue, but is expensive to construct and maintain, especially in 
rural areas.
    FirstNet has taken steps to collect and evaluate information and 
lessons from the five ``early builder projects'' that are developing 
local and regional public-safety networks, but could do more to ensure 
that it properly evaluates and incorporates these lessons. For example, 
FirstNet has asked the projects to report on the experiences of their 
networks' users and has assigned contractors to collect and log 
lessons. However, preliminary results indicate that FirstNet does not 
have a plan that clearly articulates how it will evaluate those 
experiences and lessons. GAO has previously found that a well-developed 
evaluation plan for projects like these can help ensure that agencies 
obtain the information necessary to make effective program and policy 
decisions. Given that the early builder projects are doing on a local 
and regional level what FirstNet must eventually do nationally, an 
evaluation plan can play a key role in FirstNet's strategic planning 
and program management, providing feedback on both program design and 
execution and ensuring FirstNet has not missed opportunities to 
incorporate lessons the projects have identified.
                                 ______
                                 
      Prepared Statement of Mark L. Goldstein, Director, Physical 
      Infrastructure Issues, U.S. Government Accountability Office

  Public Safety Communications--Preliminary Information on FirstNet's 
          Efforts to Establish a Nationwide Broadband Network

    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee:

    I am pleased to be here today to discuss our ongoing work on the 
First Responder Network Authority (FirstNet). The 2012 Middle Class Tax 
Relief and Job Creation Act (the 2012 Act) created FirstNet as an 
independent authority within the Department of Commerce's National 
Telecommunications and Information Administration (NTIA).\1\ FirstNet 
is tasked with establishing a nationwide, interoperable, wireless 
broadband network specifically for public safety (hereafter, the public 
safety network). We are currently finalizing a report on FirstNet's 
efforts; as such, the findings that I am reporting to the Committee 
today are preliminary in nature.
---------------------------------------------------------------------------
    \1\ Pub. L. No. 112-96, Sec. 6204(a), 126 Stat. 156, 208 (2012).
---------------------------------------------------------------------------
    Communication systems are essential for public safety officials--
especially first responders such as police, firefighters, and 
paramedics--to gather and share information during emergencies. Today, 
first responders rely on thousands of separate, incompatible, and often 
proprietary land mobile radio (LMR) systems for their mission-critical 
voice communications. Oftentimes these LMR systems lack 
``interoperability''--the capabilities that allow first responders to 
communicate with their counterparts in other agencies and 
jurisdictions--which has been a long-standing concern. For example, 
during the terrorist attacks of September 11, 2001, and also during 
Hurricane Katrina in 2005, the lack of interoperable public safety 
communications hampered rescue efforts. To supplement these LMR 
systems, many first responders also use commercial wireless networks 
for data transmissions. While FirstNet's public safety network will not 
initially improve the interoperability of voice communications among 
first responders, the network is expected to support important data 
transmission (such as security-camera video feeds). For mission-
critical voice communications, public safety entities will likely 
continue to rely on their LMR systems for many years.
    The 2012 act established numerous responsibilities for FirstNet, 
allocated billions of dollars for the network's construction, and set 
aside radio frequency spectrum on which it will operate.\2\ Public 
safety users of the network, and potentially other ``secondary'' 
users,\3\ may be charged fees to use the network, much as they 
currently pay to use commercial wireless networks. To inform its work, 
FirstNet has been consulting with numerous federal, state, local, and 
tribal jurisdictions, and is working with five ``early builder 
projects'' that received Federal funding to deploy local and regional 
public-safety broadband networks similar to what FirstNet is required 
to establish on a national scale. FirstNet also has to develop a 
business plan that supports the upfront and ongoing costs of the 
network.
---------------------------------------------------------------------------
    \2\ Radio signals travel through space in the form of waves. These 
waves vary in length, and each wavelength is associated with a 
particular radio frequency. The radio frequency spectrum is the part of 
the natural spectrum of electromagnetic radiation lying between the 
frequency limits of 3 kilohertz (kHz) and 300 gigahertz (GHz).
    \3\ The 2012 act allows FirstNet to establish agreements that allow 
access to the public safety network through entities involved in the 
construction, management, or operation of the network, on a secondary 
basis for services other than public safety, such as individual 
commercial customers using the network much as they currently use 
existing commercial networks. Pub. L. No. 112-96, Sec. 6208(a)(2)(B), 
126 Stat. 156, 216, 208.
---------------------------------------------------------------------------
    My statement today presents preliminary information from our 
ongoing review--requested by this Committee--of FirstNet. My statement 
will address: (1) the extent to which FirstNet is carrying out its 
responsibilities and establishing internal controls for developing the 
public safety network, (2) how much the network is estimated to cost to 
construct and operate and how FirstNet plans to become a self-funding 
entity, and (3) what lessons can be learned from local and regional 
public-safety-network early builder projects.
    For our ongoing work, we reviewed FirstNet documentation--such as 
its Requests for Information (RFI) and FirstNet board meeting 
materials--and compared FirstNet's efforts with requirements 
established in the 2012 act.\4\ We also compared FirstNet's efforts to 
establish internal controls with criteria established in the Federal 
Standards for Internal Control.\5\ We reviewed cost estimates for a 
nationwide public-safety broadband network from the Congressional 
Budget Office, the Federal Communications Commission (FCC), and 
academics.\6\ We reviewed documentation related to how FirstNet plans 
to collect and evaluate lessons learned from the early builder 
projects--such as Spectrum Manager Lease Agreements and Key Learning 
Conditions Plans--and assessed these plans against key features of a 
well-developed evaluation plan for pilot projects identified by our 
previous reports.\7\ To obtain stakeholder views, we surveyed all 50 
states, the District of Columbia, and 5 U.S. territories (hereafter, 
states) and received 55 responses, for a 98 percent response rate.\8\ 
We interviewed FirstNet and NTIA officials and a variety of other 
stakeholders, such as officials from state and local public safety 
entities, commercial wireless carriers, subject matter experts, public 
safety associations, Federal agencies including FCC and the Department 
of Homeland Security, and government officials in Sweden responsible 
for establishing a public-safety communications network in their 
country.\9\ We also interviewed officials from the five current early 
builder projects (Los Angeles, CA; Adams County, CO; New Jersey; New 
Mexico; and Harris County, TX) and three projects that were canceled 
(Charlotte, NC; Mississippi; and San Francisco, CA).
---------------------------------------------------------------------------
    \4\ We did not review FirstNet's progress against every 
responsibility established for it in the 2012 act, because it is not 
possible for FirstNet to have made progress on some responsibilities.
    \5\ GAO, Standards for Internal Control in the Federal Government, 
GAO/AIMD-00-21.3.1 (Washington, D.C.: Nov. 1999). The most recent 
version of these standards was issued in September 2014. GAO, Standards 
for Internal Control in the Federal Government, GAO-14-704G 
(Washington, D.C.: Sept. 10, 2014). These new standards become 
effective October 1, 2015, but an entity's management may elect early 
adoption. According to FirstNet officials, as the Department of 
Commerce proceeds with the rollout of these revisions, NTIA and 
FirstNet will also adopt these new standards. Although these new 
standards are not yet effective and FirstNet is not required to abide 
by them, given that they will be effective soon and that FirstNet is 
still in the process of developing its internal control system, doing 
so according to these new standards would prevent FirstNet from having 
to re-design any elements of its system later this year.
    \6\ We identified these cost estimates through interviews with 
agency officials and subject matter experts. We did not perform a full 
data reliability assessment of the numbers in these estimates because 
the purpose of the estimates within the scope of our review was to 
provide illustrative examples.
    \7\ See, for example, GAO, Tax Administration: IRS Needs to 
Strengthen Its Approach for Evaluating the SRFMI Data-Sharing Pilot 
Program, GAO-09-45 (Washington, D.C.: Nov. 7, 2008). GAO-09-45 
identified key features of an evaluation plan through the consultation 
of social science and evaluation literature, along with published GAO 
guidance.
    \8\ We e-mailed the survey to the FirstNet Single Point of Contact 
in each state. We administered the survey from October 2014 through 
November 2014. We did not receive a response from Puerto Rico.
    \9\ We selected stakeholders by considering their involvement in 
the early builder project jurisdictions, experience with operating and 
using wireless communications systems and public-safety communications 
systems and devices in particular, familiarity with FirstNet and its 
mission, and--to obtain a cross-section of public safety disciplines--
their public safety role.
---------------------------------------------------------------------------
    Our ongoing review is being conducted in accordance with generally 
accepted government auditing standards. We discussed the information in 
this statement with FirstNet officials to obtain their views. As our 
work is ongoing, we are not making recommendations for FirstNet at this 
time; we plan to further analyze information related to these issues 
and provide this Committee with a final report later this year. At this 
Committee's request, we also plan to review FirstNet's efforts to 
satisfy key technical requirements of the network in the future.
Background
    The 2012 act established numerous responsibilities for FirstNet, 
most of which relate directly to developing the public safety network. 
For example, in establishing the network, FirstNet must

  <bullet> issue open, transparent, and competitive Requests for 
        Proposals (RFP) to private sector entities for the purpose of 
        building, operating, and maintaining the network;

  <bullet> enter into agreements to use, to the maximum extent 
        economically desirable, existing commercial, federal, state, 
        local, and tribal infrastructure;

  <bullet> promote competition in the public-safety equipment 
        marketplace by requiring that equipment for the network be 
        built to open, non-proprietary standards; and

  <bullet> develop the technical and operational requirements for the 
        network, as well as the practices and procedures for managing 
        and operating it.

    In establishing the infrastructure for the public safety network, 
the 2012 act requires FirstNet to include the network components 
depicted in figure 1.\10\
---------------------------------------------------------------------------
    \10\ Pub. L. No. 112-96, Sec. 6202(b), 126 Stat, 156, 206.
---------------------------------------------------------------------------
Figure 1: Key Elements of First Responder Network Authority's Public 
        Safety Network
        
        
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    <SUP>a</SUP> Generally, ``dongles'' are small devices that plug 
into computers and serve as an adapter or as a security measure to 
enable the use of certain software.
    <SUP>b</SUP> Generally, ``air cards'' are wireless adapters for 
sending and receiving data in a cellular network.

    In developing the public safety network, FirstNet must work with a 
variety of stakeholders. The 2012 act required FirstNet to be headed by 
a 15-member board with 3 permanent members and 12 individuals appointed 
by the Secretary of Commerce.\11\ The 2012 act also required FirstNet 
to establish a standing public safety advisory committee to assist it 
in carrying out FirstNet's responsibilities and consult with federal, 
regional, state, local, and tribal jurisdictions on developing the 
network.\12\ For state, local, and tribal planning consultations, 
FirstNet is required to work with the Single Points of Contact (SPOC) 
who have been designated by each state.\13\ Specifically, SPOCs are the 
individuals responsible for working with FirstNet in their states, and 
FirstNet will work through these individuals to gather requirements 
from key stakeholders in each state. The 2012 act requires FirstNet to 
notify the states when it has completed its RFPs for building, 
operating, and maintaining the public safety network.\14\ Once a state 
receives the details of FirstNet's plans, it has 90 days either to 
agree to allow FirstNet to construct a Radio Access Network (RAN) in 
that state or notify FirstNet, NTIA, and FCC of its intent to deploy 
its own RAN.\15\ The 2012 act required FCC, the entity responsible for 
managing and licensing commercial and non-federal spectrum use--
including spectrum allocated to public safety--to grant FirstNet the 
license to the public safety spectrum that the act set aside for the 
network.\16\ FCC has also conducted spectrum auctions, as required by 
the 2012 act, so that auction proceeds could be used to fund FirstNet. 
The 2012 act provides $7 billion from these proceeds to FirstNet for 
buildout of the network, and requires FirstNet to become self-funding 
beyond this initial $7 billion by generating revenue through user fees 
and other sources.\17\
---------------------------------------------------------------------------
    \11\ The 3 permanent members are the Secretary of Homeland 
Security, the Attorney General, and the Director of the Office of 
Management and Budget. The appointed members are required to have 
public safety experience or technical, network, or financial expertise. 
Pub. L. No. 112-96, Sec. 6204(b)(2)(B), 126 Stat. 156, 209.
    \12\ Pub. L. No. 112-96, Sec. 6205, 126 Stat. 156, 211.
    \13\ Pub. L. No. 112-96, Sec. 6206(c)(2)(B), 126 Stat. 156, 214.
    \14\ Pub. L. No. 112-96, Sec. 6302(e)(1), 126 Stat. 156, 219.
    \15\ A state that ``opts out'' of FirstNet's network has an 
additional 180 days to send FCC an alternative plan for constructing, 
operating, and maintaining its RAN. The plan must demonstrate that the 
state's proposed RAN would comply with certain minimum technical 
requirements and be interoperable with FirstNet's network. FCC shall 
either approve or disapprove the plan. In addition, a state that opts 
out is required to apply to NTIA for an agreement to use FirstNet's 
spectrum.
    \16\ Specifically, the 2012 act required FCC to reallocate the ``D 
Block,'' a previously commercial spectrum block located in the upper 
700 megahertz (MHz) band, to public safety and to grant a license to 
FirstNet for the use of both the existing public-safety broadband 
spectrum in the upper 700 MHz band and the D Block. Pub. L. No. 112-96, 
Sec. Sec. 6101 and 6201, 126 Stat. 156, 205 and 206.
    \17\ The $7 billion is reduced by the amount needed to establish 
FirstNet, as well as the amount provided to states to help them prepare 
for the network and, if they choose to opt out of FirstNet's network, 
to construct their own RANs. NTIA was allowed to borrow $2 billion from 
the U.S. Treasury to support FirstNet's work prior to the deposit of 
auction proceeds into the newly created Public Safety Trust Fund, and 
must reimburse the Treasury from funds deposited into the Public Safety 
Trust Fund once the spectrum auctions are complete. Pub. L. No. 112-96, 
Sec. Sec. 6207 and 6208, 126 Stat. 156, 215.
---------------------------------------------------------------------------
    Efforts to establish local and regional public-safety networks are 
also ongoing, and predate the 2012 act. From 2009 to 2011, FCC granted 
waivers from its public-safety spectrum rules to 22 jurisdictions to 
allow early deployment of local and regional public-safety broadband 
networks.\18\ Of those 22 jurisdictions, 8 projects received Federal 
funding to deploy their networks.\19\ After FCC granted FirstNet its 
public-safety broadband spectrum license in November 2012, the 
jurisdictions had to secure a Spectrum Manager Lease Agreement with 
FirstNet to continue deploying their networks. By August 2014, FirstNet 
secured these agreements with five original waiver jurisdictions, all 
of which had received Federal funding to deploy their networks: Los 
Angeles, CA; Adams County, CO; New Jersey; New Mexico; and Harris 
County, TX; in this statement, we refer to these jurisdictions as early 
builder projects. Three other original waiver jurisdictions that 
received Federal funds were unable to reach an agreement with FirstNet 
for various reasons and, thus, were canceled: Charlotte, NC; 
Mississippi; and San Francisco, CA. FirstNet has not yet determined if 
or how the early builder project networks will be incorporated into its 
nationwide network, and has noted that various factors could affect 
this determination.
---------------------------------------------------------------------------
    \18\ Requests for Waiver of Various Petitioners to Allow the 
Establishment of 700 MHz Interoperable Public Safety Wireless Broadband 
Networks, Order, 25 FCC Rcd 5145, (2010); Requests for Waiver of 
Various Petitioners to Allow the Establishment of 700 MHz Interoperable 
Public Safety Wireless Broadband Networks, Order, 25 FCC Rcd 6783, 
(2011).
    \19\ Seven projects received funding through the Broadband 
Technology Opportunities Program (BTOP), which is a Federal grant 
program to promote the expansion of broadband infrastructure. NTIA was 
authorized to award BTOP grants through the American Recovery and 
Reinvestment Act of 2009, Pub. L. No. 111-5, 123 Stat. 115 (2009). One 
project, located in Harris County, TX, obtained a grant for its project 
from the Federal Emergency Management Agency.
---------------------------------------------------------------------------
FirstNet Is Making Progress Meeting Responsibilities but Lacks Certain 
        Elements of Effective Internal Controls
FirstNet Is Making Progress Carrying Out Statutory Responsibilities
    Our ongoing work indicates that FirstNet has made progress carrying 
out its statutory responsibilities in three areas--(1) establishing its 
organizational structure, (2) planning the public safety network, and 
(3) consulting with stakeholders--but could face challenges in each of 
these areas.
Establishing its Organizational Structure

    As a newly created entity within the Federal Government, FirstNet 
has taken a number of steps to establish its organizational structure 
and hire staff. As required by the 2012 act, the Secretary of Commerce 
appointed FirstNet's inaugural Board Members in August 2012 and, in 
February 2013, established the Public Safety Advisory Committee 
(PSAC).\20\ In April 2013, the FirstNet Board selected an Executive 
Director to lead its day-to-day operations.\21\ Since then, FirstNet 
has hired, and continues to hire, other senior management personnel to 
lead its organizational units (such as a Chief Counsel and Chief 
Administrative, Financial, and Information Officers), Directors and 
organizational chiefs to further lead and perform its work, and other 
general staff. As of February 2015, FirstNet had over 120 employees.
---------------------------------------------------------------------------
    \20\ Pub. L. No. 112-96, Sec. Sec. 6204(b) and 6205(a)(1), 126 
Stat. 156, 209 and 211.
    \21\ FirstNet originally called this position ``General Manager'' 
but has since changed the position to ``Executive Director.'' 
FirstNet's first Executive Director resigned in April 2014. As of 
February 2015, the position was still vacant and FirstNet's Deputy 
Executive Director is serving as Acting Executive Director.
---------------------------------------------------------------------------
    Stakeholders we spoke with and surveyed for our ongoing work 
expressed concern that organizational issues have slowed FirstNet's 
progress, and could continue to do so. In particular, in response to 
our survey, numerous SPOCs either noted that FirstNet's placement 
within NTIA could create ``bureaucratic'' obstacles or that FirstNet 
should be more independent from NTIA. However, FirstNet officials told 
us that while FirstNet has leveraged its relationship with NTIA in 
administrative and legal matters, it exercises strong independence in 
decisions that are directly program-related. Numerous stakeholders we 
surveyed and interviewed were also concerned about the pace of 
FirstNet's hiring, noting that the Federal hiring process is too slow, 
has not allowed FirstNet to hire staff quickly enough, and has delayed 
FirstNet's progress. For example, FirstNet hired State and Local, 
Tribal, and Federal Outreach Leads in June and August 2014, almost 2 
years after FirstNet's Board Members were appointed, and is still in 
the process of hiring staff for key positions. According to FirstNet 
officials, FirstNet faces challenges hiring as quickly as it would like 
to due to government hiring procedures, but is seeking direct hire 
authority from the Office of Personnel Management.
Planning the Public Safety Network

    To plan the public safety network and help ensure that its approach 
is open and transparent and meets the 2012 act's requirements, FirstNet 
intends to follow the Federal Acquisition Regulation (FAR) process for 
its comprehensive network services procurement.\22\ This process will 
culminate in one or multiple RFPs for ``network solution(s)''--that is, 
proposals for the building, deployment, operation, and maintenance of 
the public safety network. To help it draft the RFP(s), FirstNet has 
sought comments through an October 2012 Notice of Inquiry, 13 RFIs 
issued between April 2013 and September 2014, and a September 2014 
Public Notice.\23\ Through these items, FirstNet has sought comment on 
various technical aspects of the network, devices and applications for 
public safety, and its interpretations of the 2012 act's requirements. 
FirstNet received almost 600 comments to these Notices and RFIs. 
FirstNet confirmed in February 2015 that it expects to issue a draft 
RFP and a second Public Notice by the end of March 2015. FirstNet has 
also received technical input from a variety of stakeholders, such as 
FCC, the PSAC, the National Public Safety Telecommunications Council 
(NPSTC), and the Public Safety Communications Research (PSCR) 
program.\24\
---------------------------------------------------------------------------
    \22\ The FAR is a substantial and complex set of rules governing 
the process by which Executive Branch agencies purchase goods and 
services. Its purpose is to ensure purchasing procedures are standard 
and consistent, and conducted in a fair and impartial manner.
    \23\ 79 Fed. Reg. 57058 (Sept. 24, 2014).
    \24\ NPSTC is a federation of organizations whose mission is to 
improve public safety communications and interoperability through 
collaborative leadership. PSCR is a joint National Institute of 
Standards and Technology and NTIA effort.
---------------------------------------------------------------------------
    While many stakeholders we surveyed and interviewed for our ongoing 
work noted that FirstNet's progress has been too slow, some also noted 
that they were satisfied with FirstNet's progress given the complex 
nature of FirstNet's tasks and that it is a government entity subject 
to Federal rules and regulations. Some also said that FirstNet's 
progress has improved recently, especially as FirstNet has hired more 
staff. However, numerous stakeholders we interviewed cited upcoming 
difficulties. For example, they noted that deciding the level of 
network coverage and security, working out agreements for use of 
existing infrastructure, and navigating state regulations will be 
difficult issues to address moving forward.
Consulting Stakeholders

    FirstNet has initiated a process to consult with the SPOC in each 
state and FirstNet officials have conducted outreach to other 
stakeholders. FirstNet began its formal state consultation process in 
April 2014; as part of this process, FirstNet plans to hold an initial 
consultation meeting in each state. Initial state consultation meetings 
began in July 2014--when FirstNet conducted its first consultation with 
Maryland--and FirstNet expects these initial meetings to continue 
through 2015, with additional rounds to follow. As of February 25, 
2015, FirstNet has conducted initial consultation meetings with 14 
states and Puerto Rico. Additionally, from October 2013 to February 
2015, FirstNet officials visited 39 states and territories while 
participating in 187 events, such as public safety, industry, and 
government (including federal, state, local, and tribal) conferences. 
FirstNet also launched a public website in March 2014, where it 
regularly posts updates, presentations, board meeting minutes, a list 
of upcoming speaking engagements, and other information.
    The majority of stakeholders we surveyed for our ongoing work were 
generally satisfied with the level of FirstNet's consultation and 
outreach, but others were dissatisfied and said that they would like 
more new information. Specifically, in response to our survey, 54 
percent of SPOCs said they were either ``moderately'' or ``very'' 
satisfied with FirstNet's overall level of consultation, coordination, 
and communication with their state, including the level of input 
FirstNet has sought from their state, and 22 percent said they were 
either ``moderately'' or ``very'' dissatisfied.\25\ Numerous 
stakeholders we surveyed and interviewed said that they would like more 
new and detailed information and that they would like FirstNet to focus 
more on certain aspects of the public safety network during outreach. 
However, in response to our survey, many SPOCs also acknowledged that 
the level of new and detailed information exchanged will likely 
increase once they hold their initial state consultation meeting with 
FirstNet.
---------------------------------------------------------------------------
    \25\ Twenty-two percent were ``neither satisfied nor 
dissatisfied.'' These percentages do not equal 100 due to rounding and 
because one SPOC responded ``do not know.''
---------------------------------------------------------------------------
FirstNet Has Not Assessed Risk or Established a Complete Control 
        Environment
    Internal controls are the plans, methods, policies, and procedures 
that an entity uses to fulfill its mission, strategic plan, goals and 
objectives. An effective internal control system increases the 
likelihood that an entity will achieve its objectives. For our ongoing 
review, we assessed FirstNet's policies and practices against two 
components of an effective Federal internal control system: Risk 
Assessment and Control Environment.\26\ For those two components, we 
found that FirstNet lacks certain elements that contribute to the 
proper implementation of effective internal control systems. While 
FirstNet has stated that it is relying on the Department of Commerce 
and NTIA's internal controls where it has not developed its own, it is 
important for FirstNet to implement its own controls, as the Commerce 
Office of Inspector General (OIG) noted as early as February 2014 in a 
memo on the management challenges facing FirstNet.
---------------------------------------------------------------------------
    \26\ We chose these two components because risk assessment provides 
the basis for developing appropriate risk responses and control 
activities, and the control environment is the foundation for an 
internal control system.
---------------------------------------------------------------------------
Risk Assessment

    According to Federal internal control standards, management should 
assess risks facing the entity as it seeks to achieve its objectives. 
Specifically, entities should first clearly define their objectives 
then identify and analyze risks from both internal and external 
sources. Analyzing risks generally includes estimating the risk's 
significance, assessing the likelihood of its occurrence, and deciding 
how to respond to it. Risk assessments inform an entity's policies, 
planning, and priorities, and help entities develop responses to the 
risks they face, so that they can achieve their objectives.
    Our preliminary results indicate that, although FirstNet has set 
objectives and taken some steps to assess risks it has not yet fully 
assessed risks it may face in accomplishing its objectives. 
Specifically, FirstNet has set three key objectives and has further 
delineated how it will accomplish these objectives in a ``roadmap'' 
that identifies additional long-term and short-term objectives and 
milestones.\27\ To support its development of this roadmap, FirstNet 
created a ``risk register'' that identifies some risks related to its 
financial sustainability as well as possible counter-measures.\28\ 
However, FirstNet officials told us in November 2014 that they had not 
yet fully assessed risks because they were in the process of defining 
risk factors and, again in December 2014, because they were in the 
process of conducting a legal compliance risk assessment of certain key 
risk areas. In December 2014, FirstNet officials also said that they 
intend to perform periodic risk assessments in various areas to manage 
risks on an iterative basis. However, as of February 2015, FirstNet has 
not yet completed these risk assessment activities; therefore, we were 
unable to evaluate them and it remains unclear how effective FirstNet's 
efforts will be in helping it to identify and respond to obstacles to 
fulfilling its responsibilities.
---------------------------------------------------------------------------
    \27\ Due to the sensitive information about FirstNet's procurement 
activities contained in this roadmap, FirstNet has not publicly 
released the full version. The executive summary is available on 
FirstNet's website at http://www.firstnet.gov/content/march-board-
directors-meeting.
    \28\ Due to the sensitive information about FirstNet's procurement 
and cost estimating activities contained in this risk register, 
FirstNet has not publicly released it.
---------------------------------------------------------------------------
    As FirstNet performs these assessments, we believe that it will be 
important for FirstNet to incorporate all of the elements of risk 
assessment detailed in the Federal internal control standards. An 
internal control system that is not based on complete risk assessments 
(that is, assessments that incorporate these elements) could lead to 
FirstNet responding to risks in a reactive manner and could hinder 
FirstNet's ability to achieve its objectives while maximizing use of 
its available resources. We are concerned that the complexity of 
FirstNet's objectives, makeup of its board, and challenges it will face 
becoming self-funding illustrate the multitude of potential risks 
FirstNet faces. For example, as we point out later in this statement, 
various factors could hinder whether public safety entities adopt the 
public safety network--and thus how much user fee revenue FirstNet can 
collect--which could pose risks to FirstNet's ability to become self-
funding.
Control Environment

    The control environment is the foundation for an internal control 
system and provides the basic structure that helps an entity achieve 
its objectives. To help set this environment, according to Federal 
internal control standards, an entity should, among other things, 
demonstrate a commitment to integrity and ethical values, such as by 
setting a positive ``tone at the top,'' providing and evaluating 
adherence to ethical and behavioral guidance, and removing temptations 
for unethical behavior.
    Our preliminary results indicate that, although FirstNet has taken 
a number of steps to establish an effective control environment, it has 
not yet finished doing so. FirstNet has held ethics briefings, 
counseling, and training; distributed ethics documents; and instituted 
a Board Member Vendor Interaction Policy to establish processes for 
interacting with vendors with a potential interest in FirstNet's 
procurement. However, as of February 2015, FirstNet had not yet 
developed Standards of Conduct, which is an important form of ethical 
and behavioral guidance. According to FirstNet officials, FirstNet 
intends to develop Standards of Conduct but has not yet done so 
because, as a ``startup'' entity, building up the organization while 
making progress meeting statutory responsibilities is a balancing act 
affected by FirstNet's priorities and resources.
    Nonetheless, absent Standards of Conduct, we are concerned that 
FirstNet may not be able to address deviations in conduct and 
performance and take corrective actions in a timely manner. Indeed, 
FirstNet itself established a special committee in May 2013 to review 
ethical concerns raised by one of its Board Members. Similarly, in a 
December 2014 report, the Department of Commerce OIG identified 
concerns with FirstNet's financial disclosure reporting and contracting 
practices, among other things.\29\ The report highlighted that the 
FirstNet Board, out of necessity, includes members with significant 
ties to the telecommunications industry that make strategic decisions 
regarding FirstNet's operations and, thus, are at increased risk of 
encountering conflicts of interests. We believe that establishing and 
evaluating adherence to Standards of Conduct may help FirstNet ensure 
that all its personnel are held accountable for their actions and that 
stakeholders maintain trust in its ability to be a good steward of 
public funds.
---------------------------------------------------------------------------
    \29\ Commerce OIG, First Responder Network Authority: FirstNet Must 
Strengthen Management of Financial Disclosures and Monitoring of 
Contracts, Final Report No. OIG-15-013-A (Washington, D.C.: Dec. 5, 
2014).
---------------------------------------------------------------------------
FirstNet Faces Difficult Decisions in Determining How to Pay for a 
        Nationwide Public Safety Network Estimated to Cost Billions
Cost of a Public Safety Network Estimated to Be at Least $12 Billion 
        over the First 10 Years
    Various entities have estimated the cost to construct and operate a 
nationwide network for public safety from a low of $12 billion to a 
high of between $34 and $47 billion, over the first 10 years. As shown 
in table 1, a variety of entities have developed cost estimates for a 
public-safety broadband network, although they have used different 
assumptions about the network's scope. Key assumptions influencing 
these estimates include whether the network is constructed, operated, 
or financed in partnership with commercial entities, and the number of 
sites needed to provide the network's coverage. Our ongoing work has 
found that differences among these estimates are difficult to identify 
since some of the estimates do not explicitly state all of their 
assumptions.

 
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
 


                                  Table 1.--Selected Cost Estimates for Constructing a Public-Safety Broadband Network
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                            Up-Front
                                                                              Coverage                  Cost per Site      Deployment      Total Costs,
                                                                             (Percent of     Sites       (thousands)         Costs        First 10 Years
                                                                             Population)                                  (Billions) b     (Billions) c
--------------------------------------------------------------------------------------------------------------------------------------------------------
Cyren Call                 2007                  Yes                                   99     37,000       No estimate            $18 d      No estimate
Communications
Corporation
--------------------------------------------------------------------------------------------------------------------------------------------------------
Eisenach                   2007                  Yes                                   99     33,700          $600,000      No estimate              $20
--------------------------------------------------------------------------------------------------------------------------------------------------------
Federal Communications     2010                  Yes                                   99     44,800        $140,625 e               $7           $12-16
                          ------------------------------------------------------------------------------------------------------------------------------
Commission                                       No                                    99     44,800        $350,446 e              $16           $34-47
--------------------------------------------------------------------------------------------------------------------------------------------------------
Hallahan and Peh a         2010                  Yes                                   99     19,400          $500,000              $10              $18
                          ------------------------------------------------------------------------------------------------------------------------------
                                                 No                                    99     22,200          $500,000              $11              $20
--------------------------------------------------------------------------------------------------------------------------------------------------------
Congressional Budget       2011                  Yes                                   95     45,000       No estimate      No estimate              $12
Office
--------------------------------------------------------------------------------------------------------------------------------------------------------
Sources: Sachs, Elizabeth, on behalf of Cyren Call Communications Corporation, In the Matter of Public Safety Network in the 700 MHz Broadband, Ex Parte
  Presentation to Federal Communications Commission, June 3, 2007; Eisenach, Jeffrey, Due Diligence: Risk Factors in the Frontline Proposal, June 28,
  2007; Federal Communications Commission, A Broadband Network Cost Model: A Basis for Public Funding Essential to Bringing Nationwide Interoperable
  Communications to America's First Responders, OBI Technical Working Paper No.2, May 2010; Hallahan, Ryan, and John M. Peha, Quantifying the Costs of a
  Nationwide Public Safety Wireless Network, Telecommunications Policy, 34 (2010); and Congressional Budget Office, Cost Estimate: S. 911 Public Safety
  Spectrum and Wireless Innovation Act, July 2011.
a The figures are presented here as they were reported at the time of publication; that is, we did not adjust these figures for inflation.
b Estimates vary in scope, with some estimating the total cost and some only considering costs associated with the installation and operation of cell
  sites and not the costs of the backbone network components, or the costs of network planning and administration.
c The total costs include both the up-front deployment costs plus ongoing costs, such as maintenance and operations, over the first 10 years.
d This estimate is described as including ``cumulative capital expenditures.'' It is not clear whether this only includes up-front deployments costs or
  also some (or all) maintenance and operations over the first 10 years.
e This is an average cost across all proposed sites. The Federal Communications Commission estimated different costs for sites in urban, suburban, and
  rural areas.

Various Factors Will Influence Cost of FirstNet's Public Safety Network
    Our preliminary analysis indicates that cost estimates 
notwithstanding, various factors will influence the cost of 
constructing and operating FirstNet's public safety network, including 
(1) the business model used, especially the extent of commercial 
partnerships; (2) use of existing infrastructure; (3) efforts to ensure 
network reliability; and (4) network coverage.
Extent of Commercial Partnerships

    FirstNet's business model, especially the extent to which it 
partners with commercial carriers or other private enterprises, will 
influence the cost to construct and operate the public safety network. 
The 2012 act gives FirstNet the authority to engage in a variety of 
commercial partnerships.\30\ In a partnership, public safety and 
commercial users could share the network's infrastructure and spectrum, 
with public safety given priority to all network capacity during 
emergencies.\31\ Some public safety stakeholders we spoke with 
maintained the need for FirstNet to work with commercial partners in 
building and operating the network for it to be financially 
sustainable. One study also calculated that the value of serving both 
commercial and public safety users is greater than the additional costs 
to serve commercial users.\32\
---------------------------------------------------------------------------
    \30\ Pub. L. No. 112-96, Sec. 6206(c)(3), 126 Stat. 156, 214.
    \31\ ``Priority'' transmission of calls and data is provided 
through special enhancements embedded in telecommunications networks to 
identify transmissions made by authorized users as higher priority than 
those made by other users. These enhancements automatically place the 
transmission higher in the queue over those made by other users.
    \32\ Hallahan, Ryan and John M. Peha, The Business Case of a 
Network that Serves both Public Safety and Commercial Subscribers, 
Telecommunications Policy, 35 (2011).
---------------------------------------------------------------------------
Use of Existing Infrastructure

    The use of existing infrastructure will influence the cost to 
construct and operate FirstNet's public safety network. Under 
agreements to share existing wireless-network infrastructure, FirstNet 
may be able to make use of, for example, cell towers, antennae, 
cabling, radio-processing equipment, backup power facilities, and the 
links between towers and the nearest communications hub, to the extent 
economically desirable to do so. According to FCC estimates, capital 
costs would be 2.5 times greater without this form of sharing. However, 
the use of existing infrastructure can have limitations. For instance, 
negotiating access to existing infrastructure can be a time-consuming 
process--especially with government-owned or controlled facilities and 
where multiple owners must be contracted with--ultimately slowing down 
network deployment. For our ongoing work, we spoke with Swedish 
officials about the public-safety communications network in their 
country, and they told us that they sought to use existing 
infrastructure to save costs when constructing their network, but faced 
problems in their largest cities convincing tower owners to allow the 
government to rent the towers.\33\ Furthermore, there may be a risk 
when public safety relies on infrastructure owned by commercial 
operators, particularly if it has to rely on a single provider in any 
given location that can then charge high fees.
---------------------------------------------------------------------------
    \33\ This interoperable network in Sweden is called the ``Rakel'' 
network and is primarily used for voice communications.
---------------------------------------------------------------------------
Efforts to Ensure Network Reliability

    FirstNet's approach to ensure the public safety network is safe, 
secure, and resilient (that is, the overall reliability of the network) 
will also influence the cost to construct the network. FirstNet is 
required by the 2012 act to ``ensure the safety, security, and 
resiliency of the network,'' \34\ and NPSTC has provided guidance to 
FirstNet as it constructs and implements the network.\35\ If FirstNet 
implements all of NPSTC's best practices, it will significantly add to 
the cost of building the network. For example, transmission sites, such 
as cell towers, should have back-up power sources when used for public 
safety communications, according to NPSTC. Existing commercial sites, 
however, generally do not have such backup, primarily to reduce costs 
in extremely competitive markets.
---------------------------------------------------------------------------
    \34\ Pub. L. No. 112-96, Sec. 6206(b)(2)(A), 126 Stat. 156, 212.
    \35\ NPSTC, Defining Public Safety Grade Systems and Facilities 
(Littleton, CO: May 22, 2014).
---------------------------------------------------------------------------
Network Coverage

    The public safety network's coverage will also influence the cost 
to construct and operate it. The 2012 act requires FirstNet to 
establish a ``nationwide'' network, but does not define the level of 
coverage that constitutes ``nationwide.'' \36\ Generally speaking, 
increasing the area covered by the network, as well as the extent to 
which coverage penetrates buildings, increases the amount of 
infrastructure needed, and thus the cost of the network. It may be 
relatively affordable, for example, to cover large segments of the 
population concentrated in relatively small areas. Providing coverage 
outside dense metropolitan areas can be particularly expensive. One 
study has shown that a nationwide public-safety broadband network could 
generate much more revenue than the network costs in urban areas, but 
less revenue than costs in rural areas.\37\
---------------------------------------------------------------------------
    \36\ FirstNet sought input into this matter in its September 2014 
RFI.
    \37\ Hallahan and Peha, 2011.
---------------------------------------------------------------------------
FirstNet Faces Difficult Decisions about User Fees and Commercial 
        Partnerships in Determining How to Become Self-Funding
    Our preliminary analysis suggests that, although FirstNet has 
various revenue options that it is authorized to use to become self-
funding, it is unclear how FirstNet will use those authorities. As the 
cost estimates above illustrate, FirstNet's network will likely cost 
tens of billions of dollars to construct and initially operate. To meet 
the costs of building and maintaining the network, the 2012 act 
authorizes FirstNet to generate revenue through user fees and 
commercial partnerships, the latter of which can involve secondary use 
of the network for non-public safety services.
User Fees

    FirstNet can generate revenue by charging public safety entities a 
user fee to gain access to the network. According to stakeholders we 
spoke with and surveyed for our ongoing work, demand for FirstNet's 
public safety network is significant,\38\ but the following factors 
could hinder adoption of the network and thus FirstNet's ability to 
collect user fee revenue:
---------------------------------------------------------------------------
    \38\ More than 75 percent of survey respondents noted that the 
network would be ``very useful'' to emergency management, emergency 
medical services, fire services, and law enforcement public safety 
entities in their state.

  <bullet> Fee size. If FirstNet's user fee is too high, it could 
        hinder public safety adoption, and if it is too low, it could 
        bring in too little revenue. Numerous stakeholders we spoke 
        with noted that FirstNet's cost would play a role in whether 
        they adopt the public safety network and that user fees must be 
        competitive with existing commercial services. While low user 
        fees would be attractive to public safety entities and 
        therefore may increase adoption, they would also bring in a 
        relatively smaller amount of revenue per user. As a FirstNet 
        Senior Program Manager reported in December 2014, there is a 
        trade-off with low user fees between adoption and the network's 
        financial sustainability. Some stakeholders also noted that the 
        cost of equipment and devices needed to access the network 
        could limit adoption, especially since public safety entities 
---------------------------------------------------------------------------
        are continuing to invest in their LMR networks.

  <bullet> User base. While a large user base can potentially bring in 
        significant user fee revenue, it could be challenging to 
        manage. The 2012 act established that FirstNet's primary 
        customers will be entities that provide ``public safety 
        services.'' \39\ How FirstNet interprets ``public safety 
        services,'' as established in the 2012 act, will expand or 
        contract the potential sources of revenue.\40\ As one public 
        safety official we spoke with noted, the network has more value 
        to public safety entities when there are more users on it, 
        because entities will all be able to communicate with each 
        other. A large user base, however, can require priority and 
        preemption rules, if certain users are to have privileged 
        access to the network. According to some public safety 
        officials we spoke with, such rules can be difficult to 
        establish among public safety entities.
---------------------------------------------------------------------------
    \39\ Pub. L. No. 112-96, Sec. 6001(26),126 Stat. 156, 204.
    \40\ FirstNet proposed some interpretations of these definitions in 
its September 2014 Public Notice.

  <bullet> Coverage. Widespread network coverage can attract more 
        users, and thus user fee revenue, but is expensive to construct 
        and maintain. Some of the public safety entities we spoke with 
        said that the network's coverage would play a role in whether 
        they adopt the public safety network, noting in particular that 
        the coverage should be at least as good as existing commercial 
        services. One public safety entity we spoke with said that 
        existing commercial coverage is inadequate, while two other 
        entities said that commercial service can become unusable 
        during large events because of the number of users on the 
        network. However, as noted above, providing extensive coverage 
        can be very costly. Indeed, a few SPOCs noted in survey 
        responses that providing rural coverage in their states will be 
        challenging, with one commenting that ``it is inconceivable 
        that FirstNet will be able to deploy a terrestrial network in 
---------------------------------------------------------------------------
        the vast areas that are unpopulated or sparsely populated.''

  <bullet> Reliability. Although FirstNet is required to construct a 
        resilient network, practices to ensure this can be costly. Some 
        public safety officials we spoke with said that the network's 
        reliability would play a role in whether they adopt the public 
        safety network. A few officials specifically said that if the 
        network did not reliably work when first utilized by public 
        safety, adoption would suffer, since public safety has a low 
        tolerance for unreliable technology. However, as noted above, 
        ensuring reliability requires significant capital expenses.
Commercial Partnerships

    Our ongoing work also found that FirstNet can generate revenue 
through commercial partnerships, but the extent of commercial interest 
in these partnerships, and thus the value of this authority for 
FirstNet, is unknown.\41\ Under the 2012 act, FirstNet can receive 
payment for the use of the public safety network's capacity by non-
public safety users as well as use of the network's infrastructure.\42\ 
The value of secondary access to the network's capacity depends in part 
on the availability of the spectrum, which itself will be determined by 
the capacity available given the network's design. According to one 
major carrier we spoke with, no business is likely to enter into a 
partnership with FirstNet because its public-safety user base has not 
been defined, and thus the network capacity available to secondary 
(commercial) users is unknown. According to this carrier, the risk 
would be too high for a commercial entity to enter into an agreement 
without knowing exactly how the entity will be able to use FirstNet's 
network. If public safety preempts all commercial traffic, then the 
commercial entity will struggle to generate income from this venture 
and may lose favor with its customers. However, another major carrier 
we spoke with maintained that FirstNet will have to partner with at 
least one commercial carrier to be financially sustainable and that 
given the significant investments in Long Term Evolution (LTE) 
infrastructure made by commercial carriers, FirstNet would do well to 
utilize some of this infrastructure through commercial partnerships. 
Although the historic Advanced Wireless Services spectrum auction FCC 
concluded in late January 2015 could indicate significant demand for 
spectrum capacity among commercial carriers, the extent of carriers' 
interest in partnering with FirstNet is not fully known. While there 
may be some benefits in partnering with FirstNet, companies may also 
prefer to compete directly with FirstNet with their own public safety 
products.
---------------------------------------------------------------------------
    \41\ One study showed that, theoretically, the revenue to be 
derived from secondary use of the spectrum is much greater than fees 
from users of a public safety network. See Hallahan and Peha, 2011.
    \42\ Pub. L. No. 112-96, Sec. 6208(a)(1), 126 Stat. 156, 215. 
FirstNet tentatively concluded in its September 2014 Public Notice that 
multiple commercial partners could coexist and utilize FirstNet 
spectrum in a given area.
---------------------------------------------------------------------------
Although Early Builder Projects Are Providing Lessons, FirstNet Has Not 
        Developed a Plan to Evaluate Them
Early Builder Projects Have Learned Lessons As They Develop Public 
        Safety 
        Networks
    As part of our ongoing work, we spoke with officials from the five 
early builder projects and the three canceled projects to determine 
what lessons they have learned that may be useful to FirstNet as it 
develops the nationwide public safety network. Specifically, the 
officials identified lessons about (1) governance, (2) financing the 
network, (3) conducting outreach, and (4) planning for network 
deployment:
Governance

    Early builder project officials described governance challenges 
that FirstNet may face as the governing entity for the nationwide 
network. For example, officials from one project told us some public 
safety entities may not have a clear understanding of FirstNet's goals 
and plans. The officials told us localities are willing to participate 
in the public safety network, but FirstNet will face difficulty in 
establishing timely technical decisions and effective policies that 
keep pace with local enthusiasm to participate. The officials said 
FirstNet can address this challenge by setting expectations about what 
the network will provide, including the specific intent, purpose, and 
planned capabilities.
Financing the Network

    Officials from the early builder projects also learned lessons 
related to financing a new public safety network that could be 
applicable to FirstNet. For example, officials from one project told us 
they will face sustainability challenges due to the limited number of 
users that will be able to utilize their network. According to the 
officials, their project will not be able to charge their users enough 
to make the operations sustainable without pricing the users out of the 
services. The officials told us a possible way to address this 
challenge would be to expand the service to public safety entities in 
neighboring metropolitan areas and airport service areas that have 
established broadband infrastructure.
Conducting Outreach

    Early builder project officials cited lessons they learned for 
conducting outreach while developing their public safety networks. 
According to officials working with one of the projects, network 
coverage will be a challenging outreach topic and FirstNet must be 
prepared to explain the coverage strategy for each state. The officials 
said most public safety officials in their state are aware that network 
coverage is typically provided through a myriad of approaches such as 
permanent infrastructure, mobile ``deployables,'' and satellites.\43\ 
However, the officials noted, until FirstNet sets clear expectations on 
those approaches, state stakeholders for the public safety network may 
face difficulties holding constructive conversations about which 
coverage solutions are the most feasible.
---------------------------------------------------------------------------
    \43\ Mobile deployables can also be referred to as ``deployable 
networks.'' A deployable network typically includes ``deployable 
assets'' such as ``Cells on Wheels'' that provide localized wireless 
network service to areas where coverage is minimal or compromised. 
These assets typically provide fully functional service via vehicles 
such as trailers, vans, and trucks.
---------------------------------------------------------------------------
Planning for Network Deployment

    Officials from the early builder projects as well as the canceled 
public safety projects also described lessons they learned about 
planning their network's deployment that could benefit FirstNet. An 
official from one of the canceled projects said his team faced several 
challenges including local zoning conditions that impacted project 
schedule and cost, a newly-passed city code that required towers to 
withstand higher wind loads which increased costs, and commercial 
competitors lowering their subscription rates to compete with the 
planned public safety network. Officials from an ongoing project told 
us their project initially identified network build-out sites but 
learned that environmental assessments would need to be completed for 
each site, which would threaten the project's planned schedule. To 
address the challenge, the project narrowed its build-out site pool to 
exclude marsh lands and other areas with obstructive tree lines and 
include publicly-owned sites such as police and fire stations. With the 
publicly-owned sites identified, project officials worked with their 
state's legislature to pass an exemption to state environmental 
reviews. The official from the project told us that an important lesson 
learned is to thoroughly understand all of the process steps and risks 
prior to plan execution.
FirstNet Has Processes in Place to Identify Early Builder Project 
        Lessons but Has Not Developed a Written Evaluation Plan
    Our preliminary results indicate that FirstNet has taken steps to 
collect and evaluate information and lessons learned from the early 
builder projects, but could do more to ensure that the information and 
lessons are properly evaluated. Specifically, FirstNet has taken steps 
to identify the data and information it will collect from the early 
builder projects. As noted above, FirstNet entered into agreements with 
the projects that permit their use of FirstNet's spectrum. Under these 
agreements, in exchange for spectrum use, the early builders agree to 
conduct specific activities on their networks, also known as key 
learning conditions; develop a Key Learning Conditions Plan with 
FirstNet;\44\ and provide FirstNet with quarterly reporting on their 
project's use of FirstNet's spectrum, progress achieving project 
milestones, and in some cases, the experiences of their network users. 
In October 2014, FirstNet provided the projects with quarterly report 
templates, instructions, and timing for completing the reports. 
Additionally, FirstNet intends to gain knowledge from the projects 
through contractors who have been assigned to each project to collect 
and log formal and informal lessons, and through weekly meetings 
FirstNet officials told us they hold. Finally, in April 2014 FirstNet 
authorized the PSAC to establish an Early Builder Working Group.
---------------------------------------------------------------------------
    \44\ FirstNet told us the plans identify the key learning condition 
activities, including roles and responsibilities and the information, 
lessons, reports, and other deliverables expected under the agreements. 
Plans have been drafted for the five early builder projects. The plan 
for the project in Adams County, Colorado is pending completion.
---------------------------------------------------------------------------
    Although FirstNet has taken these steps, we are concerned that it 
lacks a detailed data-analysis plan to track the performance and 
results of the early builder projects. For the early builder projects, 
their performance and results are captured in the observations and 
lessons learned reported to FirstNet and identified by consultants. We 
have previously found that a well-developed evaluation plan for 
projects like the early builder projects can help ensure that agencies 
obtain the information necessary to make effective program and policy 
decisions.\45\ Such a plan should include, among other things, a 
detailed data-analysis plan to track performance and evaluate the 
project's final results. Even though FirstNet staff and contractors 
remain in close contact with the projects, without a plan to track 
those projects, it is unclear how FirstNet intends to evaluate the 
projects' observations and lessons and determine whether or how the 
lessons are addressed. As a result, we believe that FirstNet could miss 
opportunities to leverage key lessons related to governance, finance, 
outreach, and network deployment. Given that the early builder projects 
are doing on a regional and local level what FirstNet must eventually 
do on a national level, a complete evaluation plan that includes a 
detailed data-analysis plan could play a key role in FirstNet's 
strategic planning and program management, providing feedback on both 
program design and execution. Furthermore, such a plan could provide 
FirstNet officials the opportunity to make informed midcourse changes 
as it plans for the public safety network, and facilitate transparency 
and accountability for FirstNet's decision-making.
---------------------------------------------------------------------------
    \45\ GAO-09-45.
---------------------------------------------------------------------------
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee, this concludes my prepared remarks. I am happy to respond to 
any questions that you or other Members may have at this time.

    The Chairman. Thank you, Mr. Goldstein.
    Ms. Swenson.

            STATEMENT OF SUSAN SWENSON, CHAIRWOMAN, 
          FIRST RESPONDER NETWORK AUTHORITY (FirstNet)

    Ms. Swenson. Chairman Thune, Ranking Member Nelson and 
members of the Committee, thank you for inviting me here to 
testify on behalf of the First Responder Network Authority. I 
really welcome the opportunity to brief you on the progress in 
the development of the interoperable broadband, safety 
broadband network. It is also a pleasure to appear today with 
my fellow panel members. And I'd also like to welcome several 
members of the public safety community who are with us here 
today to hear about their network. So I appreciate everybody 
coming with us today.
    As you know, we experienced growing pains in the early days 
of our existence. With only board members in the FirstNet 
organization until mid-2013 and an executive team not in place 
until the latter part of that same calendar year, we were 
dependent on the support from other agencies, in particular 
NTIA. We worked very hard to complete shore up the areas of 
weakness and to take on as much responsibility as we can and I 
am very confident that today you would find that our processes 
and procedures in line with expectations.
    With an executive team in place toward the end of 2013, we 
developed and publicly communicated our strategic roadmap in 
March 2014 and have been on-pace without major milestones ever 
since. Specifically, we've initiated the formal consultation 
meetings. We've issued an RFI and the first public notice and 
comment in September of 2014. On Monday of this week, we 
released our second public notice and comment. And finally, the 
Board is on track to address the draft RFP later this month.
    From a consultation and stakeholder perspective, we've held 
outreach meetings and presentations in over 275 engagements 
since the beginning of Fiscal Year 2014, connecting FirstNet 
with nearly 45,000 stakeholders. We've held or scheduled 43 
initial consultation meetings, we've conducted 15 state 
consultations, and we've scheduled meetings with an additional 
28 states. We've also held a variety of forums beyond the state 
consultation meetings with single points-of-contacts in you 
states including weekly e-mails, monthly phone calls, quarterly 
webinars, and upcoming, on April 14 and 15, we will host an in-
person meeting in where we're going to have all 56 state and 
single point-of-contacts attending if they can make it.
    I am, frankly, very proud of the organization and what it 
has accomplished and, also, where they are in terms of their 
readiness for what lies ahead. It is an extremely committed and 
dedicated team working on a project that is unprecedented, 
complicated, and one that faces headwinds each and every day. 
What no one really sees is the toll that this takes on the 
organization and the people in it who are working so hard, and 
I have to tell you I worry about that a lot.
    At FirstNet, we're taking on this historic and monumental 
task to deploy nationwide network. Nothing of this size and 
scope has been attempted before and we are constrained by a 
number of factors that are, frankly, out of our control. Coming 
from the private sector, I have found the Federal rules and 
processes extremely challenging at times, this undoubtedly 
slows our ability to move as expeditiously as we and others 
would like. I know there are some in the stakeholder community 
who would have liked to see more progress at this point, I 
would too, but the fact remains we are a Federal entity subject 
to Federal rules and regulations. To be sure, we are making 
great strides towards our mission.
    Still, I hope you understand why we may not be moving as 
quickly as everyone expects. We have discussed with Secretary 
Pritzker areas where processes and cycle times need to be 
improved and she has committed the necessary resources within 
the Department of Commerce to make those improvements. We are 
very appreciative of her support as it could make a very big 
difference to our effectiveness.
    The first two areas we are exploring are the hiring process 
and procurement. To the degree that FirstNet can assume 
responsibility for functions like hiring and procurement, much 
like we have for finance, I believe that having people 
dedicated to these functions whose first priority is FirstNet 
would enable us to move things along quickly and efficiently 
while still adhering to the Federal rules and regulations under 
which we operate.
    I also want to mention that we are working hard to build a 
culture at FirstNet that is appropriate to serve our public 
safety community. Our first responders are on-duty 24 by seven. 
So we need to be there to support them. This means working with 
a laser focus commitment to serve and to have a sense of 
urgency doing whatever is required to support our public safety 
community.
    In summary, we have accomplished a tremendous amount and 
are building a reputation of doing what we say we are going to 
do. We have much more to complete but I believe that we are on 
the right path with a dedicated team working hard on the 
mission.
    Thank you for allowing me to be here today to talk about 
FirstNet. I welcome your questions.
    [The prepared statement of Ms. Swenson follows:]

   Prepared Statement of Susan Swenson, Chairwoman, First Responder 
                      Network Authority (FirstNet)
Introduction
    Chairman Thune, Ranking Member Nelson and all Members of the Senate 
Commerce Committee, I would like to thank you for the opportunity to 
appear before the Committee to discuss FirstNet and the progress we are 
making toward the deployment of an interoperable nationwide public 
safety broadband network (network). I also want to thank all of the 
Members of this Committee who were pivotal in creating FirstNet. We 
look forward to your continued support and to working with the 
Committee as FirstNet continues to carry out our vital mission to bring 
the power of broadband wireless communications to public safety 
personnel across the country.
Background
    The Middle Class Tax Relief and Job Creation Act of 2012 (P.L. 112-
96) (Act) established FirstNet as an independent authority within the 
Department of Commerce's National Telecommunications and Information 
Administration (NTIA). Under the Act, FirstNet is tasked with ensuring 
the deployment and operation of a sustainable, interoperable broadband 
network for public safety entities across the country and within U.S. 
territories. FirstNet intends to provide cutting-edge prioritized and 
preemptive wireless broadband communications to millions of first 
responders at the local, state, tribal, and Federal levels. Using a 
dedicated nationwide wireless broadband network, FirstNet will provide 
a ubiquitous solution to decades-long interoperability and 
communications challenges and help keep our communities and first 
responders safer with advanced communications services, devices, and 
applications.
    FirstNet's goal of deploying the network to meet the needs of first 
responders is a matter of critical importance for public safety. While 
the task ahead will not be easy, FirstNet is developing the necessary 
leadership, staff, and support from states, tribes, public safety, and 
other key stakeholders to make this network a reality for first 
responders and the public who calls on them in its time of need.
Overarching Strategic Goals
    To guide us, we are pursuing the following four strategic goals:

  <bullet> Explore and build strong partnerships with local, state, 
        tribal, and Federal jurisdictions;

  <bullet> Establish a high-performing organization and a culture of 
        excellence;

  <bullet> Ensure all resources are used efficiently to accomplish 
        FirstNet's mission and demonstrate leadership towards self-
        sustainability to all external stakeholders; and

  <bullet> Ensure the deployment and operation of a reliable, 
        interoperable, and survivable nationwide Long Term Evolution 
        (LTE) broadband network for public safety.

    FirstNet is taking on an important and difficult task, but with the 
support of this Committee, Congress as a whole, the public safety 
community, the private sector, and local, state, tribal, and Federal 
leaders, we will succeed in accomplishing our mission. I would like to 
briefly discuss our recent accomplishments and describe where we are 
heading in an effort to support our Nation's public safety personnel.
Strategic Roadmap and Foundational Network Planning
    FirstNet is focused on what it will take from outreach, technical, 
and financial perspectives to build and maintain the network long-term. 
Much of our planning is embodied in FirstNet's Strategic Program 
Roadmap Executive Summary approved by the FirstNet Board in March 2014 
\1\. In that document, we outlined the milestones we planned to 
accomplish over the next year, which included:
---------------------------------------------------------------------------
    \1\ The FirstNet Strategic Program Roadmap Executive Summary can be 
accessed at: http://firstnet.gov/content/march-board-directors-meeting.

---------------------------------------------------------------------------
  <bullet> beginning formal in-person state consultations;

  <bullet> releasing a draft request for comprehensive network 
        proposals (RFP) for comment;

  <bullet> releasing draft requests for certain network and equipment 
        services proposals for comment; and

  <bullet> initiating a public notice and comment process on certain 
        program procedures, policies, and statutory interpretations.

    FirstNet has made significant progress on these milestones. We:

  <bullet> Distributed 56 state consultation packages on April 30, 
        2014. As of February 25, 2015, we have received 47 completed 
        state checklists;

  <bullet> Launched formal state consultations in July 2014 and have 
        met with 15 states thus far, with an additional 24 scheduled 
        through the summer;

  <bullet> Published a Request for Information (RFI) with a draft 
        Statement of Objectives for our comprehensive Request for 
        Proposals (RFP) and received 122 comments; and

  <bullet> Released a public notice seeking comment on several key 
        program policies and statutory interpretations in the fall of 
        2014 and received 63 responses.

    The progress we made in recent months is a tremendous start, but 
much work remains to be done. We will continue to work directly with 
the states and territories throughout our formal consultation process. 
Also, we will work to generate additional feedback from, local, state, 
and tribal public safety agencies, Federal stakeholders, the Public 
Safety Advisory Committee (PSAC), and the vendor community to ensure 
openness and transparency throughout our process.
Consultation and Outreach
    Our efforts to interact with the local, state, tribal, and Federal 
stakeholders are a centerpiece of the FirstNet mission and are an 
essential requirement of the Act. Our local, state, and tribal planning 
consultation process, coordinated through the governor-designated state 
single points of contact (SPOCs), ensures that FirstNet obtains key 
information from the public safety community and leadership of all 56 
states and territories. The objective of this process is to develop 
detailed state plans that address the unique communications needs of 
each state's public safety entities. These individual plans will inform 
and empower each state to choose to either have FirstNet deploy the 
radio access network (RAN) within its borders or to assume 
responsibility to build, operate and maintain its own state RAN and 
integrate it into the remainder of the nationwide network, as 
prescribed in the Act.
    In order to execute on this statutory requirement, FirstNet has 
built a consultation strategy that focuses on several key objectives, 
ensuring that the consultation process is:

  <bullet> iterative, giving states and other stakeholders 
        opportunities to provide feedback and input in multiple ways 
        and on an ongoing basis throughout;

  <bullet> collaborative, so that we are working together with the 
        localities, states, tribes, territories, and other stakeholders 
        to collect information and data that will be useful for the 
        deployment of the network;

  <bullet> focused on critical elements, ensuring that we maximize the 
        states' and taxpayers' investments in FirstNet; and

  <bullet> informative to the development of FirstNet RFPs, the 
        delivery of the state plans, and the design, construction, and 
        operation of the network.

    FirstNet anticipates holding in-person meetings with the 56 states 
and territories over the remainder of 2015 and beyond, and will 
continue to work closely with them as FirstNet moves into the phase of 
delivering wireless broadband service to their public safety personnel.
    FirstNet held the first formal consultation meeting in July 2014 
with leaders from the state of Maryland, including members from the 
Governor's office and executive agencies, the Maryland State Police, 
staff from the Maryland legislature, and other public safety leaders 
throughout the state. We learned valuable lessons about the state's 
emergency broadband communications needs, the state's perspective on 
the planning and deployment of the FirstNet network, and how we can 
build a strong partnership going forward.
    Additionally, over the past year, FirstNet has conducted focused 
outreach with individual tribes, tribal associations, and Federal 
tribal government liaisons and worked with the PSAC to establish a 
Tribal Working Group. These discussions have resulted in positive 
dialogue and a better understanding of tribal needs. FirstNet hired a 
tribal outreach lead to assist with focused tribal outreach efforts, as 
well as a Federal Preservation Officer to address compliance with the 
National Historic Preservation Act.
    While we are pleased with this progress in forging key partnerships 
through consultation, much more needs to be done. To that end, FirstNet 
is seeking to hire 10 regional teams to ensure sufficient resources in 
support of our outreach and state consultation efforts. These FirstNet 
regions cover the same state, territory, and tribal jurisdictions as 
the 10 Federal Emergency Management Agency (FEMA) regions. Our teams 
will span the Nation to participate in state consultation meetings, 
join various regional and state governing body meetings and association 
conferences, and meet one-on-one with the SPOCs and public safety 
agencies representing potential FirstNet network users. FirstNet 
expects to hire these 10 regional leads in 2015.
    Complementing this effort is FirstNet's robust outreach and 
education strategy, committed to reaching public safety personnel 
across all levels of government and through national and state 
associations. In the past year, we have addressed over 20,000 
stakeholders at various conferences, meetings, and speaking events.
    We are also working closely with Federal agencies to drive 
collaboration and potential use of the network. In 2014, FirstNet 
formalized a relationship with the Emergency Communications 
Preparedness Center (ECPC) to increase outreach with Federal 
stakeholders. The ECPC is the Federal interagency group focused on 
emergency communications, and is administered by the U.S. Department of 
Homeland Security's Office of Emergency Communications. FirstNet 
participated in many ECPC meetings over the past year to keep members 
informed of FirstNet activities and to discuss how best to collaborate 
to ensure Federal input is incorporated into the state plans and 
overall network deployment. Additionally, FirstNet's Federal outreach 
team held an initial formal consultation meeting with Federal agencies 
on January 21, 2015, where FirstNet staff engaged Federal stakeholders 
in discussions about outreach efforts, Federal coverage needs and 
objectives, and security requirements for the network. Finally, 
FirstNet has leveraged its Federal partners' expertise in the area of 
cybersecurity by utilizing recommendations and resources from the U.S. 
Department of Homeland Security's Office of Cybersecurity and 
Communications in our planning efforts.
    Additionally, FirstNet's PSAC, chaired by Chief Harlin McEwen, and 
composed of key public safety stakeholders, will continue to be an 
important resource as we pursue our mission. Public safety's input via 
the PSAC is vital at all stages of the network development so that it 
will be tailored to the needs of the end users--America's first 
responders and other public safety entities.
    The PSAC has to date collaboratively developed and delivered the 
following documents to FirstNet:

  <bullet> Human Factors Report (November 2013): Analyzes the long-
        range impacts of the network on the way law enforcement, fire, 
        and EMS operate and considers the impact the network will have 
        on their duties once it is built and operating.\2\
---------------------------------------------------------------------------
    \2\ The FirstNet PSAC Human Factors Report, available at: http://
www.firstnet.gov/sites/default/files/PSAC%20Human%20Factors%20Report-
FINAL.pdf.

  <bullet> Potential Users--National Public Safety Broadband Network 
        (NPSBN) (July 2014): Identifies and categorizes lists of 
---------------------------------------------------------------------------
        potential network users.

  <bullet> Use Cases for Interfaces, Applications, and Capabilities for 
        the NPSBN (July 2014): Documents envisioned use cases for 
        interfaces, applications, and capabilities for the network.

    Issues that the PSAC is currently working on at FirstNet's request 
include the development of a proposed priority and preemption framework 
for the FirstNet network, and an analysis of the technical requirements 
of a broadband network dedicated to public safety entities.
    We plan to continue to leverage the PSAC's experience to help 
inform key capabilities and functions of the network.
Organization and Leadership
    In August 2012, the Secretary of Commerce fulfilled the statutory 
requirement of appointing the FirstNet Board. As required by law, the 
members have specialized knowledge, experience, and expertise from a 
variety of public safety, telecommunications, and financial backgrounds 
needed to develop the network. I was appointed as a Member of the Board 
at its inception, and I took over as Chairwoman in May 2014.
    In September 2014, five new Board members joined the organization 
and we formally welcomed them during our September 2014 Board meeting. 
Those individuals are:

  <bullet> Chris Burbank, Chief of Police, Salt Lake City Police 
        Department;

  <bullet> James H. Douglas, former Governor of Vermont;

  <bullet> Annise Parker, Mayor, City of Houston, Texas;

  <bullet> Frank Plastina, technology executive, North Carolina; and

  <bullet> Richard Stanek, Sheriff, Hennepin County, Minnesota.

    Along with the Board, FirstNet has hired key executives to guide 
the organization. TJ Kennedy has been serving as acting Executive 
Director and is responsible for day-to-day operations of the FirstNet 
organization. We have also built out our Chief Technology, Chief 
Financial, Chief Administrative, outreach, and legal teams during the 
past year, leveraging experience from both the private and public 
sectors.
Deployment and Operation of the Network
    FirstNet also is actively conducting extensive market research to 
gain insight into the capabilities, opportunities, risks, and 
innovative business partnerships in the market today to support the 
construction of the network.
A. Requests for Information (RFI) and Draft Statement of Objectives 
        (SOO)
    From April 2013 through April 2014, FirstNet released 12 RFIs that 
focused on individual components of the network, including network 
partnering and RAN provisioning, antenna systems, microwave backhaul 
equipment, deployables, satellite service, enhanced packet core, 
transmission/transport, data centers, network management centers, 
network service platforms, devices, and applications. The results of 
these 12 RFIs, and the findings from numerous market research vendor 
meetings conducted by FirstNet, were compiled into an initial market 
research report that ultimately led to the development and release of 
the 13th RFI in September 2014. This RFI focused on soliciting feedback 
for a comprehensive network solution as opposed to individual network 
components and included a full draft SOO.
    On September 17, 2014, the FirstNet Board authorized its release. 
The RFI sought input from industry on some of the key approaches 
FirstNet is considering before finalizing a draft comprehensive network 
RFP. The RFI included questions on network build out, deployment, 
operations, and maintenance; cost considerations and financial 
sustainability; speed to market; system hardening and resiliency; user 
priority and preemption; customer care and marketing; and general 
compliance with the Act.
    The draft SOO has helped industry better understand FirstNet's key 
program objectives to deploy, operate, and maintain the network. 
FirstNet is taking an objectives-based approach to the procurement, 
rather than a requirements-driven approach, in order to promote 
flexibility in achieving our goals while helping us reduce the 
complexity we face in managing and integrating the diverse set of 
components needed to meet our mission. FirstNet will use the comments 
we receive on the RFI and draft SOO to refine the acquisition approach 
and draft the comprehensive network RFP.
    As previously referenced, we received 122 responses to this RFI and 
were very encouraged with the interest it generated. All responses have 
been kept confidential to allow the RFI respondents to provide 
comprehensive and forthright solutions, facilitating FirstNet's ability 
to thoroughly develop the next step in the procurement phase--the 
drafting of the RFP. It is important to note that the responses came 
not only from the vendor community, but also from several state, local, 
and public safety entities. We take this as another positive sign that 
the public safety community is highly engaged and supportive of our 
mission.
    FirstNet is statutorily required to engage in an open, transparent, 
and competitive RFP process, and the publication of this latest RFI is 
an important step in meeting this obligation. This RFI/draft SOO 
continues FirstNet's market research efforts and acts as a precursor to 
the publication of a draft RFP and a final RFP anticipated to be 
released by early 2016.
B. Public Notice and Comment
    In September 2014, FirstNet also received Board approval to seek 
public comment on its statutory interpretations. As a new entity 
operating under a unique statutory construct, FirstNet is confronted 
with many complex legal issues and terms that will have a material 
impact on our RFPs and our operations going forward. Although FirstNet 
is exempt from the procedural requirements of the Administrative 
Procedure Act (APA), we believe it is important to solicit public 
comments on certain technical, economic, and foundational legal issues 
to inform our approach to our ongoing operations and to further consult 
with our stakeholders. Specifically, we sought comments on issues that 
included the interpretation of the definitions of core and RAN; the 
definition of public safety entities; secondary users; rural areas; 
user and other fees; and finally, the minimum technical requirements of 
the network.
    We received more than 60 responses to this public notice and have 
continued to review and digest the information provided in each 
response. We received responses from a broad group of stakeholders, 
including commercial carriers, vendors, state, local, and tribal 
governments, and various associations that represent public safety 
interests.
    On March 9, 2015, the FirstNet Board approved the release of a 
second public notice seeking comments on management's additional 
preliminary interpretations of FirstNet's enabling legislation. The 
primary topics covered include technical requirements relating to 
equipment and device use on the network, the nature and application of 
required network policies, FirstNet's presentation of state plans, and 
the rights and responsibilities of states choosing to build and operate 
their own RANs.
    We believe public comments on these topics will provide important 
inputs into a draft comprehensive network RFP and on FirstNet 
operations, including on issues that will significantly impact the 
economics of the network. The public notice will also inform our 
stakeholders of our preliminary thinking on critical decisions relating 
to the deployment and operation of the network. The responses to this 
notice will be made part of the public record and be available at 
www.regulations.gov for public review.
C. Additional Technical Development and PSCR Collaboration
    In addition to leading the analysis of the industry and public 
responses to the comprehensive network RFI, which will inform a 
comprehensive draft RFP, the FirstNet technical team has been focusing 
on a number of core areas:

  <bullet> Formal standards development;

  <bullet> Testing and evaluation; and

  <bullet> Modeling and simulation.

    We have been working very closely with the Department of Commerce's 
team at the Public Safety Communications Research (PSCR) labs to share 
ideas and data and to eliminate information silos. Working directly 
with PSCR has allowed FirstNet to make significant progress with the 
Third Generation Partnership Project (3GPP), the worldwide standards 
body for LTE, on ways in which LTE standards can meet public safety's 
unique needs.\3\ As a result of this collaboration, FirstNet has helped 
to develop broad coalitions that have pushed for the prioritization of 
public safety standards development in worldwide LTE standards.
---------------------------------------------------------------------------
    \3\ The standards body through which we are working is The 3rd 
Generation Partnership Project (3GPP). According to the 3GPP website, 
``3GPP unites [six] telecommunications standard development 
organizations (ARIB, ATIS, CCSA, ETSI, TTA, TTC) and provides a stable 
environment to produce the Reports and Specifications that define 3GPP 
technologies.'' 3GPP website, ``About 3GPP.'' available at: http://
www.3gpp.org/about-3gpp/about-3gpp.
---------------------------------------------------------------------------
    In addition, the FirstNet technical team has assisted in validating 
certain key assumptions within the FirstNet Strategic Program Roadmap 
Summary, including the modeling of cell site location nationwide and 
the amount of excess network capacity that might be available for 
secondary use.
    FirstNet will continue to work with PSCR throughout the development 
of the network. We have already seen tremendous benefit from our 
cooperative relationship and we look forward to continuing this 
productive collaboration.
Early Builder Public Safety Projects
    FirstNet has executed five spectrum manager lease agreements 
(SMLAs), with Adams County in Colorado,\4\ the State of New Jersey,\5\ 
the State of New Mexico, the Los Angeles Regional Interoperable 
Communications System Authority (LA-RICS), and the State of Texas 
(allowing for public safety broadband network service in Harris 
County). As a result of these agreements, FirstNet now is working 
closely with five early builder projects to gather lessons that will 
help drive efficiencies and better understanding of key factors 
important to the design and development of the network.\6\
---------------------------------------------------------------------------
    \4\ Adams County Communications Center, Inc.
    \5\ State of New Jersey Office of Information Technology.
    \6\ Four of these projects are funded through NTIA's Broadband 
Technology Opportunities Program (BTOP) grants that were awarded prior 
to passage of the Act. The Harris County project was funded through a 
pre-Act Department of Homeland Security grant.
---------------------------------------------------------------------------
    Each of these projects is detailed in depth in the attached FY 2014 
Annual Report to Congress, attached to this testimony for your 
reference.
Culture of Compliance
    Over the past year, FirstNet has grown significantly in our 
organizational structure, and this growth has provided greater 
resources, rigor, and oversight in the management of our operations. By 
hiring senior managers and staff during FY 2014, FirstNet has 
implemented policies and procedures that provide clear direction and 
structure for the organization. Our FY 2014 Annual Report to Congress 
goes into detail on the steps that we have taken to strengthen our 
compliance processes.\7\
---------------------------------------------------------------------------
    \7\ http://www.firstnet.gov/sites/default/files/
Annual%20Report_FY2014_FINAL_3_3_15
.pdf
---------------------------------------------------------------------------
    FirstNet has also incorporated lessons learned from an Inspector 
General (OIG) report examining certain processes relating to Board 
member financial disclosure filings and identification of potential 
conflicts of interest and procurement oversight practices.\8\
---------------------------------------------------------------------------
    \8\ On December 5, 2014, the Department of Commerce's OIG released 
a report entitled ``FirstNet Must Strengthen Management of Financial 
Disclosures and Monitoring of Contracts.'' Available at: http://
www.oig.doc.gov/Pages/FirstNet-Must-Strengthen-Management-of-Financial-
Disclosures-and-Monitoring-of-Contracts.aspx.
---------------------------------------------------------------------------
    FirstNet has a positive working relationship with the OIG, and we 
look forward to continuing our open and constructive coordination with 
this office.
Conclusion
    I am grateful to the Committee for the opportunity to update you on 
FirstNet's progress. As you can see, FirstNet continues its efforts to 
meet statutory obligations, partner with those who will use and benefit 
from the network, and develop a business plan that will provide 
innovative broadband services to public safety personnel on a long-
term, self-funded basis.
    FirstNet is committed to achieving our objectives, but we can only 
do so with the support of Congress, public safety, locals, states, 
tribal jurisdictions, and our other stakeholders. This is a network 
that is urgently needed to increase the safety and capabilities of all 
public safety personnel and protect the American people, and we are 
committed to delivering it.
                               Attachment
FirstNet, U.S. Department of Commerce, FY 2014: Annual Report to 
        Congress
        
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
        
    The Chairman. Thank you, Ms. Swenson.
    Mr. Zinser.

   STATEMENT OF HON. TODD J. ZINSER, INSPECTOR GENERAL, U.S. 
                     DEPARTMENT OF COMMERCE

    Mr. Zinser. Chairman Thune, Ranking Member Nelson, members 
of the Committee, we appreciate the opportunity to testify 
today as the Committee examines FirstNet's progress and 
challenges in establishing the national public safety broadband 
network called for under the Middle Class Tax Relief and Job 
Creation Act of 2012. Unlike the Nationwide Telecommunication 
Network's currently available, which have been built by the 
private sector, the act authorizes FirstNet to use a 
substantial amount of public money, $7 billion, to build the 
public safety network; making internal controls in compliance 
with those internal controls all the more important.
    There is no question that it is critically important for 
our first responders nationwide to have state-of-the-art 
communications and data capabilities at all times. Getting 
there will be very challenging. Oversight at FirstNet is also 
very challenging. At an April 23, 2013 FirstNet Board meeting, 
a former Board member presented a resolution raising various 
concerns about Board operations in decisionmaking, including 
issues related to ethics and procurement.
    In September 2013, a Special Review Committee, established 
by the Board, issued a report that addressed issues of openness 
and transparency, Board member's access to information, and 
network planning. The report did not substantiate the concerns 
of the former Board member.
    In October 2013, the previous Board Chairman, with 
concurrence with the Board, asked my office to take over the 
inquiry into ethics and procurement. We issued our report in 
December 2014. FirstNet did not wait for our report to begin 
making important changes. For example, among other things, 
FirstNet hired a Chief Council, established a compliance 
program within the Office of Chief Council, and coordinated 
with our office in developing a training program for its Board 
members and staff.
    Nonetheless, the results of our audit disclosed serious 
problems. In the area of ethics, we found confidential and 
public financial disclosure monitoring procedures were 
inadequate, some Board members did not file timely disclosure 
reports, and monitoring of potential conflicts of interest 
needed improvement. For example, we found that one, now former 
Board member did not file a required public financial 
disclosure report and, when eventually doing so, did not 
disclose a significant interest or position in a conflicting 
company. Another, now former Board member submitted a required 
public financial disclosure report 5 months late.
    We consider the issue of financial disclosure reporting an 
especially important internal control because the FirstNet 
mission and membership of the Board necessarily include close 
ties to the telecommunications industry creating a greater risk 
of potential conflicts.
    In the area of procurement, we found that FirstNet's 
contracting practices lack transparent award, competition, 
sufficient hiring and adequate monitoring of contracts. For 
example, we found that the justification for a non-competitive 
$8.4 million sole source contract was not adequate and that a 
former Board member had inappropriately directed the 
contractor, in advance of the contract award, to hire specific 
individuals. This created the appearance that the contractor 
was required to hire these individuals in order to be awarded 
the contract.
    Unduly close personal relationships with contractor 
personnel can create the appearance of favoritism and may call 
into question the integrity of the procurement process. We made 
nine recommendations to address our findings. Some 
recommendations have already been implemented and we continue 
to work with the Department and FirstNet on implementation of 
the remaining recommendations.
    In our opinion, our findings were taken very seriously and 
progress has been made since these issues were first raised 
nearly 2 years ago. However, significant challenges remain. 
Moving forward, the areas that we have identified as watch 
items, which are well-known to FirstNet, include the following: 
ensuring the adequacy of funding for a nationwide network; 
determining the sufficiency of assets contributed to the 
network by states, local governments and commercial entities; 
incorporating lessons learned from the Broadband Technology 
Opportunities Program; continuing to address identified 
internal control weaknesses; and effectively executing the 
consultation process. We are continuing our oversight of 
FirstNet and we'll keep the Committee informed of FirstNet's 
progress with respect to these challenges and any others we 
identify through our audits and investigations.
    Finally, I do wish to inform the Committee that the act did 
not specifically authorize FirstNet funding to be dedicated to 
OIG Oversight. As a result, for the past two years, we have 
been working with the Department on funding our oversight. The 
Fiscal Year 2016 budget requests an appropriation for OIG's 
oversight work; however, the Committee may want to consider 
whether it is more appropriate to authorize funding for OIG's 
oversight from FirstNet's mandatory funds.
    Mr. Chairman, this concludes my testimony. I'd be pleased 
to answer any questions.
    [The prepared statement of Mr. Zinser follows:]

     Prepared Statement of Hon. Todd J. Zinser, Inspector General, 
                      U.S. Department of Commerce
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee:

    We appreciate the opportunity to testify about the current status 
of and challenges encountered by the First Responder Network Authority 
(FirstNet). Effective oversight of FirstNet is critical. Our last three 
Top Management Challenges (TMC) reports, for Fiscal Years (FY) 2013 
through 2015, included addressing First Net's implementation of a 
nationwide wireless broadband network for public safety users among the 
most significant management and performance challenges facing the 
Department of Commerce.
    Our testimony today, about 3 years after the passage of the Middle 
Class Tax Relief and Job Creation Act of 2012 \1\ that established 
FirstNet, will focus on (I) FirstNet's work to date; (II) the Office of 
Inspector General's (OIG's) completed oversight efforts; (III) OIG's 
ongoing oversight of FirstNet; and (IV) the continuing challenges the 
Department and FirstNet face in their efforts to ensure implementation 
of a nationwide, interoperable, wireless broadband network for the 
public safety community.
---------------------------------------------------------------------------
    \1\ Middle Class Tax Relief and Job Creation Act of 2012, Pub. L. 
No. 112-96.
---------------------------------------------------------------------------
I. Introduction to FirstNet
Establishment and purpose
    Signed into law on February 22, 2012, the Middle Class Tax Relief 
and Job Creation Act of 2012 (the Act) established FirstNet as an 
independent authority within the Department of Commerce's National 
Telecommunications and Information Administration (NTIA). The Act 
authorized and allocated up to $7 billion in funding to NTIA for the 
establishment of an interoperable Nationwide Public Safety Broadband 
Network (NPSBN). This network is being built to address failures that 
occurred in the United States on September 11, 2001, during the 
terrorist attacks, in which first responders could not effectively 
communicate.
    FirstNet is governed by a 15-member Board consisting of the 
Attorney General of the United States, the Secretary of Homeland 
Security, the Director of the Office of Management and Budget, and 12 
nonpermanent members, including representatives from state and local 
governments the public safety community, and technical fields. After a 
public recruitment process, NTIA recommended candidates to the Acting 
Secretary of Commerce, who announced the appointments in August 2012. 
The Board's first meeting was held in September 2012. The Act calls for 
the termination of FirstNet 15 years after its enactment, in 2027.\2\ 
However, no later than 10 years after the Act's enactment, in 2022, the 
Comptroller General of the United States must submit to Congress a 
report on what action Congress should take regarding this 2027 sunset 
provision.\3\
---------------------------------------------------------------------------
    \2\ Id. Sec. 6206(f).
    \3\ Id. Sec. 6206(g).
---------------------------------------------------------------------------
Organization and initial implementation
    For roughly the first year and a half of its existence, certain 
FirstNet Board members functioned in management roles. The Board 
eventually assembled a management team which assumed all operational 
responsibilities (see section IV for further details). As of December 
2014, FirstNet is organized with multiple program offices reporting to 
a Deputy Executive Director along with divisions covering areas such as 
procurement, user advocacy, financial operations, legal counsel, 
information technology and administration.
    So far, implementation of the NPSBN has occurred in the following 
areas:

  <bullet> Establishing an organizational structure. FirstNet hired key 
        leadership and support staff for its day-to-day operations; 
        developed internal controls; established its headquarters in 
        Reston, Virginia, and its technical headquarters in Boulder, 
        Colorado; awarded contracts to obtain project management and 
        planning support, professional and subject matter support, and 
        network and business plan development; and signed interagency 
        agreements with other Federal entities to provide key services.

  <bullet> Conducting initial consultation and outreach. FirstNet 
        launched a website, conducted conference calls and webinars 
        with state single points of contact, coordinated with NTIA's 
        State and Local Implementation Grant Program (SLIGP) team, and 
        established its Public Safety Advisory Committee (PSAC).\4\ In 
        July 2014, FirstNet began to hold a series of state 
        consultation meetings. As of March 2, 2015, 15 of these state 
        consultations had been held.
---------------------------------------------------------------------------
    \4\ The Middle Class Tax Relief and Job Creation Act of 2012 
required FirstNet to establish the PSAC. It was created in February 
2013 and consists of 40 members representing all disciplines of public 
safety as well as state, territorial, tribal, and local governments. 
See ``Public Safety Advisory Committee'' www.firstnet.gov/about/public-
safety-advisory-committee.

  <bullet> Finalizing a network design approach. In FY 2013, FirstNet 
        issued 12 requests for information (RFIs) seeking input from 
        vendors and other stakeholders; in FY 2014, it issued another 
        RFI--for assistance in developing a comprehensive network 
        acquisition strategy--and issued a public notice and request 
        for comments seeking input regarding preliminary 
        interpretations of FirstNet's enabling legislation. It also 
        established spectrum lease agreements with four public-safety 
        projects funded by NTIA's Broadband Technology Opportunities 
---------------------------------------------------------------------------
        Program (BTOP) grant awards program.

    FirstNet's current focus is on the consultation and the 
acquisition/request for proposal (RFP) processes.
Funding and expenditures
    The Act authorizes up to $7 billion in funding to FirstNet for 
deployment of the NPSBN. Initial funding of FirstNet will come from 
Federal Communications Commission (FCC) spectrum auction proceeds. The 
FCC spectrum auction, completed in January 2015, raised about $45 
billion, enough to cover the $7 billion targeted for FirstNet under the 
Act. FirstNet holds the single Public Safety Wireless Network License 
for use of the 700 MHz D block spectrum and a pre-existing block of 
public safety broadband spectrum.
    Over the long term, FirstNet must be self-sustaining, through user 
fees and revenue generated from agreements with third parties that will 
leverage the value of the network capacity.
    FirstNet's expenditures are expected to increase as it moves toward 
building the NPSBN. FirstNet reported that it spent less than $250,000 
in FY 2012. In FY 2013, it spent about $17 million, and in FY 2014, it 
spent an estimated $26 million.\5\ In September 2014, FirstNet's Board 
approved a budget of $120 million for FY 2015. Its FY 2016 budget 
proposal is for approximately $160 million. This will provide funding 
for approximately 150 full-time-equivalent positions, as well as 
additional contracting and administrative support. FirstNet has entered 
into various interagency agreements, hired support contractors and, in 
September 2013, issued a $67.2 million blanket purchase agreement (BPA) 
with three contractors for technical and subject matter expert support 
tasks, to be issued over a 2-year period.
---------------------------------------------------------------------------
    \5\ Outlays, not expenses, were provided for FY 2012. FirstNet 
began financial reporting in FY 2013. The FY 2014 results have not been 
audited yet.
---------------------------------------------------------------------------
II. OIG's FirstNet Oversight to Date
    FirstNet's authorizing legislation did not contain a direct 
provision for permanent, ongoing oversight. The law provides for two 
required reviews: (1) an annual independent audit of FirstNet's 
financial operations and condition and (2) a Government Accountability 
Office (GAO) report, not later than 10 years after enactment of the 
Act, or in the year 2022, on what action Congress should take regarding 
FirstNet's 15-year sunset provision. Nonetheless, since FirstNet is 
part of the Department of Commerce, and given the importance of this 
program and substantial commitment of public funds, our office is 
exercising oversight.
    We have established a dedicated audit and evaluations team to 
oversee the Department's and FirstNet's effort. In addition, we operate 
a fraud, waste, and abuse hotline for the Department of Commerce 
through which we have received complaints related to FirstNet and we 
conduct follow-up on those complaints.
    Building on OIG's experience with broadband and public safety 
programs (e.g., the Public Safety Interoperable Communications grant 
program and BTOP), the team's initial audit and evaluation activities 
have included:

  <bullet> Tracking the progress of FirstNet by observing Board 
        proceedings, meeting with NTIA and FirstNet officials, 
        monitoring FirstNet and NTIA for key actions taken to implement 
        the network, and reviewing key program documents (e.g., Federal 
        Register notices and webinar slide decks)

  <bullet> Developing an initial risk assessment in FY 2013 and 
        reassessing risk as part of annual Department-wide assessments

  <bullet> Identifying FirstNet as a management challenge in our FYs 
        2013-2015 Top Management Challenges reports

  <bullet> Providing an information memorandum for FirstNet in February 
        2014 to identify FirstNet's initial management challenges 
        (including establishing an effective organization, fostering 
        cooperation among various state and local public safety 
        agencies, integrating existing grants to enhance public 
        communications capabilities into FirstNet, and creating a 
        nationwide long-term evolution network)

    In addition, we issued a December 2014 audit report on ethics-and 
procurement-related issues raised by a FirstNet Board member in 
2013.\6\ At an April 23, 2013, FirstNet Board of Directors meeting, a 
Board member presented a resolution raising various concerns, 
including: (1) openness and transparency in decision making by the 
FirstNet Board, (2) Board members access to records, (3) the 
development of a plan for FirstNet's NPSBN, and (4) issues related to 
ethics and procurement. In addition, the Board member met with the 
Inspector General in July 2013 to discuss his concerns.
---------------------------------------------------------------------------
    \6\ U.S. Department of Commerce Office of Inspector General, 
December 5, 2014. FirstNet Must Strengthen Management of Financial 
Disclosures and Monitoring of Contracts, OIG-15-013-A. Washington, 
D.C.: DOC OIG. See this report for additional detail.
---------------------------------------------------------------------------
    In May 2013, the FirstNet Board established a Special Review 
Committee to examine these issues. In the public version of its 
report,\7\ the Committee concluded that (1) the FirstNet Board had 
engaged in open and transparent decision making, (2) FirstNet did not 
withhold information from Board members, and (3) FirstNet was still 
developing its network plan with full consultation and outreach. In 
October 2013, the Board Chairman, based on conversations with the 
Inspector General, asked the OIG to take over the inquiry into ethics 
and procurement.
---------------------------------------------------------------------------
    \7\ See FirstNet Special Review Committee, September 20, 2013. 
Report on Openness and Transparency, Access to Information and Network 
Planning [online]. www.ntia.doc.gov/other-publication/2013/firstnet-
special-review-committee-report.
---------------------------------------------------------------------------
    Our audit work, which covered 2012 and 2013, found:

  A.  Confidential and public disclosure monitoring procedures were 
        inadequate, some Board members did not file timely disclosure 
        reports, and monitoring of potential conflicts of interest 
        needs improvement. Because of their status as special 
        government employees and their level of compensation, FirstNet 
        Board members are required to file confidential or public 
        financial disclosure reports. The Department's Office of 
        General Counsel (OGC) provided guidance to FirstNet Board 
        members, each of whom was required to submit the confidential 
        financial disclosure form; OGC also informed us that it 
        initially provided ethics briefings for Board members, with 
        counselling for those whose employment or financial interests 
        could have created a conflict of interest.

      The Department did not consider that some FirstNet Board members 
        would devote enough time to their Board duties to trigger the 
        requirement for the public financial disclosure form. Eight 
        Board members did trigger the requirement in 2013.

      Specifically, we found that OGC was unable to provide a record of 
        all FirstNet confidential and public financial disclosure 
        files, including due dates, as required by Federal regulations. 
        Nor had OGC created a schedule of Board members' start dates of 
        service, due dates of disclosures, or a centralized point of 
        record showing the training and counselling provided. In 
        addition, 6 months after the Board began regular meetings, 
        senior NTIA and OGC officials were still debating how best to 
        routinely monitor potential conflicts of interest.

      One Board member initially did not file a required public 
        disclosure and, when eventually doing so, did not disclose an 
        interest in a conflicting company. Another Board member 
        submitted the required public disclosure form 5 months late. 
        Two others submitted inaccurate time-and-attendance records, in 
        one case to avoid filing the required public financial 
        disclosure. Finally, all four of these Board members continued 
        to engage in decision making, even though they were not in 
        compliance with the financial disclosure requirements.

      Our report included a Department response stating that--although 
        certain administrative requirements may not have been fulfilled 
        with respect to disclosure--as far as the Department is aware, 
        Board members made the material disclosures necessary to 
        identify and address potential conflicts. The Department also 
        stated that OIG did not identify any violations of conflict of 
        interest laws or circumstances that actually affected decision 
        making. In its February 3, 2015 action plan and March 5, 2015 
        revision to the plan requested by our office, the Department 
        identified actions taken to address these findings. In this 
        response, the Department asserts that various matters related 
        to financial disclosures have been addressed. FirstNet has 
        developed compliance procedures and now coordinates with the 
        Department on financial disclosures and conflicts of interest.

  B.  FirstNet's contracting practices lacked transparent award 
        competition, sufficient oversight of hiring, and adequate 
        monitoring. NTIA was tasked with helping FirstNet with its 
        start-up efforts, including the procurement of professional 
        staffing services such as project management and planning 
        support, professional and intellectual support, and support to 
        develop network and business plans. Because NTIA does not have 
        a contracting office, it secured contracting assistance from 
        other Departmental bureaus. Between September 2012 and March 
        2013, the contracting offices at the Census Bureau and the 
        National Institute of Standards and Technology (NIST) entered 
        into three time-and-material (T&M) contracts on behalf of NTIA 
        to meet FirstNet's procurement needs.

      T&M/labor hour contracts are considered high risk because a 
        contractor's profit is tied to the number of hours worked; 
        therefore, the government assumes the risk for cost overruns. 
        Because of this risk, OMB's Office of Federal Procurement 
        Policy (OFPP)\8\ requires agencies to provide appropriate 
        government monitoring of contractor performance to give 
        reasonable assurance that efficient methods and effective cost 
        controls are being used.
---------------------------------------------------------------------------
    \8\ OFPP memorandum, October 27, 2009. ``Increasing Competition and 
Structuring Contracts for the Best Results.''

    We found that the three contracts were awarded as T&M contracts, 
with a total value of approximately $14 million (see table 1, next 
page). Although contract 1 was properly awarded and administered, 
---------------------------------------------------------------------------
contracts 2 and 3 were not, as a result of the following:

  <bullet> Sole-source procurement for contract 3 did not meet Federal 
        Acquisition Regulation (FAR) exceptions to full and open 
        competition requirements. The FAR--with limited exceptions--
        requires government agencies to procure services by obtaining 
        full and open competition through procedures such as soliciting 
        sealed bids and requesting competitive proposals. There are 
        exceptions to obtaining full and open competition when one of 
        several circumstances exists: for example, when (1) there is an 
        unusual and compelling urgency or (2) the procurement is 
        authorized or required by a statute expressly authorizing or 
        requiring an acquisition from a specified source or through 
        another agency. Our review of the justification for the sole 
        source award of the third contract--which NIST awarded 
        noncompetitively to Workforce Resources, Inc. (WRI) for $8.40 
        million on March 18, 2013--showed that the justification was 
        inadequate.

    According to NIST, it awarded contract 3 noncompetitively because 
        it was the most expeditious way to meet the Act's requirement 
        to establish FirstNet as operational within certain deadlines. 
        Additionally, the contracting office stated in its 
        Justification for Other Than Full and Open Competition (JOFOC) 
        that the procurement was unusual, urgent, and compelling--and 
        that the interruption in services would be costly, as FirstNet 
        had mission essential milestone dates that had to be executed 
        to meet criteria established under the Act. We determined that 
        the justification was inadequate because (a) we found that 
        neither the Act nor the JOFOC identified specific guidelines 
        FirstNet was required to meet and (b) procurement needs did not 
        meet criteria for unusual and compelling urgency.

  <bullet> Undue influence from a FirstNet official, which interfered 
        with the contractor's ability to independently recruit and hire 
        consultants. On two separate contracts, a FirstNet Board member 
        inappropriately directed WRI hiring actions. First, before 
        contract 2 was awarded, the government inappropriately 
        identified and recruited subject matter experts (SMEs). 
        Specifically, FirstNet directed WRI via NIST's contracting 
        office to include a total of 16 SMEs in its proposal. On 
        November 6, 2012--9 days prior to contract award (i.e., 
        November 15, 2012)--NIST e-mailed WRI a spreadsheet containing 
        the names of 14 SMEs. In addition, NIST also confirmed that 12 
        of the 16 SMEs included in the proposal were recommended 
        directly by a FirstNet Board member, while the other 4 SMEs 
        were transitioned in from the previous engagement with 
        FunctionalIT (contract 1). The actions taken by the government 
        gave the appearance that, in order to be awarded the contract, 
        WRI was required to hire the SMEs recommended by the 
        government.

    Neither contracts 2 nor 3 were designated as personal services 
        contracts; however, in both cases, FirstNet directed the hiring 
        of preselected SMEs. Control over hiring and firing decisions 
        is one aspect of the traditional employer-employee 
        relationship, and thus the exercise of such control by Federal 
        employees over contractor personnel can create the appearance 
        of a personal service contracts. Federal agencies generally may 
        not enter into such contracts without explicit authority to do 
        so, essentially because they circumvent the civil service 
        system. In response to our report, FirstNet did not assert that 
        it has this authority. Furthermore, NIST and NTIA contracting 
        personnel should have implemented stronger controls to ensure 
        an independent relationship with contractor personnel--by both 
        allowing the contractor to independently conduct SME 
        recruitment and by not allowing FirstNet to direct hiring 
        actions. Unduly close personal relationships with contractor 
        personnel can create the appearance of favoritism and may call 
        into question the integrity of the procurement process.

  <bullet> Adequate surveillance not being conducted over contracts 2 
        and 3, resulting in approximately $11 million in unsupported 
        costs to the government. Contracts 2 and 3, which were T&M 
        contracts, required a level of monitoring that FirstNet 
        ultimately did not provide. Although the Contracting Officer's 
        Representative (COR) appropriately and consistently rejected 
        incorrect invoices, the COR was also required to review all 
        draft and final work products for ``completeness, accuracy, and 
        appropriateness.'' However, we were unable to verify that this 
        monitoring actually occurred. We also could not conclude that--
        at the end of both contract periods--FirstNet received the few 
        deliverables that were expressly required by the contracts 
        (i.e., monthly status reports). WRI acknowledged that NIST did 
        not require it to provide monthly status reports of tasks 
        performed, even though such reports were required in contract 
        3.

             Table 1.--Summary of FirstNet's Time-and-Materials (T&M) Contracts in FY 2012 and 2013
----------------------------------------------------------------------------------------------------------------
                                                                                                 Contract Value
    Contracting Bureau  (and Contract Number)          Date               Contractor               (Millions)
----------------------------------------------------------------------------------------------------------------
Census Bureau (Contract 1)                          09/13/2012                  FunctionalIT               $1.95
----------------------------------------------------------------------------------------------------------------
NIST (Contract 2)                                   11/15/2012     Workforce Resources, Inc.               $3.98
----------------------------------------------------------------------------------------------------------------
NIST (Contract 3)                                   03/18/2013     Workforce Resources, Inc.               $8.40
----------------------------------------------------------------------------------------------------------------
Total                                                                                                     $14.33
----------------------------------------------------------------------------------------------------------------
Source: OIG analysis of FirstNet reports.
 
Note: Contract 1 was awarded to FunctionalIT for $1.95 million on September 13, 2012, with a performance period
  ending on March 21, 2014. Contract 2 was awarded to Workforce Resources, Inc. (WRI) for $3.98 million on
  November 15, 2012, and was terminated on March 17, 2013, after $2.59 million was expended. Contract 3 was also
  awarded to WRI for $8.4 million on March 18, 2013, with a performance period ending on December 17, 2013.

    In its response to our report, the Department stated that it 
        monitored the performance of its early contracts and that it 
        relied on an unusual and compelling urgency exception to full 
        and open competition. The Department also concurred with our 
        recommendations related to the procurement issues noted in our 
        report. In its February 3, 2015, action plan and March 5, 2015, 
        revision to the plan requested by our office, the Department 
        identified actions planned and taken to address these findings, 
        including its plan to provide guidance to contracting staff on 
        correct procedures for (1) selecting contract types, (2) hiring 
        consultants, (3) ensuring receipt of deliverables, and (4) 
        outreach, training, and oversight effort to prevent occurrences 
        of unauthorized commitments. We are currently reviewing the 
        revised plan.
III. Current Audit Work
    OIG continues its oversight of FirstNet. In November 2014, OIG 
initiated an audit of FirstNet's technical development of the NPSBN. We 
initiated our audit after coordinating with the GAO, which had already 
started an ongoing review.\9\ Our objectives are to evaluate and assess 
FirstNet's efforts and progress to develop the technical design aspects 
for the NPSBN against key technical requirements and standards, the 
requirements of the Act, stakeholder requirements, and established 
performance metrics and milestones. These activities are central to 
FirstNet achieving its mission to ensure the creation, deployment, and 
operation of a single, nationwide network design of the NPSBN. We plan 
to issue a final report on our audit later in FY 2015.
---------------------------------------------------------------------------
    \9\ The GAO review assesses (1) the extent to which FirstNet is 
carrying out its responsibilities and establishing internal controls 
for developing the public safety network, (2) how much the public 
safety network is estimated to cost to construct and operate and how 
FirstNet plans to become a self-funding entity, and (3) what lessons 
can be learned from local and regional public safety network early 
builder projects.
---------------------------------------------------------------------------
    We are currently reviewing interagency agreements used to support 
FirstNet operations along with its work with entities such as PSAC, 
NIST, and the FCC to determine whether FirstNet fulfilled consultation 
requirements of the Act. It is important for FirstNet to consult and 
collaborate with these entities--which, having expertise regarding 
interoperable communications networks and knowledge of public safety 
needs, can provide significant input to how the network can be designed 
successfully. We are also reviewing expenditures and costs related to 
technical design efforts to assess spending levels, and information 
related to initial state consultation meetings to assess progress in 
incorporating key state concerns into the development of the technical 
design.
    Establishing the NPSBN requires coordination and buy-in from 
regional, state, tribal, and local jurisdictions. As designated by the 
Act, FirstNet began consultation with Single Points of Contact (SPOCs) 
from each state that were established to represent the needs of the 
different jurisdictions. In April 2014, FirstNet began a process to 
meet with each state to understand their unique communication needs for 
the network and to allow an exchange of ideas and questions about the 
NPSBN. As part of this process, the SPOCs invite members of the public 
safety community to attend the consultation meetings. FirstNet 
identified that the initial consultation meetings will be an important 
step to an iterative, ongoing state consultation process. To date, 
FirstNet has completed some consultations and has scheduled others 
through the end of FY 2015. However, as of March 2, 2015, FirstNet had 
not scheduled all initial state consultations.
    In February 2015, we attended FirstNet's initial state consultation 
effort with the state of Delaware--an event attended by the SPOC and 
other public safety officials throughout the state. The purpose of our 
visit was to assess FirstNet's approach to meeting its state 
consultation requirements. We are considering how FirstNet provides 
updates on its efforts to develop the NPSBN, as well as how it acquires 
information from public safety attendees and their unique first 
responder needs. Our review of a sample of FirstNet state consultation 
meetings with local first responders found that their key concerns were 
the cost of participation in the NPSBN; the necessity of priority 
status for first responders and the ability to preempt other users when 
accessing a network; and FirstNet's ability to facilitate rural 
coverage. In addition, some meeting participants called attention to 
issues unique to their states, for example rugged terrain or 
reoccurring catastrophic weather events such as hurricanes or 
tornadoes.
IV. Continuing Challenges for the Department and FirstNet
    Three years after the passage of the Act, FirstNet faces various 
short-and long-term challenges. As it proceeds, the Department and 
FirstNet will require continued oversight from OIG, GAO, and Congress. 
Among the most significant challenges are:

  <bullet> Ensuring the adequacy of funding for a nationwide network

  <bullet> Determining the sufficiency of assets contributed to the 
        network by states, local governments and commercial entities

  <bullet> Incorporating lessons learned from the Broadband Technology 
        Opportunities Program (BTOP)

  <bullet> Addressing identified internal control weaknesses

  <bullet> Addressing staffing and other organizational issues

  <bullet> Effectively executing the consultation process
Adequacy of funding for a nationwide long-term evolution (LTE) network
    The Act provides up to $7 billion to build a nationwide public 
safety network. FirstNet must build a network that covers most of the 
50 states, 5 territories, the District of Columbia, and 566 tribal 
nations. The 3.8 million square miles to be covered by the network will 
include areas that are urban, suburban, rural, and wilderness, as well 
as islands. Although up to $7 billion was initially authorized by the 
Act, the total costs to establish the network are still unknown.
Sufficiency of assets contributed to the network
    Implementing the NPSBN will require that FirstNet leverage existing 
infrastructure, such as existing government and commercial buildings, 
towers, fiber or microwave backhaul, and data centers. Assets are 
expected to be contributed by various parties, including states, local 
governments, tribal entities, and commercial entities. FirstNet must 
effectively identify which existing infrastructure assets can be 
incorporated into the network. Also, FirstNet must take appropriate 
steps to comply with all applicable environmental and historic 
preservation laws, regulations, treaties, conventions, agreements, and 
executive orders as it integrates contributed assets into its design.
Lessons learned
    FirstNet will need to build upon lessons learned from public safety 
projects funded by BTOP grants, an American Recovery and Reinvestment 
Act of 2009 program administered by NTIA to expand nationwide broadband 
infrastructure and adoption. Of the approximately 230 BTOP awards, 7 
went to establish regional public safety broadband networks. However, 
the passage of legislation establishing FirstNet overtook these 
projects, and all 7 BTOP awards were partially suspended. Eventually, 
FirstNet entered into spectrum lease agreements with 4 of the projects. 
These included grants made to Adams County Communications Center, Inc., 
Colorado; the Los Angeles Regional Interoperable Communications System 
Authority; the New Jersey Department of Treasury; and the New Mexico 
Department of Information Technology. For these ongoing projects, 
FirstNet will provide technical support and will share any lessons 
learned on issues such as quality of service, priority/pre-emption, and 
Federal partnerships with the broader public safety community. FirstNet 
also needs to work closely with the Department of Commerce's Public 
Safety Communications Research (PSCR) program, which provides support 
in broadband technologies evaluation and testing, network modeling and 
simulation, and standards.
Previously identified internal control weaknesses
    Initially, FirstNet struggled to establish an organization and 
necessary internal controls. In July 2014, an independent public 
accounting firm \10\ reported a material weakness related to the 
financial reporting process in FirstNet's first financial statement 
audit required under the Act.
---------------------------------------------------------------------------
    \10\ KPMG LLP, July 24, 2014. Independent Auditor's Report to the 
Secretary of Commerce and the FirstNet Board of Directors.
---------------------------------------------------------------------------
    Additionally, as mentioned previously in this testimony, our 
December 2014 report on ethics-and procurement-related issues found 
that the Department's monitoring procedures for financial disclosure 
and potential conflicts of interest at FirstNet were inadequate. We 
also found that FirstNet's contracting practices lacked transparent 
award competition, sufficient oversight of hiring, and adequate 
monitoring. As we previously noted, the Department has acknowledged 
OIG's findings, concurred with our recommendations, and is undertaking 
corrective actions.
Staffing and other organizational issues
    FirstNet has encountered difficulties in hiring and maintaining 
staff for key technical positions. Nevertheless, FirstNet has made 
progress in establishing a management structure. For instance, certain 
Board members no longer play dual roles as Board members and managers. 
As noted above, for roughly the first year and a half of its existence, 
certain Board members functioned in roles as both board members and as 
part of the management team, before FirstNet eventually assembled a 
separate management team and transferred operational responsibilities 
to it. Nonetheless, while many senior positions (e.g., chief 
information officer, chief administrative officer, chief counsel, and 
chief financial officer) are in place, key leadership positions 
throughout the organization remain vacant, including the chief user 
advocacy officer--a leadership position managing consultation and 
outreach--as well as regional directors and supervisors for 
consultations. Two FirstNet executives have left their positions, which 
are now being filled in an acting capacity.
Effective execution of the consultation process
    The Act designates at least three Federal agencies--the FCC, NTIA, 
and NIST--to provide consultation and support to FirstNet. The Act also 
required the creation of the PSAC to assist FirstNet in meeting its 
mission.
    The Act also directed that FirstNet consult with regional, state, 
tribal and local jurisdictions regarding the distribution and 
expenditure of funds required to establish network policies. 
Cooperation from these jurisdictions is a significant factor in 
ensuring the successful deployment and sustainability of the NPSBN. 
Specific consultation topics outlined in the Act include core network 
construction and Radio Access Network (RAN) build out, placement of 
towers, and network coverage areas, among others.
    FirstNet is to consult with the jurisdictions through a locally 
designated officer or body, generally referred to as the Single Point 
of Contact (SPOC) for each jurisdiction. Accordingly, FirstNet has 
begun initial consultations with SPOCs and must consider the 
information it collects into the NPSBN's development. FirstNet had set 
an internal goal to have initial consultations with each jurisdiction 
completed by the end of November 2014. However, while FirstNet has held 
some initial consultation meetings and has scheduled others into 
September 2015, many have yet to be scheduled (see table 2, next page). 
FirstNet has indicated that the timing of these meetings depends on 
each state's readiness and how quickly FirstNet can fully staff its 
outreach team.

        Table 2. Status of First Net's Initial State and Local Consultation Meetings  as of March 2, 2015
----------------------------------------------------------------------------------------------------------------
                                                                                                          Number
----------------------------------------------------------------------------------------------------------------
Completed                                                                                                     15
----------------------------------------------------------------------------------------------------------------
Scheduled                                                                                                     26
----------------------------------------------------------------------------------------------------------------
Not scheduled                                                                                                 15
----------------------------------------------------------------------------------------------------------------
Total                                                                                                         56
----------------------------------------------------------------------------------------------------------------
Source: OIG, based on FirstNet data.
Note: The target date for completion of meetings was November 30, 2014.

    As we continue our oversight of FirstNet, we will keep the 
Committee informed of FirstNet's progress with respect to the 
challenges discussed here--and any others we identify through our 
audits and investigations.

    The Chairman. Thank you, Mr. Zinser, and thanks to the 
panel for your great comments. And we'll look forward to asking 
a few questions. We'll try to confine it, to members of the 
Committee, to five-minute rounds.
    I'll start off by asking you a question, Ms. Swenson. The 
statute authorizing FirstNet specifically states that rural 
America can't be left behind in deploying FirstNet. My question 
is: How do you plan to ensure that more states are adequately 
covered?
    Ms. Swenson. Thank you for the question.
    As I think you know, in discussions with your office and 
with many of the other members, we take the rural coverage 
very, very seriously. In fact, it's as high a priority as 
urban. In fact, I think it's important for people to understand 
it's the urban coverage that differentiates this FirstNet 
network from a commercial network because commercial, as you 
know, doesn't cover rural.
    We talked a little bit about state consultation and the 
importance of state consultation. It's in those meetings where 
we actually review the program with the state. As you know, we 
work in advance with the single point-of-contact of your 
particular state and plan those meetings, go over our plans, 
and then give an opportunity for folks from the state to 
actually tell us where their priorities are.
    It's really important. We don't know that. So that's why we 
have to go into those consultation meetings, get the 
information, which then we are going to feed into the RFP 
process as part of the response mechanism for the vendors who 
are going to be responding to this about how they're going to 
do that coverage and at what cost. So it's a critical component 
of the FirstNet program. And again, I think it's really 
important to understand. This is what differentiates FirstNet 
from a commercial network.
    The Chairman. Speaking of the RFP, FirstNet was established 
in 2012 but stakeholders have been pushing for a long time for 
an interoperable public safety network. That has been going on 
for about a decade. Many are concerned that if the RFP doesn't 
move forward reasonably soon that the vendor community and the 
public safety community could lose confidence in this endeavor 
and that could be a tipping point with regard to the future, 
success and viability of FirstNet.
    You mentioned earlier in your testimony that you're going 
to try to complete the RFP by the end of the month. Is that 
what I heard you say?
    Ms. Swenson. The draft RFP.
    The Chairman. The draft RFP.
    Ms. Swenson. Yes, let me clarify that.
    It is really important, if I could, Senator? I'd like to 
just talk about the fact that, as I said, we're on track with 
everything we said we were going to do on our strategic 
roadmap. As I said, we issued the public notice and comment on 
Monday. And, by the end of this month, the Board is going to 
consider the draft RFP for issuance.
    The reason it's important to put a draft RFP out in the 
community is the very thing you said: vendors want to know what 
we're intending and provides the opportunity for the vendors to 
give us feedback about how that draft RFP is actually issued. 
So that we, when we issue the final RFP towards the latter part 
of the calendar year, we won't experience unintended 
consequences because we didn't take that into consideration.
    So we are on track to issue that. And, like I said, we're 
on track with all of the milestones that we communicated over a 
year ago.
    The Chairman. And you think end of the calendar year for 
the final RFP?
    Ms. Swenson. That's what I believe today.
    You know, there are things----
    The Chairman. Are there factors that could delay that? What 
are they?
    Ms. Swenson. You know, I am not aware of any that could 
delay that. I mean, internally, we believe that that's the 
case. And, depending on the comments we get back from the 
vendor community and others about that draft RFP, it may extend 
it a little bit but I think it'll be well with the time so that 
when we actually issue the RFP it's done right and it's done 
effectively so that we get the kind of answers.
    As you indicated, the RFP is the pivotal part of this 
program. The draft RFP is not only about deploying the network 
but it's about monetizing the excess capacity in the spectrum. 
I mean it's a very complicated process. So this has to be done 
right, and I think it's pivotal for the program.
    The Chairman. Thank you.
    Mr. Goldstein, I understand that FirstNet hasn't determined 
yet how the Early Builder projects, in those jurisdictions that 
are moving ahead with FirstNet-Ready LTE networks, will be 
incorporated in the FirstNet network and that various factors 
could effect that determination. If you could, please, 
elaborate on those factors and perhaps recommend what steps 
that FirstNet could and should take to address those.
    Mr. Goldstein. Thank you, Mr. Chairman.
    Regarding the Early Builder project lessons that they need 
to learn about and they have been collecting some information. 
They include governance, financing the network, conducting 
outreach, and planning for deployment. All four of those areas, 
the Early Builder projects have been doing their work and 
trying to develop options for, as they proceed on their own. 
They have looked, FirstNet has looked at some of those 
projects, but they have not done so in a way that we think is 
sufficiently effective.
    They haven't done a full-blown evaluation, they haven't 
integrated information into a data assessment plan that would 
allow them to use that information down the road as these 
various projects hit certain milestones, and then use that 
information to make changes themselves in FirstNet's own 
development as time goes forward. So we think that they can do 
a better job in that area and maybe that it's trying to do 
everything at once has been difficult for them. I think we 
recognize that, but that's one area where, if they are going to 
achieve success, it's absolutely critical for them to obtain as 
much information from existing projects on the ground as they 
can.
    The Chairman. And very quickly, Mr. Zinser, you identified 
FirstNet as an area of concern in the Department in the 
upcoming year. As you mentioned, in December 2014, your office 
released a report raising various concerns. What are your 
biggest concerns about it going forward?
    Mr. Zinser. Thank you, Chairman.
    I think the concerns going forward pretty much mirrored 
some of the issues you've raised in your statement, but there 
are many unknowns about the network and how they're going to 
proceed. But I think what we focused on so far is building the 
organization itself with its personnel and its policies, it's 
procedures, it's adherence to internal controls, is the thing 
that we focused on the most.
    The Chairman. And are you satisfied that FirstNet 
sufficiently listened to and implemented some of the 
recommendations and findings that you came out with in your 
report?
    Mr. Zinser. Yes, sir. We issued nine recommendations; one 
to the Secretary, one to the general council of the department, 
two to the Chairman of FirstNet, and five to the senior 
procurement official in the department and they are all being 
implemented.
    The Chairman. OK, thank you.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Let's remember the reason for FirstNet: To have all the 
first responders to be able to talk to each other without the 
hindrances that we've seen in the past where one side can't be 
talking to the other side when there is a matter of national 
security or a national emergency or local emergency in front of 
us. And I want to thank you all for what you're doing. We knew 
that this mission was not going to be easy. We've certainly 
seen in disasters in the past one set of radios can't talk to 
the others, but the stakes of inaction are way too high.
    And so, we tasked you all with creating, right from 
scratch, the interoperable nationwide network devoted to public 
safety. And so, you are a unique hybrid. We've asked the Board 
to think like an entrepreneur with a limited budget to launch a 
startup enterprise within the confines of the Federal 
Government. That's pretty huge.
    The Board wasn't even set up until August 2012 and then you 
had no employees. You had to go out and do all of that. And so, 
launching this, with the urgency that the legislation gave it 3 
years ago, you've certainly chronicled the problems along the 
way.
    Now, I want to go down a different tack with my question.
    Ms. Swenson, cybersecurity. It's an essential component of 
FirstNet; it's a mission-critical network, it's got to 
obviously be a target for the bad guys. And so, it has got to 
be hardened against these threats. So we required in the 
legislation that you consider cybersecurity. What steps are you 
taking in the planning for the nationwide network to prevent 
against the attacks?
    And then, Mr. Andrews, I'm going to ask you. Is the 
Department reviewing FirstNet's work on cybersecurity 
protections and what are you going to do about it in the 
future?
    Ms. Swenson.
    Ms. Swenson. Thank you, Senator.
    And, as you know, we've discussed that in previous 
conversations. Cyber is a very challenging area not only for 
FirstNet but for the Nation and for a lot of large companies 
around the U.S. But I am happy to tell you that we are 
collaborating very closely with the Department of Homeland 
Security on this topic. We are adding resources to the 
organization so that that is built into our planning, our 
technical planning and, of course, would be a major part of our 
request for proposal. So it's a high priority, and I think 
we're leveraging the resources appropriately within the Federal 
Government. Always open for suggestions, but it is a high 
priority for FirstNet.
    Senator Nelson. Are you going to have enough money to 
harden against cyber?
    Ms. Swenson. Well, it's probably too early to answer that 
question specifically because we are just now looking at the 
planning process. We believe that the business model that we 
have is sufficient to build out this network and have 
incorporated those assumptions into our financial model. So at 
this point, I don't see any difficulty with that but, like 
everything we do with FirstNet, everything is new.
    You know, there are things that we thought at the 
beginning, two years ago, that we've actually changed as a 
result of what we've learned and I imagine that we'll continue 
to learn as we go along the way. But, again, it's a very high 
priority and we will keep you posted on how we're doing that, 
because I know it's a very important topic to you.
    Senator Nelson. Mr. Andrews, I think it's essential to 
harden against cybersecurity because other than your everyday 
natural disaster, but when it's not a natural disaster, whoever 
is attacking us is going to be attacking us with cyber 
simultaneously. What are you going to do?
    Mr. Andrews. So, Senator, cybersecurity is a high priority 
for the Department and we recognize this is a very serious 
issue that needs to be addressed as part of the FirstNet build 
out. So not only are we working with the FirstNet team in 
making sure that they have all the support that they need but 
our CIO is involved, our team is involved and we're working 
hand-in-hand with FirstNet to make sure that they have the 
resources not just from the Department but, as Sue mentioned, 
from across the Federal Government; having the best expertise 
that's available including our NIST team. I think many of you 
are familiar with the NIST cybersecurity framework, but we have 
a number of experts at NIST who have also been involved in 
working with the FirstNet team as well.
    Senator Nelson. Well, I've met with NIST and you're going 
to need to work with them. You're going to need to work with 
some of our intelligence agencies because the technology is so 
rapidly changing in these areas of the kind of sophisticated 
attacks that can occur. And, if we're talking about a terrorist 
attack, you all are going to have to be able to communicate on 
your network. And, of course, that's going to be one of the 
first things that the bad guys are going to try to deny; is our 
ability to communicate and command.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson.
    Senator Ayotte.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. I want to thank the Chairman and Ranking 
Member, and all of you. I appreciate why we need this. We've 
all had incidences in our states. A number of years ago, we had 
an incident in New Hampshire that prompted an early discussion 
in our state about this where we had a horrible, horrible mad 
man who murdered a judge, murdered troopers that were trying to 
subdue him, murdered a local newspaper person, and the radios 
didn't talk to each other. And that created that, was to the 
advantage of the perpetrator in allowing to use that situation 
to cause more deaths. So this is a real issue.
    As I think about our state, I know that the consultation in 
New Hampshire is going to be June 9. And you have said, Ms. 
Swenson, that you're going to get the feedback from the states 
and particularly, as I think about Chairman Thune's question, 
two-thirds of my state is really rural areas where we have 
challenges on how we build a network so people can talk to each 
other. In that process, where you take New Hampshire's feedback 
and every other state's feedback, and then you put together the 
RFP for the end of the year, will the states have a feedback 
loop? In other words, you sit down with them on June 9, they 
tell you what they think, and then you're putting together an 
RFP. Is there another opportunity after for them to see the RFP 
or to see what you're working on to make sure that their views 
are reflected on it?
    Ms. Swenson. Well, thank you for the question because I 
really want to emphasize that consultation is a broad and 
ongoing process. It's not a one-time event.
    We talk a lot about the state consultations, and I think 
it's really important that people understand what we're trying 
to accomplish there. But our relationship with the states is 
ongoing.
    As I indicated, we have conference calls, we are available 
by staff, we have e-mails, we have face-to-face meetings. Also, 
I would tell you that as we go through the process of 
consultation and the RFP, and then we actually deliver a plan 
to each Governor for the plan for their state, that will not be 
a surprise. We want this to be a very iterative, very 
collaborative, process so that when you get that plan on that 
day, you've been so involved in it there could be no surprises.
    I mean, that's really the mindset we have around the 
process. So, I mean, it's very important that we all work 
together. And, as you know, we've been somewhat limited on 
staff but we're adding people to make sure that we have the 
right number of people to be available to you and your team so 
that we can be effective in the information that we're 
providing you.
    Senator Ayotte. Good.
    And one of the things we're hearing from feedback from 
people on the ground in New Hampshire is their saying, ``What's 
the benefit of FirstNet?'' In other words, the local agencies 
that have frankly been working on this issue for years, so this 
isn't a new issue for law enforcement and for first responders 
like the chief here, and they're saying, ``Why should we opt 
into FirstNet versus using a private distributor?''
    And part of this plan, I assume, is how do we use maximized 
commercial opportunities given the resources we have. So what 
would you say to that issue? And perhaps, because you're so 
new, that this worry that we don't know what to expect from the 
first responder community, you could understand why that would 
be a real one.
    Ms. Swenson. Sure. Would you like me to answer?
    Senator Ayotte. Yes. I'm curious what you would say to 
that. I just tried to get some local feedback: What do you 
think about this? What are you hearing? What's your initial 
impression?
    Ms. Swenson. Well, I don't think you feedback is different 
from what we hear, which is why we're trying to be out, as 
Chief Bryant said, with as many of the constituents as we 
possibly can. It is not uncommon. I go to my local grocery 
store and talk to firefighters and law enforcement and I ask 
them if they know about FirstNet. It is a lot of people out 
there. I mean, there are hundreds of thousands of people that 
we need to get that message out to, so I'm not surprised at 
what you're hearing, but we're working very hard to get the 
information out.
    I would tell you, from a benefit standpoint, you know, what 
we try to communicate, because it's not unusual that people 
don't understand why should we do this versus that, one of the 
things is the rural coverage. I think the rural coverage is 
really a critical differentiator. This is a dedicated network. 
This is not a network that is used by all of us. What happens 
when you have an incident? What is the first thing all of you 
do? You get on your cellphone.
    Senator Ayotte. I would argue without rural coverage you 
probably could do this quite easily commercially.
    Ms. Swenson. Well----
    Senator Ayotte. It's the rural areas that really we need 
the help the most.
    Ms. Swenson. But I think it's more than that because 
commercial is basically focused on commercial. I mean that is 
their focus and they have shareholders and earnings releases 
and things that they have to worry about. We don't.
    The money that we get from this we're going to reinvest in 
the network. So it's dedicated. It also has priority and 
preemption. So the funding that we're going to get from this--
as we said, we have $7 billion from the last auction. We have 
spectrum that is very valuable. It is beachfront property. I 
mean it is really, really good spectrum. And so getting the 
revenue from that will enable us to, along with user fees, to 
be able to operate this network.
    And I think, what's really important for, I think, first 
responders, and for anybody interested in this, is that we're 
talking about a recapitalized business model. If you look at 
this systems, excuse me, if you look at the systems today, the 
LMR systems, LAN over radio systems that are in existence 
today, are old. They're 10, 15 years old. It's very difficult 
for agencies to get the funding to upgrade that.
    The model that we have is talking about upgrading that as 
technology presents itself. For example, if we start to deploy 
this network and we move from 4G to 5G, then we will be 
deploying 5G. So we're going to give first responders the 
technology that we enjoy as consumers today as that technology 
evolves.
    We also are going to be working to--we're still working on 
the standards around this, but recognizing the network for 
particular circumstances in your state, in, you know, all of 
the member's states. We want to understand what the 
circumstances are and we're working to define; hardening 
standards so that we can try to harden the network to withstand 
those incidents that, you know, from a weather perspective, 
that would affect the networks.
    So we also are going to have applications. I think the 
development community is going to get very excited about the 
applications that can be made for public safety. This is an 
organization dedicated to public safety. It's not secondary, 
it's primary. And commercial networks, I was one. I know. I 
know where the priority is. It's about, you know, finding 
customers, getting revenue, you know, responding to 
shareholders every quarter. FirstNet is very different.
    And I think it's really important for people to know, even 
if you decide to let us deploy your network in your state 
instead of building your own radio access network, the public 
safety agencies are not obligated to sign up. There's not a 
mandate that they have to.
    So think what that says to us in terms of developing this 
network. We have to create a compelling value proposition that 
gives them more value than they have today. And so, that is why 
we are spending so much time with public safety; is to 
understand their needs so that what we deliver to public safety 
is what they're going to want to use. So we're very conscience 
of that issue and we're working very hard to get information 
out.
    We're working, actually, with the associations to try to 
get more information out to the people who are on the street 
because it's very, very difficult. In fact, we were at the FOP 
meeting in San Diego last Saturday, and law enforcement in San 
Diego was not that familiar with FirstNet. But our staff and I 
presented at the FOP meeting to educate, you know, 150 people 
at that session. So we're working very hard to get the message 
out. If there's more we can do, we're open to suggestions.
    Senator Ayotte. Absolutely. Thank you.
    Ms. Swenson. Thank you.
    Senator Ayotte. We'll certainly want to make sure all of 
our first responders are informed.
    Ms. Swenson. Right.
    Senator Ayotte. Appreciate it. Thank you.
    Ms. Swenson. Thank you.
    The Chairman. Thank you, Senator Ayotte.
    Senator Booker.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you very much, Mr. Chairman.
    First of all, I just want to say thank you for the work 
that you're doing. You've been tasked with doing something 
that's really unprecedented----
    Ms. Swenson. Right.
    Senator Booker.--not just in government but really in 
American history that is extraordinarily and absolutely, 
urgently needed. As Senator Ayotte said, all of us probably, 
that are serving in the U.S. Senate, know the urgency for this. 
I spent 8 years almost, as a mayor, with crisis and crisis and 
crisis, and I saw, as Chief Bryant could probably attest from 
his experiences, that communications, whether it's of men going 
into a burning building with no visibility or how important 
just a radio is to be able to communicate externally.
    For us, Hurricane Sandy, we saw in the most painful way how 
critical communication was. I even had a situation where we had 
an earthquake in New Jersey, something people don't think we 
have. And after surviving the 89 earthquake in California, I 
didn't think it was too serious until all my communications, 
police department, fire department, all my officials went down, 
and fortunately we had a plan to meet but that suddenly made me 
realize the challenges.
    So what you're doing is really a life or death initiative. 
You are making strides that should be celebrated. My state is 
ecstatic about the contribution you're making to New Jersey. 
And I'd like to submit for the record an article about Atlantic 
City without objection, Mr. Chairman.
    [The information referred to follows:]

  Atlantic City to lead way with broadband network for public safety 
                             (Feb 9, 2015)

                 Credit: AtlanticCity.com--Lynda Cohen

http://www.pressofatlanticcity.com/news/atlantic-city-to-lead-way-with-
broadband-network-for-public/article_8f841654-b0a9-11e4-9f47-
f3487533808a.html

    Atlantic City public safety soon will have its own broadband 
network that means better communication and more reliable service.
    The city is one of three areas in the state to be part of a pilot 
program by the Office of Homeland Security and Preparedness that 
eventually will have a nationwide broadband system called FirstNet.
    That means public safety will not be using the same network as the 
public, lessening the chance of overloads and problems like those that 
stressed connections during last year's free beach concerts and the 
Miss America Parade.
    Mobile centers also will increase the area covered and allows for 
communication between agencies during larger emergencies.
    Fred Scalera, the public safety broadband manager for state 
Homeland Security, explained that it would prevent problems such as 
those during 9-11, when the New York and New Jersey sides couldn't 
communicate.
    A retired Nutley fire chief, Scalera experienced that firsthand. 
Then, as an assemblyman from Essex County, he worked on legislation 
that helped create the program and get funding, so there is no cost to 
the towns.
    The timing couldn't be better, as Atlantic City is also in the 
process of upgrading its technology, said Atlantic City police Lt. 
James Sarkos, who has been the point person for the project.
    ``This is something that's going to benefit the entire region,'' 
Chief Henry White said.
    Scalera updated public safety workers Monday at Stockton's Carnegie 
Center in Atlantic City. The Richard Stockton College of New Jersey's 
main campus in Galloway Township will act as the command center for 
Atlantic County.
    A System on Wheels, or SOW, will be set up near the Public Safety 
Building that houses Atlantic City police, and will be able to keep 
things running even if everything else goes down, Scalera explained. 
Using satellite, it will correspond to seven mobile stations: five at 
locations within the city and one each in Pleasantville and Absecon. 
Leaders asked that location of these so-called Cells on Wheels, or 
COWs, not be disclosed for security reasons.
    Two of the locations were still be worked on Monday.
    FirstNet will be able to tie in different systems, including 
Mutualink, which allows agencies to communicate during emergencies even 
with incompatible radio or wireless systems.
    Eventually, other systems could come in, including utilities. If 
that happens, it could mean the simple flip of a switch to turn off 
electric and gas to a home on fire, or to aid in things like SWAT 
operations, where police may ask to have electricity cut off to make 
their entry safer.
    The system is expected to be functional by June, with it going live 
by December, after officers have had hands-on training.
    Pleasantville Police Capt. Sean Riggin said his department ``is 
eager to participate in this exciting opportunity to improve our 
policing and communication partnerships with ACPD and the State 
Police.''
    ``This is another example of our commitment to improving our 
operations and service to our community through the use of technology 
and intelligence-led strategies,'' he added.
    Because of Atlantic City's mostly low-lying area, the trial of how 
far the network could range showed that a 5-foot antenna could get 
``fringe coverage'' almost 10 miles out, Scalera said.
    To compare the size of the areas, Scalera pointed to Los Angeles 
County in California, where there are 200 towers. In New Jersey, it 
would take 200 to 250 towers to cover the entire state.

    Senator Booker. About Atlantic City, about the public 
safety work you're doing there and how we believe, in New 
Jersey, that the mobile platforms that you're creating that can 
be rolled out in a crisis----
    Ms. Swenson. Right.
    Senator Booker.--to key areas really is something for this 
country. There could be a benefit in a model for the Nation 
whether it's rural areas or urban areas or suburban areas.
    So I just celebrate you, and I also celebrate you in a 
sense that you're working through bureaucracy that is not used 
to dealing with this very unique public-private partnership 
that you have. And so, I really respect the professionals that 
are sitting with you on the panel who have done the arduous 
work of oversight.
    But I want to afford you a couple opportunities to respond 
a little bit to some of the challenges that you put forward. 
And the first is your constructive criticism of having to deal 
with a lot of the challenges on procurement and others that are 
undermining your progress to your goal. It's very important, I 
think to this Committee who likes to remove barriers to get 
good things done, and this is one of the more righteous things. 
We may not realize how much we need it, but let a major crisis 
happen to this country. If you get this done, you will make a 
difference that could be thousands of lives saved.
    So could you just talk for a moment about those obstacles 
that you're encountering and how maybe we could do something to 
remove them for you?
    Ms. Swenson. Sure.
    I think, you know, the way I'd like to characterize it is 
we're working with Deputy Secretary Bruce Andrews and his staff 
and Secretary Pritzker on improving the processes within the 
Department, within NTIA and with FirstNet. So set aside the 
Federal regulations for a moment. There is just a lot of people 
touching a lot of things today and we need to streamline that. 
And we're really committed to working on that improvement.
    I also think it's important that we have the ability to 
control our destiny and that we have the ability to have people 
who are dedicated and for FirstNet is their first priority. 
Because this is no pejorative comment about people that we work 
with but FirstNet is a secondary item for them. I mean, they 
have a full-time day job and then we pile on FirstNet on top of 
that. And so, we probably don't get the, you know, the urgency 
that we feel about things. So to the degree that we can take 
accountability and responsibility for those functions, we'll 
obviously follow all the rules and regulations but I think we 
would have an opportunity to move more quickly.
    So I'd like to see what we can do about improving that and 
also taking responsibility from Commerce. And obviously, we 
wouldn't do that until such time that we were prepared. We went 
through that process with Commerce and NTIA already with our 
finance organization. Initially, they provided support for us. 
Today, we actually do a lot of that work ourselves. So I think 
we've demonstrated that we can bring in the right resources 
with the right talent and training; put the processes and 
controls in place that would cause people to feel comfortable 
that we would fulfill that.
    Senator Booker. Let me interrupt you just for the last 26 
seconds, because I would love for you to submit more of that to 
the record afterwards. I'd love to hear in detail some of the 
things that we could be doing to prevent it. But I just want to 
end by saying one comment, one question, which is--the comment 
is our first responders we elevate, as Senators, consistently 
but the people that have the first responder's backs should be 
elevated too. And I want to just give you a chance to respond 
to the cost issue. I know you spoke about it a little bit, but 
really the build design to have a self-funding mechanism----
    Ms. Swenson. Right.
    Senator Booker.--and do you think that's sufficient, 
because Mr. Goldstein pointed out that it might not be? Is that 
sufficient?
    Ms. Swenson. Well, you know, I think what's important to 
understand in the GAO report is that the information that's in 
there is built on a lot of assumptions. And, you know, I think 
even Mr. Goldstein indicated that. That those assumptions that 
you saw, $12 to $47 billion have a set of assumptions that, you 
know, that he didn't have visibility to.
    We have built a financial model with a set of assumptions 
as well. And we believe we understand what we need to 
accomplish in terms of our spectrum value in order to make this 
self, you know, a self-sustaining network. That's why the RFP 
is such a critical component to that because that is really the 
funding mechanism. While $7 billion is a lot of money, I'm not 
saying ``no thank you'' to that, but it's not sufficient to 
continue to operate and upgrade this network over time. So I 
believe that financial model is solid, but we won't know the 
answer to that until we finish the RFP process.
    And, of course, the RFP process is critical for us being 
able to put together a plan for each of the Governors where we 
can talk about the coverage we're going to provide and what 
it's going to cost the, you know, the first responders to 
subscribe to that. We won't know all of that until the RFP is 
completed. We've made assumptions; we won't know the facts 
until the RFP is completed.
    Senator Booker. Thank you very much.
    Ms. Swenson. Thank you.
    The Chairman. Thank you, Senator Booker.
    Senator Manchin.

                STATEMENT OF HON. JOE MANCHIN, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Mr. Chairman, and I too want to 
thank all of you and thanks for what you're doing in this 
FirstNet it's unbelievably important for all of us.
    Let me just say that when Governor of West Virginia, I came 
into the office in early 2005 and we weren't able to 
communicate with any natural disasters or mine tragedies that 
we had, couldn't get the equipment to the right place in time 
because we couldn't communicate. So it was critically important 
for us to protect our citizens by being able to communicate. We 
put an interoperable radio system in, as you recall, with good 
towers and all that.
    We're probably one of the most rural states east of the 
Mississippi. With that being said, this is so important to us. 
So what I would say to you is that--and I also want to thank 
you for the Mackinac Conference that you attended and that was 
some of my West Virginia first responders. But when will phase 
two of the grants be available, which is really going to get us 
in business? Right now, everyone's talking and planning, but 
we're not seeing any action.
    Ms. Swenson. Right.
    I don't know if you want to answer that question?
    Mr. Andrews. About the state level of planning grants?
    Ms. Swenson. Yes, the grants.
    Mr. Andrews. Sure.
    Ms. Swenson. Because he manages the grants.
    Senator Manchin. Oh, yes.
    [Laughter.]
    Senator Manchin. When are you going to let him go?
    Mr. Andrews. So, there are----
    Senator Manchin. Turn your microphone on so everybody can 
hear you.
    Mr. Andrews. Oh, I'm going to be in trouble after that.
    Senator Manchin. Again, the question was when you going to 
let the money go?
    [Laughter.]
    Mr. Andrews. So there are actually two rounds of money. The 
first round of money, under the state level implementation 
grants, otherwise known as SLIGP, a great acronym----
    Senator Manchin. We're ready to go to two.
    Mr. Andrews. So the round one has gone out. Round two is 
somewhat dependent on the figuring out what the data needs are 
for FirstNet. So we're working with them. The first round has 
gone out for the consultations, for the planning, you know, and 
to really allow the states to do the work that, to fund that 
work, to work with FirstNet as part of that first round, and 
part of the state consultations. The second round, though, is 
going to go out for accumulating the data that will go into it. 
And so, we're in the process of figuring out what is it the 
data----
    Senator Manchin. Every state is going to be different, and 
I'm sorry because our time is so limited. Everything is going 
to be different from state to state as far as the needs are. 
The State of West Virginia, we undertook a program with 
stimulus money and basically built out to every school, every 
post office, every community building. We got Internet into 
every nook and cranny in West Virginia. But, basically to build 
off of that has not been profitable for the private sector to 
take it on because of the customer base. But it would be easy 
for you to hook off of that for FirstNet into those critical 
areas of first responders. So some of us could really get up 
and running much quicker if we had access to this and if you're 
going to fast-track some of this.
    Mr. Andrews. We expect within the next couple months to 
have that second phase of money go out.
    Senator Manchin. If you want to use us as a trial and 
error, West Virginia would be delighted to work with you.
    Let me go to Mr. Goldstein right now.
    Mr. Goldstein, in the past three years you've successfully 
hired less than 100 people that I'm told. OIG investigation 
found various issues with the hiring process, response, and it 
appears to have been more lawyers, more layers of bureaucracy 
and more red tape. The annual report, which was due February 
twenty-third, still has not been released because it has to be 
reviewed, I am told by 10 different Federal agencies, before it 
can be even shared with the first responders who it is designed 
to serve. Is all this new to you?
    Mr. Goldstein. Yes, sir. I am not aware of that.
    Senator Manchin. That you're aware that the February 
twenty-third has come and gone and the annual report has not 
been given.
    Mr. Goldstein. I'm not sure of the question that you're 
asking, sir. To whom is it referred? I'm with the GAO.
    Senator Manchin. Oh. Well, I mean you all are overseeing it 
right? The Accountability Office, you would.
    Mr. Goldstein. We have done our first audit of FirstNet 
which is what I'm here talking about today, sir.
    Senator Manchin. Well, would it alarm you all that they 
might not be able to meet the FirstNet needs as far as 
personnel, that's all they've been able to hire? I mean----
    Mr. Goldstein. We understand that----
    Senator Manchin. Can someone else--maybe I got the wrong. 
Can someone else answer this?
    Ms. Swenson. I can certainly respond to that.
    First of all, the annual report actually has been issued. 
There was a bit of a time delay, but you should have access to 
that at this point. And it does require significant review. 
You're actually correct on that, and maybe there's an 
opportunity, I think, to take a look----
    Senator Manchin. I mean this is what really upsets people.
    Ms. Swenson. Well, you know what? You're talking to 
somebody from the private sector. The answer is no.
    Senator Manchin. OK.
    [Laughter.]
    Ms. Swenson. I mean it's just simply, no, it doesn't make 
sense. But I'm not an expert on government process so I'm not 
sure of the----
    Senator Manchin. These are the things you can tell us about 
because this is a national emergency. If something were, God 
forbid, happening, can we help each other? A Katrina-type 
thing? My goodness, it was such a cluster I couldn't even tell 
you all.
    Ms. Swenson. So could we help each other when we put up the 
network?
    Senator Manchin. I mean to get FirstNet up and running, 
basically the states can.
    Ms. Swenson. Yes, actually that's the beauty of FirstNet.
    Senator Manchin. Yes. I know that. But I'm saying, to cut 
through the ten different Federal agencies, tell us what your 
impediments are.
    Ms. Swenson. As I said, the impediments today are in 
personnel hiring because it takes us anywhere from nine months 
to a year to get people on the payroll through all the 
processes, through job descriptions, through hiring, through 
security clearances, and all those kinds of things. It can take 
a significant amount of time to get people on the payroll. 
Again, that's where we're working with Department of Commerce.
    And procurement. I mean, again, I would like to just say 
that I think it's really important that we have as much control 
over our destiny as possible to have people who are dedicated 
to this who feel a sense of urgency for whom it's not a second 
job. And all the people who work in FirstNet today feel the 
sense of urgency, want to get things done, but it's difficult.
    Senator Manchin. OK.
    Mr. Chairman, my time is up but if I could maybe work with 
you and the Ranking Member. If we could look at cutting some of 
this government regulation in order to get this up and running 
much quicker, because we're hitting this in every aspect of 
government. Maybe the Commerce Committee can cut through this 
stuff.
    The Chairman. I would be more than happy in going to work--
--
    Senator Manchin. OK. Well, let's do it.
    The Chairman.--with the Senator from West Virginia because 
that is crazy. I mean, this stuff is beyond the pale sometimes 
in terms of what it takes to get anything launched. So let's do 
that. Thank you, Senator Manchin.
    Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    Thanks to our panelists today for your testimony and all 
your hard work on this issue and your insight into it. And I 
want to say I'm certainly concerned about all of the issues 
that I've heard from my colleagues in Michigan that I'm 
privileged to represent, and where there are a great deal of 
rural areas as well. So I appreciate your efforts in making 
sure that we have this network up and running in rural areas. 
We also have urban areas.
    But in my question, I want to take another area that's very 
important to us and that's border areas. We are a state that is 
on some of the most traversed border crossings in the country. 
In fact, we just recently have been moving forward on a new 
international bridge between Detroit and Windsor, which will 
greatly increase trade between our countries and continue to 
make Michigan a logistics hub for the whole country; plus we 
have border crossing in Port Huron and Sault Sainte Marie. And, 
as a result of that, we have frequent contacts with Canadian 
officials.
    And, as we're dealing with border issues and when it comes 
to first responders, often have to coordinate with those 
international entities or, in this case, the Canadian entities. 
And they have different spectrum issues than we have in the 
United States.
    So to Chairwoman Swenson, if you could comment a little bit 
about how FirstNet's going to ensure that some of emergency 
communications along the borders are going to be facilitated 
and give a sense of what sort of discussions you have had with 
Canadian officials in terms of making sure there isn't 
interference in the communication that we may have on our side 
of the border versus their side of the border and when they 
have to be connected together as well? So I know it's a complex 
issue, but maybe if you can flesh that out.
    Ms. Swenson. Actually, it's not a complex issue.
    Senator Peters. Oh, good. Excellent.
    Ms. Swenson. I mean, from a technical perspective, and I 
would just tell you that one of our BTOP projects is not really 
focused on Canada but also on the Southern border, because we 
know that border issues are challenging. So we are actually 
quite a bit from our BTOP projects, and one of those is border 
issues. Again, we're focused on Mexico, not Canada, but we have 
a very good relationship with Canada. They have the same 
standards that the U.S. does. So we don't anticipate a lot of 
difficulty, frankly, with Canada. We are anticipating some 
challenges with Mexico, which is our New Mexico BTOP project is 
actually focused on that as one of the key learning conditions.
    So we've actually, I think, from a key learning condition, 
and things we've learned from our BTOP projects, we've actually 
had about 61 things that we've actually learned. And I would 
just like to mention another one in particular that has been 
extremely valuable that has been fed into the technical team 
and the RFP process, and that is our project in Las Angeles. 
Las Angeles is working to try to get some sites up. And we've 
learned that the use of existing government infrastructure is 
quite a bit more challenging than we had originally 
anticipated; developing memorandum of understanding, leasing 
excess capacity is very challenging. So it actually has been 
extremely helpful through that project.
    So I would just have you feel a little more comforted; be 
happy that you're on the Northern border instead of the 
southern border because I think we'll be able to traverse those 
challenges quite easily.
    Senator Peters. Well, I'll say that's very good to hear. 
The other issue that we face, being a Great Lakes state, is 
that we have a very large Coast Guard presence as well----
    Ms. Swenson. Yes.
    Senator Peters.--along the shoreline. And so, just if you 
could let me know a little bit what FirstNet is doing to work 
with some of the military branches and the Coast Guard. As you 
know, depending on what the emergency is, sometimes it's the 
Coast Guard that's the first to respond but they work very 
closely with fire and police and EMS personnel as well.
    Ms. Swenson. Exactly. You know, I think it's an excellent 
question.
    And just as we have outreach to all of the states that 
we've been talking about, we actually have a dedicated person 
on the FirstNet staff to focus with our Federal partners. And 
there's actually a person inside the Federal Government who is 
now our single point-of-contact, much like a state has. We 
actually are working with a group called the ECPC. There's a 
lot of acronyms in the Federal Government.
    Senator Peters. Yes, there is.
    Ms. Swenson. I think it's called the Emergency 
Communications something, something. Anyway, I'm sorry. I don't 
remember the acronym, but it has to do with bringing all the 
agencies together around emergency communications. And 
previously, two of our board members, Suzanne Spaulding, Under 
Secretary for Department of Homeland Security, and Teri Takai, 
were co-chairs of that committee. So we are very engaged and 
recently met with the Federal partners to make sure that we can 
coordinate and make sure that they're part of this process. So 
we're very engaged with them.
    Senator Peters. Wonderful.
    Now I just want to pick up Chief Bryant and a comment you 
made about when the systems, they are overwhelmed depending on 
the incident. And I'm just thinking about a horror story within 
Michigan, if we had a crisis at the University of Michigan 
football game, which we have an awful lot of folks at the 
stadium, if communications could be very, very difficult, how 
do you see FirstNet handling that situation? And to the 
Chairwoman as well, how can we share that we're going to be 
able to handle these incredible spikes of why this network is 
so important to handle these incredible spikes and usage?
    Chief?
    Mr. Bryant. Well, Senator, on these large-scale events, 
obviously, the initial stages of it are somewhat chaotic, and 
that's when we experience the most difficulty with voice 
communication. But, as we have to reach outside of our own 
jurisdiction at those times to gather critical information to 
help us manage that incident, the data side of this is what's 
really needed and what's really important. So when we reach out 
to Federal agencies that could provide us mapping information 
and other types of information that we would need when law 
enforcement may need to reach out for intelligence-type 
information, having the availability through the FirstNet for 
the data is critical.
    Again, depending on the locality's communication system, 
you know, some are very robust systems out there; some are not 
so much at this point. So I look at this as somewhat as a 
safety net in those times that, if your voice does start to 
fail you a little, voice communications do start to fail or get 
overwhelmed, you have that backup with FirstNet on the data 
side to be able to exchange critical data.
    Ms. Swenson. Just a couple of comments. First of all, going 
back to my comments about a dedicated network. First of all, 
that's a lot of capacity in 20 megahertz. We have 20 megahertz 
and that's a lot of capacity, but as you indicated, we 
sometimes have spikes.
    We will, through the RFP process, get someone to actually 
want to use that access capacity and they will be using the 
network and obviously we will be getting revenue for that. The 
beauty of long-term evolution, LTE technology, that has 
something called priority and preemption. So even if there are 
people using the network, those folks will come off the network 
and public safety will be given priority. This is the first 
time this has ever been done.
    Having been in telecommunications for a long time, people 
talk about priority and preemption but it's all been done 
manually. This is done automatically. We're doing testing in 
our PSCR labs in Boulder right now to validate that it's more 
than just a vaporware. We have vender technology in our labs 
and we're actually testing it. So the good news is that it 
works.
    I also think it's important to mention, because this is a 
big change for public safety. You know, public safety is used 
to working in vertical organizations; fire, you know, law 
enforcement, EMS. This is creating a very horizontal ability to 
communicate. As a result of that, we have an advisory group 
called the Public Safety Advisory Council, and they are 
actually looking at how this new organization is going to work 
local operations. Because I think it's going to change the way, 
frankly, public safety operates. I think it's all good, but 
it's going to be very different. And I think we are going to 
enjoy as we see this technology roll out, things that we aren't 
even thinking about today. Much like you see in technology for 
consumers.
    So I think it's very exciting but it's going to be a big 
change for public safety. But I think those are the important 
things about the public safety network that are going make a 
very, very big difference.
    Senator Peters. All right. Thank you.
    The Chairman. Thank you, Senator Peters.
    Senator Fischer.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman.
    Ms. Swenson, can you give us an idea when this is all going 
to be fully operational? Do you have a window of time there?
    Ms. Swenson. It's always a great question.
    As I said, we have the strategic roadmap that lays out the 
time-frame of getting through our state consultation, issuing 
the RFP, getting the response, and then obviously awarding, you 
know, to the winner of the process. What we don't know today is 
what might happen in that process.
    So if we were unencumbered by external factors, than we 
could probably give you a more definitive timeframe. But my 
expectation, based on what everybody's told me in the Federal 
Government, is we might see a few bumps along the way. So the 
goal is to, obviously, is to get that RFP out, get the 
responses in, put that information together, and deliver plans 
to each of the Governors of every state.
    What happens during that time-frame we're hoping is smooth 
and I hope you get the sense of the sense of urgency we feel 
about this and how hard we're working to get that done as 
quickly as possible.
    Senator Fischer. Do you think you'll reach that 2022 goal 
that's out there?
    Ms. Swenson. Oh, yes. Yes. If we don't, I mean, we should 
be shot.
    [Laughter.]
    Senator Fischer. Mr. Chairman, I don't even know how to 
respond.
    [Laughter.]
    The Chairman. We'll find a lesser answer for that.
    [Laughter.]
    Senator Fischer. I appreciate your honesty on that. When 
we're looking at the GAO's estimate, that you're going to need 
$12 to $47 billion over the next 10 years, how do you think--
well, first of all, do you agree with those numbers?
    Ms. Swenson. Well, as I said previously, I think the GAO 
report has looked at some assumptions and some estimates where 
they have no visibility about the assumptions that were made. I 
will tell you that very early in the process, the early folks 
who were with FirstNet along with the Board, looked at a 
financial model around some assumptions. We're pretty 
comfortable based on our experience around the cost structure 
to do this sort of thing. I think the revenue side is a little 
bit harder but I think we've made some reasonable assumptions. 
We've incorporated that into the model to say, is this even 
feasible, can we even do this. And I thought that it was a very 
important process to go through because why expend Federal 
funds to go down this path only to find out that at the end of 
it there is no----
    Senator Fischer. Right. Can we do it?
    Ms. Swenson. Yes, we can.
    Senator Fischer. Can we do it----
    Ms. Swenson. Assuming that the assumptions that we have in 
our plan are realized, which is why the RFP process is so 
important. And that's why I think the public noticed--I would 
just like to highlight that the public notice that we issued on 
Monday is critical to the RFP process because it starts to 
answer some of the questions that I think were maybe a little 
unclear in the legislation that we're trying to clarify before 
we go out with RFP. We believe that it can happen but it will 
only be validated through the RFP process.
    Senator Fischer. And, if by chance that's not going to be 
enough money, what do you see happening? Are the states going 
to have to step forward and pick it up? Are we looking at 
turning FirstNet into a self-sustaining entity? Where do we go 
from there?
    Ms. Swenson. Well, I think it's an excellent question. 
We've talked a lot about that inside of FirstNet. And, if we 
don't realize what we believe the value of the spectrum is--I 
mean, we could literally fold up our tents and go home, which 
is not a good outcome, which is why this is such an important 
process, which is why we're out with state consultation, which 
is why we're outreaching to people to make sure--I mean, think 
about this.
    We have to provide a compelling value proposition for our 
first responders. We're in a very different situation than 
maybe other projects where they're more mandated. We have to 
actually deliver to our first responders something that they 
think is worthwhile. And so, I think it changes the dynamic in 
the way we approach this in terms of how we approach the 
project. So we're working very hard to make sure that that 
happens but, if we don't realize the value of that spectrum, 
it's going to be very challenging to be self-sustaining.
    Senator Fischer. Do you think FirstNet would then put in a 
claim for more of the money that comes from the sale of 
spectrum? When you say you don't realize the value of 
spectrum----
    Ms. Swenson. You know, we're not looking for more money 
actually. You know, we're not looking for----
    Senator Fischer. You know, that is nice to hear.
    [Laughter.]
    Ms. Swenson. You know, I know that's rare, that's rare, but 
we take that honestly very seriously, which is why you I think 
you see such a dedicated team at FirstNet and why I think 
Senator Booker talked about the importance of having people 
who've done this before; so that you really have a sense of 
confidence that it can be accomplished and why it's so 
important that the RFP be very well done.
    We believe that there is interest in our spectrum. So, I 
mean, we have a fundamental belief, and we validated that, 
frankly, through conversations we've had with folks. I mean, 
there's never enough spectrum. I mean, it's like gold; right? 
It really is really valuable. So even with priority and 
preemption we think, like I said, it's very good spectrum and I 
think we have people out there who are more than interested in 
being part of that. So we're confident that that will prove to 
be the assumption that was correct.
    Senator Fischer. Thank you very much.
    Thank you, Mr. Chair.
    The Chairman. Thank you to the Senator from Nebraska and 
next up is Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman.
    I found a remark earlier, Ms. Swenson, that you made 
somewhat staggering. That it takes nine to 10 months to hire 
someone. Did I hear correctly?
    Ms. Swenson. Unfortunately, yes, you did.
    Senator Blumenthal. So you have the funding you need.
    Ms. Swenson. Correct.
    Senator Blumenthal. And the spectrum that's necessary.
    Ms. Swenson. Correct.
    Senator Blumenthal. The two essential components that have 
been commonly identified, but you are in effect, I don't think 
it's too strong a word to say, handicapped even crippled by 
procurement procedures including hiring procedures that 
essentially are ossified and completely inadequate to the 
urgent task that you face. And you've used the work urgent to 
describe it. I think all of us would agree.
    Ms. Swenson. Right.
    Senator Blumenthal. What can be changed in those 
procurement policies, which have so handicapped other branches 
of government as well in similarly urgent tasks, particularly 
in the hiring area?
    Ms. Swenson. As I said, Senator, we're working with 
Department of Commerce and the Secretary's staff to see what we 
can do. I think in addition to just the Federal process, I 
think we have some things internal to FirstNet, NTIA, and 
Commerce that I think we can look at. We're looking at the 
cycle time of that and what is getting in the way. Why is it 
taking 2 months to write a job description? Why is it taking 2 
months to hire a firm to hire people? It shouldn't take that 
long.
    And so, we're looking to see what we can do to compress 
that, which would significantly enhance our ability to get the 
job done. So I'm just telling you, we're working very hard and 
I'd love to report back to you on the progress that we're 
making on that.
    Senator Blumenthal. Well, in each of those steps that 
you've identified, OPM has to be a partner; correct?
    Ms. Swenson. You know, I'm probably not as----
    Senator Blumenthal. Under current procedures.
    Ms. Swenson. I'm not as familiar. I think Deputy Secretary 
Andrews might be able to answer that question.
    Mr. Andrews. If I could give a little more context on that, 
which is one of the things we've done, and actually has moved 
FirstNet over to the Commerce Alternative Personnel System, 
which is a more streamlined and frankly more flexible process 
than the normal OPM process. You know, there are undoubtedly 
challenges because of the safeguard that are built in the 
Federal law in terms of hiring within the Federal Government 
that, as you point out, this is urgent and frankly the needs of 
FirstNet are incredibly special.
    Senator Blumenthal. What about, Ms. Swenson and Mr. 
Secretary, giving FirstNet direct hire authority?
    Ms. Swenson. Good. You start and I'll finish.
    Mr. Andrews. I am happy to start that.
    We have made that request.
    Senator Blumenthal. You have made that request?
    Mr. Andrews. It has not been granted but within the Federal 
Government.
    Senator Blumenthal. When did you make that request?
    Mr. Andrews. I would have to pull the exact dates.
    Senator Blumenthal. Well, give me, if you can, an 
approximate date.
    Mr. Andrews. Probably----
    Ms. Swenson. It was quite a while ago.
    Mr. Andrews. Yes. Eight or nine months ago. And part of the 
reason we've gone to the Commerce alternative the cap system 
like you----
    Senator Blumenthal. And what have they said to you?
    Mr. Andrews. Up until now, it has not been granted based on 
the nature of the hiring and what they think the hiring to the 
pools out there.
    Senator Blumenthal. Have they responded negatively or have 
they just not responded?
    Mr. Andrews. Negatively.
    Senator Blumenthal. And what----
    Ms. Swenson. I would just clarify that----
    Senator Blumenthal. I'm sorry, Ms. Swenson.
    Ms. Swenson. I would just clarify that just a little bit. 
They responded negatively to our first request. They have not 
responded to our second request.
    Senator Blumenthal. And when was your second request made?
    Mr. Andrews. It was August 2014.
    Senator Blumenthal. August 2014. So that's quite a while 
ago.
    Ms. Swenson. Right.
    Senator Blumenthal. Let me just suggest that, you know, for 
the first year and a half, I believe I'm correct in saying, 
your board essentially functioned. Has the staff? Now, you have 
110 employees which seems----
    Ms. Swenson. Low.
    Senator Blumenthal.--inadequate. Low is right.
    The success of this very, very important national priority 
depends on having the best and the brightest. There is simply 
no way you can compete for the limited pool of highly skilled, 
talented people who are being hired by Google, Apple, you know, 
there is huge demand for these people.
    Ms. Swenson. Correct.
    Senator Blumenthal. And you're telling them, ``Sorry, we 
can't let you know for another 10 months.''
    And they're going to say, ``Thanks, but no thanks.''
    Right?
    Ms. Swenson. In fact, they have.
    Senator Blumenthal. And they have.
    Ms. Swenson. Correct.
    Senator Blumenthal. I'm sure that they have in large 
numbers.
    Ms. Swenson. Correct.
    Senator Blumenthal. So, if I may respectfully suggest, the 
Federal Government is failing you. And unless we expose you to 
capital punishment----
    [Laughter.]
    Senator Blumenthal.--I think we have an obligation to 
compel the relevant agencies, principally OPM and anybody else 
concerned, to do better and to do more and to do it more 
quickly so that you can succeed in this task.
    Ms. Swenson. Senator, we'd really appreciate that. Thank 
you for your comments.
    Senator Blumenthal. Thank you.
    Thanks, Mr. Chairman.
    The Chairman. Thanks, Senator Blumenthal.
    Senator Cantwell, Senator Wicker----
    Senator Cantwell. Thank you.
    The Chairman.--Senator Daines.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    You know, one of the issues that strikes me in this 
discussion is how fast you can go and whether there's more the 
private sector can do but I think the key phrase here is 
interoperability and then, my understanding that some of those 
pilots were turned down because they really were ensuring 
interoperability.
    I mean, the private sector can get it all done in a second, 
but I guarantee you it'll be a closed-loop system based on 
somebody's technology that they just build and build and build 
and build and build off their technology. So if you want to 
give somebody the grand prize I guess we could do that, but the 
issue here is making sure we have interoperability. Is that 
correct? And is that why some of the pilots were delayed 
because they weren't really conquering that?
    Ms. Swenson. Well, let me respond to that. And I can 
respond pretty specifically because, as a board member, I 
actually, in the very beginning days of FirstNet, negotiated 
the leases. As you know, those BTOP projects were in existence 
prior to FirstNet becoming a reality. They were put on hold 
just to make sure that they were, because they were focused on 
broadband, and to make sure that they were consistent with what 
we were trying to do with FirstNet. The good news is we were 
able to actually move some of those forward.
    Some of the difficulties that we experienced, one of the 
requirements was that that plan that the organization presented 
had to be self-sustainable. So, in other words, they needed to 
show financial viability. And, in some of those cases, it 
didn't turn out to be that. And I will tell you, personally 
Senator, that I personally worked very hard to try to get those 
projects completed because we know how important they are.
    As I said, we've learned a lot from these projects that 
we've already incorporated into the technical work that the 
technical team is doing. It has really helped us in terms of 
understanding the government assets and how we might utilize 
those. I think that NTIA has been involved in that activity as 
well because they have a different role than FirstNet does. But 
I will tell you that we work very hard to get those projects on 
board because we are learning a lot from them
    Senator Cantwell. OK.
    So I want to ask you about when we will see functionality 
because it is important. So while I understand the issue of 
interoperability, in making sure that that actually is 
implemented throughout the network, I think the state grants 
are very important. I think we have this horrible incident that 
we're almost to its 1 year anniversary, which is the Oso 
mudslide, which literally cut two communities in half and they 
were without communication and it required 30 different 
agencies to respond.
    And I think everybody now knows exactly what we want and 
what it's going to take in this particular area because of the 
topography; you have some communication challenges just in 
that. But I mean, literally, at one point we were just trying 
to greenlight basically putting the broadband back up for like 
a mile connected to the trees. That's what we had to do, 
because we couldn't have residents of our--we had, I mean, over 
40 people lost their lives in this incident. Everybody wanted 
to respond but we literally didn't even have broadband 
communication until we greenlighted putting it back up and 
hanging it along tree limbs, just so first responders and 
everybody could respond.
    So I hope that we will see the urgency that we have to get 
some of these pilots done. And that we take these state plans 
and make them sew up the actual needs so that then you can lay 
your work on top of them in a faster fashion. And we get some 
of these demonstrations and pilots up and running right away. 
So when would we have that functionality?
    Ms. Swenson. So let me see if I--I'm trying to listen to 
all of the comments that you had in there. And I think it's 
important to understand that the pilots are important for us 
relative to building out our nationwide network. And that is 
our first priority.
    I know that there are many, many people who would like us 
to do many more pilots. And I will tell you, it would be a bit 
of a dilution of our efforts. As we indicated, we are resource 
constrained at this point now. And so, what we want to do is 
focus our effort and energy, on the public notice that we just 
issued, which, by the way, really did a lot to support the 
rural states issues if you've seen that. I mean, it's a really 
important issue for the coverage there. Focus our----
    Senator Cantwell. When would we see functionality of one of 
those?
    Ms. Swenson. The functionality of one of the pilots?
    Senator Cantwell. Yes.
    Ms. Swenson. Well, actually there's a pilot in Colorado 
called ADCOM that's in the Boulder area that is actually up and 
functioning. We have another project that is not actually a 
broadband project but it's in Harris County, Texas and they 
have an operational system. In fact, I went and visited Harris 
County probably in January of 2013. So they are actually 
experiencing and using these with first responders to test some 
of the functionality and the interoperability. So some of these 
projects are up and running.
    In New Jersey, we have a deployable project. They are in 
the process of actually getting the deployable so they can test 
the ability to operationalize those deployable----
    Senator Cantwell. Well, I'm sure our state is very 
aggressive. So I'll have to get--I know my time is running out 
here. We'll have to get some details about what our state is 
doing and when we will see a pilot within the State of 
Washington.
    Ms. Swenson. We'll be happy to spend time with you.
    Senator Cantwell. Thank you.
    Ms. Swenson. Thank you.
    Senator Cantwell. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you.
    Mr. Secretary, the Broadband Technology Opportunities 
Program, BTOP, came about as a result of the Stimulus Act. In 
2012, the Tax Relief Act came along and now we have FirstNet. 
Mississippi was one of the grantees under BTOP and moved 
forward very aggressively with greater speed than any other 
recipient. The Department and our delegation have had numerous 
discussions about our disappointment with how this has turned 
out.
    I understand FirstNet maintains it could not reach a 
spectrum lease agreement with the State of Mississippi. This 
was unfortunate because tens of millions of state and Federal 
tax dollars had been spent, significant fiscal assets deployed 
and the system weeks away from going live. Mississippi would 
have provided an early demonstration of the great potential 
broadband holds for first responders.
    I assume you're aware that the entire Mississippi 
delegation met with Assistant Secretary Strickling in 2013 to 
impress on him how important restarting the original BTOP 
project was to all of us. At that point, I personally tried to 
help FirstNet, NTIA and the State of Mississippi reach an 
agreement. Assistant Secretary Strickling then agreed to work 
with us to find a way forward, but this has not come to 
fruition. NTIA has justified the suspension of Mississippi's 
grant as saving taxpayers' money by ``avoiding investments that 
might have to be replaced if they are incompatible with the 
ultimate nationwide architecture of the new public safety 
broadband network.''
    However, one of the fundamental conditions imposed on all 
700-megahertz public safety broadband waivers is the commitment 
of the waiver recipients to design, develop, and deploy a 
network that is fully interoperable. So that argument does not 
seem to hold water.
    Furthermore, Mississippi's contract with its vendors 
required complete compliance with ``all rules, specifications, 
and functionalities.''
    That may change per the FCC or NTIA during the build out of 
the nationwide network. Understandably, we in Mississippi are 
disappointed. Given these assurances by the State of 
Mississippi and the vendors, how exactly is NTIA saving 
taxpayer money, especially when in fact the agency is now 
telling Mississippi to spend money to dismantle the LTE 
equipment already deployed?
    Mr. Andrews. Well, Senator, so as you know, there were 
seven pilot projects looked at. Four of them were approved. 
Three of them are not approved, including the $70 million 
Mississippi grant. And, you know, we were deeply disappointed 
as well because we wanted to try to make this work. But, at the 
end of the day, the state and NTIA couldn't agree on terms 
because the state's plan didn't provide the necessary level of 
detail we needed to meet the statutory requirements of the act. 
And, as you know, under the BTOP program, there were specific 
statutory requirements that this had to meet, and the 
Mississippi plan that came forward wasn't a viable alternative 
that met the statutory requirements.
    One of the things that NTIA is committed to doing is 
helping----
    Senator Wicker. Statutory requirements from 2012 or from 
the 2010 Economic Stimulus Act?
    Mr. Andrews. I believe from the Economic--for the original 
BTOP program. And one of the things, it's my understanding is 
that Mississippi program didn't provide broadband coverage. And 
so, that was one of the challenges of this.
    But, look, we wanted to try to make this work. The FirstNet 
team worked very hard and long hours with Mississippi trying to 
find a way to make it work. Three of the projects were not, in 
the end though, able to go forward because they, for one reason 
or another, including this one.
    NTIA is working with the State of Mississippi to dispose of 
the equipment. Mississippi, the medical communications 
equipment held by the hospitals and the ambulances will be 
retained in Mississippi. So we're trying to keep as much of 
that value, but NTIA is committed to helping to dispose of the 
excess equipment, frankly, to avoid a loss to the taxpayers.
    Senator Wicker. Mr. Secretary, we were weeks away from 
deployment. Mississippi was a leader in deploying a network for 
first responders. Based on the statute that was enacted in 
2010. Then the Federal Government made the decision to 
dismantle the original BTOP project, forcing the state to start 
over. Mississippi has already accomplished the goal of NTIA's 
implementation program, which is why the state turned down the 
offered SLIGP grant. Mississippi today has a mature governance 
structure for the network that was created in 2005. The state 
was only weeks away from turning on its broadband network when 
the BTOP grant was suspended by NTIA.
    I hope that your offer to continue working with the state 
comes to fruition.
    Ms. Swenson was invited over a year ago to come to 
Mississippi. For whatever reason, that meeting has not taken 
place yet. But I can tell you that we in Mississippi, our 
entire delegation Democrat and Republican, are very concerned 
about this, very disappointed at the wasting of Federal money 
from the economic stimulus program. And we are particularly 
disappointed that MED-COM is not able to go forward; a project 
that has received essential equipment and would allow first 
responders to transmit lifesaving data to provide hospitals, 
which support vital medical services to proceed on.
    My time has expired but I hope this hearing will result in 
some purposeful action on the part of the department and 
FirstNet to make things work in Mississippi.
    The Chairman. Thank you, Senator Wicker.
    Senator Daines.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you.
    I come from Montana. And, in a state like Montana, we have 
almost a tale of two types of environments, very rural 
environments across most of our state. At the same time, 
because of technology, it has removed geography as a 
constraint. We are able to build now world-class companies in 
Montana because we can attract and retain great talent because 
of our rural nature of the quality of life. We have fly fishing 
streams and mountains and so forth.
    It also helps us improve our first responder services, the 
technology. And encouraged, in terms of what FirstNet could do 
to improve public safety, by coordinating these communication 
capabilities. When we have incidents or 50 to 100 miles away in 
terms of maybe a medical emergency, where we could bring 
electronically the doctor to the location of an incident, is 
the difference between life and death. In a state like Montana, 
we have some very important national assets. We have a third of 
the nation's ICBMs are located in Montana, 150 warheads. We 
share a boarder with three Canadian provinces.
    So without perhaps as background, I am concerned about the 
definition of rural. FirstNet plans to deploy on top of the 
existing private infrastructure first and that makes complete 
logic, makes perfect logic and sense to me, except for the fact 
that states like Montana have very limited 4G LTE coverage. 
And, in fact, in tribal lands it's virtually non-existent. What 
sort of contingency plans do we have for these types of areas 
like, for example, the Northern Cheyenne Reservation that 
doesn't even have 3G service let alone 4G LTE?
    And perhaps Secretary, maybe you could take the first shot 
at that?
    Mr. Andrews. With your permission, Senator, I'd actually 
like to allow Sue take this because I think she can answer that 
question.
    Senator Daines. All right. She's smiling. She thinks she's 
ready to go. Yes.
    Ms. Swenson. I'm happy to answer that.
    First of all, I think it's important, Senator, that you 
know that the public notice that we issued on Monday takes a 
really bold step about rural and making sure that rural is 
taken care of in this total plan. So we know how important that 
is for states like yourself. And so we are spending a lot of 
time on that particular topic. And we also, in our first public 
notice, Senator, asked for public comment on what rural meant. 
Because, in the legislation, it could have different 
interpretations and we want to make sure that we have some 
consistency on those.
    We've gotten a lot of good feedback on that and we'll 
incorporate that. And I'm assuming that your state probably 
gave us some feedback on that particular topic. If not, we're 
happy to take that.
    In terms of tribal, I think it's important that you 
understand that we take the tribal consultation very seriously. 
As you know, there are 566 recognized tribes in the U.S. All 
the different states have a variety of tribes that we need to 
consider. Tribal organization should be part of state 
consultation. So when that occurs, the single point-of-contact, 
it's important that we make sure that that representation is 
actually part of the state consultation.
    We, as an organization, actually hired and have a person 
dedicated to the tribal organization so that they're fully 
represented. We also, as part of the Public Safety Advisory 
Council, have a tribal working group. One of our board members, 
Kevin McGinnis, has actually been traveling the U.S. meeting 
with all the different organizations. So I just wanted you to 
know that rural is important, tribal is important, and I 
believe that we're taking steps to make sure that those areas 
are consistent----
    Senator Daines. What is the preliminary thinking where the 
infrastructure doesn't exist today on 4G LTE around what 
FirstNet will do? Will it be, will they wait until the 
infrastructure is there or will they circumvent that and move 
ahead and put the infrastructure in?
    Ms. Swenson. Actually, that's going to be part of our RFP 
process. And we'd like to get feedback from the partners and 
the vendors who will be responding, is how we can not only 
cover urban but cover rural. Because the idea is is that we 
would make that as high a priority as our urban coverage. I 
think there was some comments about leveraging existing 
infrastructure. But part of the RFP needs to address the rural 
coverage. And the folks responding to the RFP need to respond 
on how they plan to do that.
    Senator Daines. Yes, and of course the paradox here is that 
some of those areas are in the greatest need right now of 
telecommunications.
    Ms. Swenson. We understand which is why we're making it 
priority.
    Senator Daines. Great.
    As I understand also, maybe for Ms. Swenson, the Governor 
of each state would have the option to accept or opt out of the 
FirstNet plan. And I am not hearing that Montana is planning to 
opt out, but I know there was curiosity around, if a Governor 
did opt out of a plan, they're responsible for coordinating an 
effort and submitting that plan to the FCC. Any sense of what 
the cost associated with opting out versus accepting the plan 
for some of the states might be?
    Ms. Swenson. I mean, it's a great question and I think a 
lot of people are really trying to figure that out. I think 
it's important to understand that you're not really opting out 
of the nationwide network. You're really assuming 
responsibility for building your own radio access network. All 
states, whether they use FirstNet radio access network or build 
their own, will connect to our national core. That's what 
creates the interoperability across the Nation.
    Now, in terms of the cost, that will be something for your 
team to, you know, in Montana to determine. We're going to give 
the Governor a plan that will actually lay out the coverage we 
have planned based on the consultation we do with your state in 
terms of the priorities, and then we will give you what the 
cost of that is or the pricing to your end users. You will then 
have that to make a determination as the state. And the 
Governor makes that decision as to whether or not you want to 
take on responsibility for----
    Senator Daines. OK, so you'll have a cost and everything--
--
    Ms. Swenson. It'll be in the----
    Senator Daines.--with a fiduciary responsibility if there 
was an opt-out?
    Ms. Swenson. We won't determine your cost. You're going to 
determine that. You're going to issue an RFP and determine 
that. We will tell you what our plan is. You can than compare 
it to what you think building your own radio access network 
would cost.
    Senator Daines. OK. Thanks.
    I know I'm out of time, Mr. Chairman.
    The Chairman. Thank you, Senator Daines.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Thank you to you and Ranking Member Nelson for holding this 
important hearing. As a former prosecutor and co-chair along 
with Senator Burr of the 9-1-1 Caucus in the Senate, I know how 
important it is to support our first responders. I'm also the 
state that had that bridge collapse, and while everyone saw on 
TV the firefighter, the first responder show up and repeatedly 
dive into that water to look for survivors and all of the work 
of the emergency responders what people didn't see were the 77 
men and women at the Minneapolis Emergency Communications 
Center who took those calls. And while a number of people died, 
it could have been so much worse because people were able to 
get to hospitals. There were dozens more cars in there and 
people survived because of our first responders.
    I've worked hard to strengthen our country's emergency 
response network in part by sponsoring and working on the 
legislation that led to the creation of FirstNet. I think it's 
critical to our communications infrastructure. And Congress 
intended it to be built on a combination of new and existing 
infrastructure.
    I know that Senator Thune and Senator Daines and others, 
when I just heard have been talking about the rural issues so 
I'm not going to focus on that. That's important to me. But, 
Ms. Swenson, are you committed to making sure that as FirstNet 
formally launches partnerships, that opportunities will be 
available to entities of all size? I know that Newcore Wireless 
based in St. Cloud is currently participating in a pilot 
project with FirstNet in Oak River and it's a good trial 
project. But I want to make sure you're going to continue to 
work with entities of all sizes.
    Ms. Swenson. Yes. In fact, I think it's important to 
understand that the process is designed to do that. We have a 
responsibility to make sure that we deploy a nationwide network 
at the most effective cost structure. So, as we go out and talk 
to people who have different assets who want to participate in 
the request for proposal, everyone will have an opportunity to 
do that.
    And we will weigh those options and also look at the 
complexity of the design and also the speed to market.
    Those are the things that we have to consider. But, 
certainly, we're welcoming one and all because this is going to 
take a really integrated and joint effort to make this work.
    Senator Klobuchar. OK.
    The Spectrum Act also included an amendment I worked to 
include that created a funding mechanism for more than 115 
million for Next Generation 9-1-1 research and grants 
coordinated by NTIA and NHTSA, and I continue to have, as my 
top priority, making sure that we not only have the nationwide 
network in place but we integrate the NextGen technologies that 
are already transforming public safety real-time video text 
messaging.
    Ms. Swenson, what involvement has FirstNet had with public 
safety answer points and the 9-1-1 community, the NG9-1-1?
    Ms. Swenson. Actually, we're in communication with the 9-1-
1 organizations very frequently. In fact, I'm planning to go to 
the NETA conference probably in the month of June because we 
know how critical it is to the overall system. So it's an 
ongoing dialogue.
    Senator Klobuchar. Thank you.
    Mr. Andrews, what are NTIA and NIST doing to further the 
NextGen 9-1-1 operations in coordination with FirstNet?
    Mr. Andrews. So that is a great question. And one of the 
things that we've done is in a partnership between NTIA and 
NIST, and actually in Senator Gardner's state near Boulder, 
we've created the Public Safety Communications Research 
program, which is our effort to really push forward the, you 
know, into that next generation of public safety 
communications. As you know, as well, the NTIA administers the 
NextGen 9-1-1 program, and that's something that we're working 
on.
    Senator Klobuchar. OK, very good. Well then, we should 
invite Senator Gardner to join our 9-1-1 Caucus. It's a very 
exciting group.
    [Laughter.]
    Senator Klobuchar. We have a lot of emergencies that we 
respond to.
    My last question, Ms. Swenson, is I understand that 
Minnesota was the second state to have its consultation with 
FirstNet last September. What are some of the takeaways from 
that meeting with the stakeholders in Minnesota?
    Ms. Swenson. You know, I think, as indicated earlier, I 
think it's important that we learn from each of the states 
their individual circumstances. Every state has a set of 
circumstances that are very different. Your topography is 
different; your, you know, where your priorities are are 
different; and we're learning in each of those consultation 
what exactly is unique to your state so we can incorporate that 
into the RFP process.
    Senator Klobuchar. OK, very good. Thank you very much.
    The Chairman. Thank you, Senator Klobuchar.
    Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Chairman Thune, and 
thank you for focusing this hearing on this very, very 
important topic. And let me first just say that I want FirstNet 
to succeed ensuring our Nation's first responders have the 
communication tools they need; should be a top priority of this 
Committee.
    Despite lessons learned from the terrorist attacks of 9/11, 
our first responders still do not have nationwide interoperable 
communications network. As many of you know, in an emergency 
this can be a matter of life or death.
    In my home state of New Mexico, I am pleased that the 
Recovery Act Broadband Grant helped upgrade the state's public 
safety communications. This hopefully puts my state a step 
ahead as FirstNet becomes operable.
    One concern I have is that Congress sometimes makes good 
policies but then fails to follow through by adequately funding 
their implementation. And I think that could well be a case 
here. Building FirstNet is clearly no easy task and I want 
Congress to give FirstNet a chance to succeed. It is important 
first responders have the communications tools they need to 
protect all of us.
    Now, many Senators have already raised the rural issue. I 
think rural is tremendously important in New Mexico. And so, I 
want to you to focus on that.
    Ms. Swenson, you talked in your written testimony, and I 
think to a question asked by Senator Daines, about the tribal 
issues and how tribes are going to be included. I want to 
applaud you on having a person dedicated to the tribes. I mean, 
that's usually the way it works best; is somebody that really 
understands these tribal issues, develops a long-term 
relationship and works with them.
    Could you expand a little more on you testimony, your 
written testimony, about how you're going to make sure that 
tribes aren't left out in this moving forward?
    Ms. Swenson. Certainly.
    You know, as you know, the act really requires that we 
engage with tribal. So there was no ambiguity about that. So 
we're very clear about that. But, setting that aside, FirstNet 
really understands the important of tribe. We, as you said, we 
have a person dedicated to that within FirstNet, and I think 
that's actually unique for an organization like us to actually 
dedicate a resource to that.
    We also have, as part of the Public Safety Advisory 
Council, a tribal working group and that is focused on tribal 
issues so that it's represented within the public safety 
community and the tribal group. That particular group, a small 
group, had a meeting in Washington, D.C. just 2 weeks ago.
    And so, it is a very high priority for us. In fact, when I 
was in town hall meeting a couple weeks ago, the 
representative, the tribal representative from our organization 
was there at the town hall. We had tribal representation at the 
town hall meeting and he was actually going to get in his car 
and drive along the cost and meet with as many tribal 
organizations as possible. So he's out and about.
    And, as I mentioned, one of our board members, Kevin 
McGinnis who is from the EMS community, has actually been 
taking on that responsibility as a board member to go out and 
make sure that we're reaching out, making the tribes aware of 
it, and also making sure that the tribal representation is part 
of consultation. Because, it's really important they're at 
those meetings, at the state meetings, so that we can 
understand their perspective as well. So we're very, very 
focused on that and consider it a very high priority.
    Senator Udall. And as you said, the consultation part is 
tremendously important. I mean the tribes really look to the 
Federal Government to look at and see that they're going to be 
communicated with and consulted with on these kinds of issues. 
So we appreciate what you're doing and hope we have your 
commitment to work and make sure that they're not left out.
    Ms. Swenson. You absolutely do.
    Senator Udall. Thank you.
    Ms. Swenson. Thank you, Senator.
    Senator Udall. Thank you.
    The Chairman. Thank you, Senator Udall.
    Senator Gardner.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman, and thank you to 
the witnesses for your testimony and time today. I apologize 
for coming into the hearing late. I was attending an AUMF 
hearing with Secretary Kerry downstairs.
    So I just want to thank all you, again, for being here. And 
want to thank Ms. Swenson, particularly, for the work you're 
doing, given a very difficult yet vitally important task to 
ensure that we have a nationwide public safety network. 
FirstNet, if done right, can help first responders across the 
country do their jobs more quickly and more effectively. And no 
one knows this better than Colorado who has endured wildfires 
and flooding over the past several years of great magnitude.
    So my questions stem from a place where I want to help 
ensure that the state has exactly what it needs to react to 
disasters such as these in the future, and I want the network 
to succeed. And I'm happy to talk about the 9-1-1 Caucus too 
but I think she's left so we'll have to figure that one out 
later.
    Ms. Swenson, one of the concerns that I have had from the 
state, and I've heard from the state, is that the current path 
forward for FirstNet does not include the use of public assets 
that are already and willing to be utilized by the public 
safety network. My understanding is that you first need to know 
who the commercial partners are before you move forward with 
utilizing, excuse me, utilizing public assets. Isn't there an 
argument to be made that we shouldn't be using this and we 
should be using these public assets?
    Ms. Swenson. Well, I think it's a very good question. And 
you weren't here earlier, but let me just state what I stated 
earlier. And that is, in the early days of FirstNet we actually 
thought that getting that information about government assets 
would be very, very important for building out the network. 
What we've learned, through our BTOP projects, and LA in 
particular, is that this is more difficult than we anticipated 
in terms of the unique circumstances in every state about 
coming to a memorandum of understanding about those assets, the 
leasing of excess capacity on those assets. Whatever the 
circumstances are, they turned out to be much more complex than 
we had anticipated.
    So what we would like to do is obviously know about those 
assets, but take that into consideration after we determine who 
the partner is and then determine what additional perhaps 
coverage or capability those assets can add to the existing 
plan. And so, we just think from a sequencing standpoint and 
from a complexity standpoint, as I said earlier, we want to 
make sure that we're dedicating our resources now on getting 
the national network built.
    And so, it has been a change from what we had originally 
anticipated but we're very comfortable with this approach. 
Additionally, if there are assets that an organization in the 
state would like to be considered as part of the nationwide 
network, again, I think it's important that we look at speed to 
deployment, complexity, and cost. Because we have a 
responsibility to make sure that this is done in the most 
effective and efficient way possible.
    Senator Gardner. And some of the follow up questions I have 
on the sequencing, the complexity and then the speed with which 
we're getting this done. You mentioned, I believe, it was told 
to me by my staff at the beginning, you said that Adams County 
is functioning.
    Ms. Swenson. Yes.
    Senator Gardner. And so, thank you for that.
    But, if they've met all of the international standards and 
if interoperability is not an issue there, then, you know, 
we're looking at 3 years, 4 years maybe, down the road. People 
in Colorado need to get this done now. Does Adams County have 
to wait until they receive a state plan to proceed? Can 
Colorado move forward, and build it out and still be a part of 
FirstNet?
    I'm concerned that we have places in Colorado, significant 
metropolitan populations with rural areas in forested terrain 
that need to move forward and yet this is taking time and we 
could build out. How do you respond to that?
    Ms. Swenson. Well, you know, again, this is a very complex 
issue, as you know. And we're very excited about what Adams 
County is doing and it has become a good project for people to 
come and see how this new technology is actually working. I 
think it's really important for people to understand our focus 
is getting on the nationwide network. And we have limited 
resources at FirstNet in order to spend time on these 
individual projects. And so, it would dilute our ability to 
work on the nationwide plan.
    And so, it's a tradeoff for us, very frankly, Senator. And 
it's a difficult one because I'd love to have all the resources 
in the world to, you know, to do a lot more in a lot of 
different areas. But we have an obligation to move this as 
quickly as possible, so we've had to make some tradeoffs.
    Senator Gardner. And perhaps we can follow up a little bit 
on that, but I wanted to shift to the rural conversation that 
sounds like so many people brought up. In previous experience 
that we've had with some funding from the Federal Government 
that was intended and designed to go to unserved or underserved 
areas, money was spent in areas where it could easily be spent 
and those areas where money would be spent in difficult areas 
to reach for networks and others. That money was not spent and 
then, by the time they got to those areas, which were difficult 
in Colorado to reach, the money was gone. And, they had to look 
elsewhere for opportunity.
    Are there areas or parts of the country, parts of Colorado, 
where FirstNet will not be building out into because it doesn't 
make sense or it's not responsible?
    Ms. Swenson. Well, I think that's an excellent question.
    First of all, I think it's important for you to know that 
the funding in the second notice ensures rural build out. I 
think if you look at the public notice that we just issued on 
Monday, there is assurance for rural build out.
    The consultation that we do with every state is really 
talking about the priorities. Not that we would never build, 
but we want to understand where your priorities are because 
obviously a network of this magnitude, we can't just snap our 
finger and turn it on 1 day. I mean it's going to have to go in 
phases, but we have rural build out milestones that we need to 
accomplish to make sure that we actually do that.
    The response to the RFP is going to be critical and the 
folks who respond to the RFP are going to have to address those 
issues. That's why we're taking the information from your state 
consultation and interactions that we're having with your state 
and putting that into the RFP so whoever is responding knows 
that that's a priority for you.
    Senator Gardner. From your point of view, there's no place 
in the country that has been sort of labeled as taken off the 
table; so to speak?
    Ms. Swenson. No. Not at all.
    I'm telling, I mean, we talk more about rural than we do 
urban. I mean that's how important it is to us; is that we are 
constantly thinking about and making sure. And I would commend 
you, you know, if you haven't seen it, and for anybody who's 
listening, the second notice really assures that. And we took 
great pains and spent quite a bit of time to make sure that the 
very description, or situation that you described, won't happen 
here.
    Senator Gardner. Thank you.
    Ms. Swenson. Thank you.
    Senator Gardner. Mr. Chairman, thank you.
    The Chairman. Thank you, Senator Gardner. And I appreciate 
the continued emphasis on the rural issues.
    Ms. Swenson, I'm sure you got that loudly and clearly 
today. There's a lot of interest on this Committee.
    Ms. Swenson. Do you know what? I feel exactly the same way.
    The Chairman. Good.
    This has been a great, great panel. Thank you. I thought 
this shed a lot of light on a subject that has needed to be 
discussed, which is why it was important to have this oversight 
hearing to raise some of these issues and ask some of these 
questions. We appreciate the panel's willingness to appear 
today and to respond to those questions. And we'll continue to 
provide that oversight.
    This is an important investment; something that has a lot 
of ramifications for our first responders and our public safety 
community in making sure that we're able to respond in an 
effective and timely way when things happen. So I want to make 
sure we get it right and this Committee will do everything we 
can to stay on top of it.
    So thank you all for being here today. The hearing record--
oh. All right.
    OK. All right.
    The Senator from Massachusetts is here.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. I apologize, Mr. Chairman, and I want to 
thank you for convening today's hearing. We understand very 
well how important it is to have a strong, reliable first 
responder network. From the over 100 inches of snow this winter 
to Hurricane Sandy to the marathon bombing, we know how 
critical it is that our emergency responders have dependable 
communication tools that allow them to work and to talk to each 
other safely. And that's why I have always supported FirstNet, 
because it fulfills one of the most important recommendations 
of the 9/11 Commission: the creation of a nationwide 
interoperable public safety network. It ensures that our first 
responders have the tools which they need.
    So Ms. Swenson, we must ensure that FirstNet is reliable 
across the entire country. However, each part of the country 
faces its own set of difficulties that will challenge the 
network's resiliency, whether it's blizzards, hurricanes, 
tornados, earthquakes, the list is endless. We have to makes 
sure that the network has the capacity as it actually responds 
to each one of these different challenges.
    So my first question is it's supposed to establish the 
advanced network for the twenty-first century public safety 
needs, given that the states and the municipalities already 
have existing public safety networks, how will FirstNet work 
with and utilize these resources in building out and deploying 
the national public safety broadband network?
    Ms. Swenson. Senator, thank you for the question.
    We are interested, as you are, in making this a reliable 
network. And we were just talking to Senator Gardner about a 
similar question, but I'll be happy to repeat it.
    The issue with the current assets within the state, when we 
started FirstNet, we thought that that would be the way to go 
is to do an inventory of those assets and then build upon 
those. It turns out that one of our projects in Las Angeles, 
the BTOP program in Las Angeles, has informed us and been very 
useful in helping us understand the challenges with actually 
using existing assets because of the difficulty of developing 
memorandums of understanding, leasing excess capacity. And it 
has been extremely useful in helping us understand that it was 
probably a little harder than we thought to do.
    Now, that doesn't mean that we wouldn't utilize those in 
some fashion, but we would go through the RFP process, award 
partners to actually deploy the network, and then determine how 
those assets could be utilized. And also, those assets, 
depending on who owns them, they could be part of responding to 
the request for proposal. Because, deploying this network, as 
you indicated, it's important that we do this in an urgent 
fashion and that's where we're dedicating our resources to do 
that.
    Senator Markey. OK.
    You know, on Patriots' Day, 2013, right in the middle of 
downtown Boston with a million people watching the marathon, 
there really is no other event like this. We then had the 
marathon bombing attack.
    Ms. Swenson. Right.
    Senator Markey. And so, on the one hand you have the 
government response. On the other hand you have a private 
cellular network that you also want to have working and you 
have a million people all calling, ``What's happening to my 
family member running?'' Or even, in this instance, where 
people who weren't running were also injured.
    So can you talk a little bit about the capacity----
    Ms. Swenson. Yes.
    Senator Markey.--in emergencies for the private cellular 
network to be able to also provide the kinds of information 
which is necessary for people to be able to respond properly?
    Ms. Swenson. Sure.
    As you know, the commercial networks today get really 
burdened when there's an incident whether it's small or large 
as all of us pick up our phones and make a phone call. And so, 
it really prohibits the first responders from being able to use 
the commercial network.
    With FirstNet, it'll be a dedicated network. And, even with 
the leasing of the excess capacity for other use, the 
technology today, Senator, has something called priority and 
preemption. And so, unlike the networks today, that technology 
will enable first responders to get access to the network and 
to remove those folks who are using the network who are not 
critical. And so, we believe that that particular capability 
really differentiates FirstNet from commercial networks today. 
That is what commercial networks can't do.
    Additionally, we are working in the state consultation 
meetings to look at how to harden those networks. So assuming 
we have a commercial partner that partners with us along with 
other folks, we would actually, we're going to be in a 
different band class and we will harden those networks relative 
to each particular state.
    Senator Markey. Excellent.
    Ms. Swenson. OK.
    Senator Markey. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey.
    And again, thanks very much to the panel. And the hearing 
record will be open for two weeks.
    During that time, Senators are asked to submit any 
questions they have for the record. Upon receipt, the witnesses 
are requested to submit their written answers to the Committee 
as soon as possible.
    Again, thank you very much for your participation. This 
hearing is adjourned.
    [Whereupon, at 12:08 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Question Submitted by Hon. John Thune to 
                         Hon. Bruce H. Andrews
    Question. Stakeholders have raised concerns that, while FirstNet is 
an ``independent authority'' within NTIA, it is not sufficiently 
independent in its operations and is saddled with Federal rules that 
are setting FirstNet up for failure. Do you agree with these concerns? 
What has the Commerce Department done to eliminate unnecessary red tape 
for FirstNet?
    Answer. In enacting the Middle Class Tax Relief and Job Creation 
Act of 2012, Congress created the First Responder Network Authority 
(FirstNet) as an independent authority within NTIA, which is part of 
the Department of Commerce. Thus, FirstNet is both part of NTIA and 
independent of it, particularly with respect to program-related 
decisions not expressly assigned to NTIA under the Act.
    The Act's placement of FirstNet within NTIA makes FirstNet a unique 
Federal entity. It is essentially a start-up organization charged with 
ensuring the building, deployment, and operation of a nationwide public 
safety broadband network within the applicable rules and regulations of 
the Federal Government. I agree that this framework poses challenges in 
balancing the goal of speedy deployment of this vital network with the 
need to adhere to Federal Government hiring and procurement 
requirements.
    The Department actively supports FirstNet by providing certain 
legal, procurement, human resources, and administrative assistance 
where FirstNet does not otherwise have its own resources or direct 
authority. In doing so, the Department seeks to streamline and expedite 
Federal processes. For example, FirstNet is now using the Commerce 
Alternative Personnel System, which should assist in speeding up the 
hiring process. Additionally, the Department has supported FirstNet's 
request to the Office of Personnel Management (OPM) for Direct Hiring 
Authority, which would give it greater control over its human resources 
functions.
    The Department also worked closely with FirstNet to enable an 
interagency agreement between FirstNet and the U.S. Department of 
Interior for assisted acquisition support. This agreement gives 
FirstNet dedicated acquisition resources to assist in its Request for 
Proposal (RFP) process for the nationwide public safety broadband 
network. Additionally, the Department is working on the long-term 
solution to provide delegated authority to FirstNet to run its own 
acquisition office.
    The Department continues to work closely with FirstNet to ensure 
that it can execute contracts and hire staff as expeditiously as 
possible. While the Federal Government may not be able to move as 
quickly as a private company, we are pleased with the progress FirstNet 
has made to date.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                         Hon. Bruce H. Andrews
    Question 1. In your testimony to the Committee, you indicated that 
the State of Mississippi and NTIA couldn't agree on terms because the 
State's plan ``didn't provide the necessary level of detail we needed 
to meet the statutory requirements of the Act.'' Further, you 
maintained, ``The Mississippi plan that came forward wasn't a viable 
alternative that met the statutory requirements.''
    In fact, if Mississippi had not met the requirements of the 
Broadband Technology Opportunities Program (BTOP) grant program and had 
not been able to demonstrate sustainability, the State would never have 
received a BTOP grant award. As you know, the Federal laws governing 
access to the broadband spectrum needed to operate the Mississippi 
system were changed in February 2012. As such, NTIA chose to suspend 
portions of the State's grant citing interoperability concerns. The 
State had already deployed a significant portion of its broadband 
network and was ready to go live within weeks of the NTIA suspension. 
The State has honored the terms of the BTOP grant award and has not 
deviated from these commitments.
    My understanding is that during the build-out of the LTE network, 
there was never a moment where the State was out of compliance with any 
grant rules or regulations. The project was on schedule and on budget. 
Considering Mississippi's original BTOP grant proposal was approved by 
NTIA, please tell me exactly what details were missing and which 
statutory requirements were not met?
    Answer. When Congress enacted the Middle Class Tax Relief and Job 
Creation Act of 2012 (Act), it dramatically changed the landscape for 
public safety broadband. NTIA approved the State of Mississippi's 
(Mississippi) project in 2010, prior to the Act, when the concept of 
public safety broadband was a ``network-of-networks'' model, in which 
individual communities, states or regions would build networks that 
would interoperate with each other. The Act mandated a new approach to 
build, operate, and maintain a nationwide public safety broadband 
network based on a single, national network architecture. With this new 
vision in mind, the Act required the Federal Communications Commission 
(FCC) to grant to FirstNet the 700 MHz spectrum that was being used by 
the seven public safety Broadband Technology Opportunities Program 
(BTOP) grant recipients, including Mississippi, as well as additional 
reallocated spectrum.
    NTIA partially suspended the LTE-specific portions of the seven 
public safety BTOP awards in May 2012, because of uncertainty created 
by the new legislation and reallocation of spectrum to FirstNet. At the 
time NTIA partially suspended Mississippi's project, the state had 
drawn down $22.2 million of the $70 million in Federal funds. 
Mississippi BTOP reported that all of the LTE equipment ordered was 
delivered for the project; Mississippi BTOP had installed approximately 
40 antennas, the Evolved Packet Core (EPC), and a few of the 143 
eNodeBs. This limited deployment provided coverage far short of what 
was needed to operate the network. Additionally, the project plan 
Mississippi provided to NTIA during an April 2012 site visit indicated 
that it planned to install the remaining antennas during the summer and 
fall of 2012. When NTIA partially suspended the project, the state had 
not released the request for proposal (RFP) needed to procure the end 
user devices and MEDCOM equipment--the devices and equipment necessary 
to use the LTE broadband system. Mississippi's grant documents showed 
that the LTE system would not have been deployed and running by mid-May 
2012, as many of the elements were not in place to have a viable 
network. Mississippi's project schedule showed that its LTE system 
would not be fully deployed until at least June 2013.
    In September 2012, Mississippi's lease to operate in the 700 MHz 
spectrum expired. Without access to the spectrum, Mississippi was out 
of compliance with its BTOP award and did not have authority to operate 
its BTOP-funded LTE system. In order to get the LTE project back on 
track, Mississippi needed to enter into an agreement, consistent with 
FirstNet's mission, to gain access to FirstNet's spectrum so it could 
operate its network. Unfortunately, Mississippi could not agree on 
lease terms with FirstNet. Mississippi sought assurances that either 
FirstNet or NTIA would cover its ongoing operating costs while it built 
out its network given a state budget shortfall that reduced the 
available funds that the Mississippi Wireless Commission had allocated 
to operate the network. FirstNet was unable to commit to taking on this 
financial responsibility in advance of the state opt-in decision, and 
BTOP programmatic requirements precluded NTIA from allowing BTOP funds 
to pay for operating expenses. In the absence of a lease agreement with 
FirstNet, the LTE portion of the project was not able to move forward.
    After it was determined that no agreement could be reached between 
FirstNet and Mississippi, NTIA worked closely with Mississippi to 
determine if there were any other options to reprogram the funding for 
other public safety broadband infrastructure purposes. NTIA and 
Mississippi committed considerable time to evaluating several 
alternative plans that the state created to keep the funding to benefit 
the first responders in Mississippi. Unfortunately, the final plan 
submitted by Mississippi on December 16, 2013, did not meet the minimum 
requirements of the BTOP Middle Mile Infrastructure program and was 
missing the level of detail that was necessary for NTIA to approve it. 
For example, the state's final plan focused on the new telemedicine 
equipment that would be purchased (e.g., vehicular modems, routers, 
handheld devices, computers, tablets, GPS tracking capability) and 
outlined some new broadband research initiatives and outreach efforts. 
Some of the items in the final plan, however, such as non-construction 
related vehicles, were unallowable costs within the BTOP program. In 
addition, the final plan did not address how this equipment would be 
connected to broadband infrastructure. The final plan requested 
additional time to work with FirstNet to achieve a successful business 
model. But, after 18 months, the state had been unable to reach 
agreement with FirstNet, and there was no indication that an agreement 
could have been reached if given additional time. Also the state was 
unable to identify a viable commercial partner that was willing to 
participate with the state and the grant program to expand broadband 
infrastructure within Mississippi. Given the uncertainty regarding the 
broadband infrastructure and how the equipment would be connected to a 
broadband system, NTIA could not approve the final plan. As such, 
Mississippi's grant expired and is now in close out.

    Question 2. Also in your testimony, you indicated that that ``the 
Mississippi program didn't provide broadband coverage.'' Isn't it a 
fact that Mississippi's network provided broadband coverage to over 70 
percent of the state? Are you aware that MED-COM released a Request for 
Proposal for an application that required broadband speeds for 
telemedicine and the statewide BTOP broadband network was to be 
utilized?
    Answer. In its original BTOP application, the State of Mississippi 
outlined a compelling case that the State ranked last in the Nation in 
broadband connectivity and noted that ``commercial providers face 
significant economic challenges in serving the rural areas of the 
State.'' In its application, Mississippi proposed a 134-site system 
``geographically covering 97 percent of the state and touching all 82 
counties. . .'' Unfortunately, the LTE system did not meet the proposed 
coverage outlined in the application.
    The system was designed using Mississippi's existing Land Mobile 
Radio (LMR) infrastructure, which provides about 70 percent statewide 
coverage with very spotty wireless service for public safety personnel. 
Mississippi recognized the coverage issue and, in June 2012, the state 
began discussions with NTIA regarding the need to expand the project by 
an additional 130 sites to cover approximately 90 percent of the state. 
Unfortunately, Mississippi was unable to fund an expanded project.
    NTIA was aware of the MED-COM Request for Proposal (RFP) to 
purchase and deploy the telemedicine equipment in 342 ambulances and 90 
hospitals across Mississippi. This portion of the BTOP project was 
contingent on a functioning LTE broadband system to transmit the data. 
As Mississippi acknowledged in its application and during negotiations 
with FirstNet, the state did not have viable, wireless commercial 
options for public safety in rural areas. Without the LTE 
infrastructure, MED-COM had no viable option to connect its ambulances 
and hospital equipment to broadband. NTIA understands the importance of 
the telemedicine equipment and is allowing Mississippi to keep the 
radios it already purchased that are connected to the existing Land 
Mobile Radio system.

    Question 3. Did NTIA block FirstNet from finalizing an agreement 
with Mississippi? Is it accurate to say that NTIA's counsel objected to 
an emerging agreement between FirstNet and Mississippi because NTIA 
maintained that, despite what FirstNet agreed to in discussions with 
Mississippi, FirstNet did not have the authority to inject short terms 
funds to help Mississippi offset operational costs until the nationwide 
system reached Mississippi?
    Answer. NTIA did not block FirstNet from finalizing an agreement 
with Mississippi. Both FirstNet and Mississippi acknowledge that they 
were unable to reach an agreement on an acceptable spectrum lease 
agreement. Under the Middle Class Tax Relief and Job Creation Act of 
2012, FirstNet does not have the authority to inject short term funds 
to states in advance of FirstNet's compliance with the Act's 
requirements relating to the state opt-in/opt-out decision-making 
process. During negotiations for a spectrum agreement, Mississippi 
revealed that it had an operating funding shortfall of $6.6 million in 
the first two years of operation. Mississippi expressed to the Federal 
Government that it wanted NTIA or FirstNet to cover these operating 
expenses. However, neither the grant program nor FirstNet are allowed 
to cover such expenses. Under the rules of the BTOP grant program, BTOP 
funds are limited to network construction, and therefore cannot be used 
for operating expenses.

    Question 4. NTIA justified the original suspension of Mississippi's 
grant in 2010 as saving taxpayer money by avoiding ``investments that 
might have to be replaced if they are incompatible with the ultimate 
nationwide architecture of the new public safety broadband network.'' 
However, one of the fundamental conditions imposed on all 700 MHz 
public safety broadband waivers is the commitment of the waiver 
recipients to design, develop, and deploy a network that is fully 
interoperable with the ultimate nationwide deployment standards. 
Furthermore, Mississippi's contract with its vendors required complete 
compliance with ``all rules, specifications and functionalities'' that 
may change per the FCC or NTIA during the build-out of the nationwide 
network.
    Given these assurances by the State and the vendors, how exactly is 
NTIA saving taxpayer money, especially when in fact the Agency is now 
telling Mississippi to spend $1 million to tear down its LTE equipment 
already deployed?
    Answer. As described above, when Congress passed the Middle Class 
Tax Relief and Job Creation Act in 2012, it dramatically changed the 
landscape for public safety communications by adopting a nationwide 
network approach. As a result, NTIA suspended its seven 700 MHz BTOP 
public safety projects to give FirstNet the opportunity to negotiate 
spectrum lease agreements with each recipient. Unfortunately, 
Mississippi was unable to reach agreement with FirstNet. Without a 
lease agreement or a plan to responsibly utilize remaining grant funds 
consistent with statutory and programmatic requirements, NTIA could not 
justify expenditure of additional taxpayer dollars. As described above, 
Mississippi's final proposal included operating expenses, which BTOP 
cannot fund, and would not have been used to deploy broadband 
infrastructure. Further, the LTE equipment deployed cannot be utilized 
in the future by FirstNet without substantial upgrades at significant 
additional cost.
    Mississippi purchased the equipment almost three and a half years 
ago. At the time, the equipment was 4G LTE Release 8/9 and programmed 
for use on 5x5 MHz spectrum bandwidth. When FirstNet deploys the 
nationwide network, it will be leveraging spectrum frequencies for use 
on 10x10 MHz bandwidth and a higher LTE Release, with critical FirstNet 
features not defined in Release 8/9, such as priority and preemption 
and quality of service. This will make the current equipment obsolete.
    Mississippi provided NTIA with the estimate from its vendor that it 
would cost approximately $1 million to remove the equipment from the 
tower sites and dispose of it properly. All recipients of BTOP funds, 
including Mississippi, are obligated under Federal regulations to 
decommission and dispose of federally funded grant property in 
compliance with its award terms and conditions. The costs associated 
with decommissioning and disposing of federally funded assets is an 
allowable grant expense.

    Question 5. I understand NTIA is pushing for the deployed LTE BTOP 
project equipment to be removed at taxpayer expense, and then sold to 
developing countries for use in their own broadband networks.
    Can you confirm this information and is there an estimate of the 
cost for the removal of this equipment as well as the estimated revenue 
from the sale of this equipment? Wouldn't taxpayer money been better 
spent on preserving this deployed equipment for the benefit of public 
safety, the people of Mississippi, and the people of the United States?
    Answer. Please see the response to question 4 above. As described 
above, the LTE equipment deployed by Mississippi cannot be used by 
FirstNet without substantial and costly upgrades. NTIA will work with 
BTOP recipients, including Mississippi, to explore options for 
disposing of federally funded assets consistent with Department of 
Commerce regulations. NTIA is not requiring Mississippi to sell the LTE 
equipment to developing countries for use in their own broadband 
networks.

    Question 6. In his May 2012 letter to Governor's office suspending 
the BTOP grant, Assistant Secretary Strickling stated that NTIA would, 
``want to keep the grant money in the communities that received the 
grants.'' Yet here we are in 2015 and NTIA has yet to make any final 
determinations with regard to the existing MED-COM project that 
received essential equipment under the BTOP grant to support emergency 
medical response agencies, hospitals, and first responders throughout 
Mississippi. This equipment allows first responders to transmit life-
saving data to provider hospitals which support vital medical services 
in rural Mississippi and greatly enhance the quality of health care for 
Mississippi citizens.
    In addition, NTIA has yet to make a final determination in regard 
to the upgrade of the State's microwave backbone network to a greater 
bandwidth to accommodate the broadband network in addition to the 
State's existing two-way radio system. The upgrade to the microwave 
backbone network is complete and is currently in use by over 20,000 
first responders across the State. These first responders rely on the 
microwave backbone network for day-to-day radio operations and 
additional emergency communication needs including dispatch services, 
global positioning services, and automatic vehicle location. If any of 
these assets are removed from the State, it would cause a significant 
impact on emergency response operations and send a ripple effect across 
Mississippi.
    When will NTIA provide written assurances to the State that it can 
retain the MED-COM equipment and microwave backbone equipment purchased 
with BTOP funds as approved by NTIA?
    Answer. NTIA has had numerous communications with Mississippi 
regarding the microwave backbone equipment and MED-COM radios that were 
previously installed under the BTOP grant funds. This equipment was the 
non-LTE portion of the BTOP project and was not part of the partial 
suspension. NTIA has informed Mississippi that the microwave and radio 
equipment can remain in use by the project, provided that Mississippi 
continues to use such equipment for the original purposes outlined in 
the grant, as required by Federal grants regulations. NTIA will work to 
provide whatever additional written assurances and instructions 
Mississippi requires regarding the equipment that needs to be disposed 
of (LTE-specific equipment) and the equipment that Mississippi can 
retain.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                         Hon. Bruce H. Andrews
    Question. I understand in 2010, NTIA awarded 7 grants for wireless 
public safety projects. Following passage of the Public Safety Spectrum 
Act, NTIA suspended the grants to ensure they were compatible with 
FirstNet. Ultimately, two projects were unable to reach agreement with 
FirstNet on terms that would allow them to move forward. Could you 
please explain for the Committee the circumstances that resulted in 
some projects moving forward while others could not?
    Answer. As part of the $4 billion Broadband Technology 
Opportunities Program (BTOP), NTIA awarded seven grants in September 
2010 for communities to deploy 700 MHz wireless broadband networks to 
improve communications for fire, police, and other public safety 
entities. The initial grants were to the States of New Jersey, 
Mississippi, and New Mexico; Adams County, Colorado (ADCOM); Charlotte, 
North Carolina; the Los Angeles Regional Interoperable Communications 
System Authority (LARICS); and Motorola (in coordination with the San 
Francisco Bay Area Regional Interoperability Communications System 
Authority (BayRICS)).
    When Congress passed the Middle Class Tax Relief and Job Creation 
Act in February 2012 (Act), the landscape for public safety broadband 
changed dramatically. NTIA approved these projects when the concept of 
public safety broadband was a ``network-of-networks'' model. The Act 
adopted the vision of a nationwide public safety broadband network 
based on a single, national network architecture, which called into 
question the assumptions on which NTIA awarded the grants in 2010. The 
Act also required the Federal Communications Commission (FCC) to 
reallocate and grant to the First Responder Network Authority 
(FirstNet) spectrum within the 700 MHz frequency band, which was the 
same spectrum that the BTOP public safety grantees had proposed using 
to operate their wireless networks. In light of the uncertainty over 
whether they could retain access to the spectrum needed to operate 
their systems, NTIA partially suspended these grants in May 2012. 
Suspending performance of these grants also gave FirstNet the chance to 
evaluate the extent to which deployment of the networks could inform 
and contribute to its mission, including wireless infrastructure that 
could be incorporated into the nationwide network established by 
Congress.
    While several BTOP public safety grantees had made progress in 
implementing their projects at the time NTIA partially suspended their 
awards, each had significant work left to complete fully operable 
broadband networks. For example, while the State of Mississippi had 
ordered and received all LTE equipment for the 144 sites it planned to 
deploy when NTIA partially suspended its award, it had installed less 
than half of that equipment. This limited deployment provided coverage 
far short of what was needed to operate the network.
    Following the suspension, FirstNet engaged in extensive discussions 
with each of the BTOP public safety jurisdictions to enter into 
spectrum lease agreements to use the spectrum that the Act had 
allocated to FirstNet. After approximately nine months of negotiations, 
FirstNet granted spectrum leases to four BTOP grantees--ADCOM, LARICS, 
the State of New Jersey, and the State of New Mexico. Once the 
agreements were signed, NTIA lifted the partial suspensions, allowing 
these projects to move forward. NTIA also granted extensions for 
completion of the projects to September 30, 2015, the statutory 
deadline for BTOP grantees to draw down money.
    FirstNet offered the same spectrum lease agreements to each of the 
seven BTOP public safety recipients. Three recipients, however--City of 
Charlotte, Motorola, and the State of Mississippi--did not agree on 
lease terms with FirstNet and, as a result, did not sign spectrum lease 
agreements to enable them to complete their public safety projects as 
originally conceived.
    Each of these three projects presented unique and complex 
circumstances and the lease agreements needed to make sense not only 
for the grantees but also for FirstNet's design and deployment of the 
nationwide public safety broadband network. In the case of Motorola, 
FirstNet had concerns regarding the proposed use of proprietary 
functions in the network equipment, which was inconsistent with the 
Act. All three grantees had concerns as to the entity responsible for 
covering the operational costs of their networks until the FirstNet 
network became operational. The State of Mississippi, for example, 
wanted assurances that either FirstNet or NTIA would cover its ongoing 
operating costs while it built out its network given a state budget 
shortfall that reduced the available funds that the Mississippi 
Wireless Commission had allocated to operate the network. FirstNet 
could not take on this financial responsibility in advance of the state 
opt-in decision, and BTOP programmatic requirements precluded NTIA from 
allowing BTOP funds to pay for operating expenses.
    Motorola chose to terminate its award for convenience. Near the end 
of its award period, the State of Mississippi submitted a revised 
project plan for NTIA's consideration. This revised plan, however, did 
not meet the statutory purposes of BTOP, which requires the deployment 
of a network capable of providing broadband service. It also did not 
provide sufficient assurances that Mississippi could complete the 
project within the time remaining in its grant award period. 
Consequently, the State of Mississippi's award expired in December 
2013, and the State did not complete the build-out. The City of 
Charlotte, however, developed a revised project plan, enabling it to 
move forward with an alternative approach to advance public safety 
broadband without the use of FirstNet spectrum.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                           Mark L. Goldstein
    Question. I understand that the early builder projects have agreed 
to provide FirstNet with project deliverables and that FirstNet keeps 
in close contact with the early builder projects. However, you remain 
concerned that FirstNet lacks a detailed data-analysis plan to track 
the performance and results of these projects. Would you please 
elaborate on your concern and why GAO considers it important for 
FirstNet to address this?
    Answer. Early builder projects have learned important lessons 
related to governance, finance, outreach, and network deployment that 
could be useful to FirstNet as it develops its plans to establish a 
nationwide network. However, we are concerned that FirstNet lacks a 
detailed data-analysis plan to track the projects' observations and 
lessons learned. Tracking the early builder projects' observations and 
lessons against FirstNet technical documentation is necessary to ensure 
that the lessons have been addressed and also facilitates transparency 
and accountability for FirstNet's decision-making. Even though FirstNet 
staff and contractors remain in close contact with the early builder 
projects, without a data-analysis plan to track those projects it is 
unclear how FirstNet intends to evaluate the projects' observations and 
lessons and determine whether or how the lessons are addressed. As a 
result, we believe that FirstNet could miss opportunities to leverage 
key lessons related to governance, finance, outreach, and network 
deployment. Given that the early builder projects are doing, in part, 
on a regional and local level what FirstNet must eventually do on a 
national level, a complete evaluation plan that includes a detailed 
data-analysis plan could play a key role in FirstNet's strategic 
planning and program management, providing feedback on both program 
design and execution. Furthermore, such a plan could provide FirstNet 
officials the opportunity to make informed midcourse changes as they 
plan for the public safety network, and help ensure that lessons from 
these projects are evaluated in ways that generate reliable information 
to inform future program-development decisions.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                             Susan Swenson
    Question 1. Stakeholders have raised concerns that FirstNet has 
developed a business plan to use income from secondary spectrum users 
to develop, enhance, and upgrade the network, but that FirstNet has not 
engaged with the states in the business plan's development, nor do the 
states know details about what the plan contains. What is the status of 
FirstNet's business plan, and does FirstNet intend to consult with the 
states soon?
    Answer. FirstNet has engaged in significant outreach and 
consultation to help educate public safety stakeholders about the 
FirstNet program and to obtain critical information about stakeholder 
requirements in preparation of FirstNet's comprehensive network request 
for proposal (RFP) and final business planning. FirstNet has reached 
out to more than 13,000 public safety and private sector stakeholders 
through its outreach efforts in 2015 alone. Throughout 2014 and 2015, 
FirstNet has participated in more than 300 outreach events and held 
initial consultation meetings with more than 1,300 public safety 
representatives in 30 states and territories, with additional 
consultations scheduled through December 2015.
    The development of a business plan will go through various 
iterations as FirstNet noted in its March 2014 public strategic 
roadmap. Steps that FirstNet is working on to develop a final approach 
to a business plan include, but are not limited to: the release of 
public notices that inform FirstNet's interpretation of its enabling 
statute;\1\ the release of requests for information (RFIs); state, 
tribal, and territory consultations; the release of a special notice 
with draft RFP documents; the subsequent final RFP; and the review, 
validation, and negotiation of potential offerors' proposals. 
Completion of the business plan is contingent upon, in large part, the 
completion of these phases. Yet, we are well on our way, having 
developed a proposed operating model and proposed operational 
architecture that were the subject of the special notice and draft RFP 
documents released on April 27, subject to comment from FirstNet's 
various stakeholders and market participants.
---------------------------------------------------------------------------
    \1\ The Middle Class Tax Relief and Job Creation Act of 2012 
(Pub.L. 112-96, H.R. 3630, 126 Stat. 156, enacted February 22, 
2012)(Act).
---------------------------------------------------------------------------
    FirstNet has released three Public Notices requesting input from 
the public, including states, on its initial interpretations of its 
enabling statute. FirstNet also released 13 RFIs covering a variety of 
technical issues, including both core and radio access network (RAN) 
development. Through these public notices and RFIs, FirstNet provided 
states with an opportunity to provide input that would inform its 
business plan. The information gathered at these consultation meetings 
will inform FirstNet's final business plan. The responses that are 
received from states and other key stakeholders and market participants 
to the special notice and draft request for proposal (RFP) documents 
will assist FirstNet in the development of a comprehensive network 
solution RFP, which in turn will lead to the development of individual 
state plans and ultimately a business plan for the nationwide network.
    FirstNet also has adopted a variety of tools to consult with the 
states. FirstNet sends weekly outreach documents and updates to all 56 
State Single Points of Contact (SPOC), and it holds monthly regional 
calls with the ten FirstNet regions and quarterly webinars with all 
SPOCs to ensure that the states have the most current information about 
FirstNet. In April, FirstNet invited all SPOCs to attend an outreach 
meeting to discuss topics including the public notices, data collection 
and preparation, state plan development, network hardening, the 
FirstNet financial sustainability model, tribal engagement, priority 
and preemption, governance, and the National Telecommunication and 
Information Administration's (NTIA) State and Local Implementation 
Grant Program (SLIGP). Feedback from the participants was 
overwhelmingly positive and we anticipate holding additional events 
involving the state point of contacts. In this context, it is clear 
that FirstNet has, in fact, extensively engaged with states in the 
development of the business plan and that will continue going forward.
    We have made much progress toward the development of a FirstNet 
business plan. FirstNet has implemented a vigorous state consultation 
process and will continue to consult so that individual state plans may 
be developed once FirstNet has selected a partner or partners through 
the RFP process.

    Question 2. The size of the network's user base will have an impact 
on the economics of making the network sustainable. But, as you know, 
some are concerned about expanding the definition of ``public safety 
users.'' How will FirstNet balance its need to establish a sizeable 
user base with expectations that the network will be utilized by, and 
prioritized for, public safety professionals?
    Answer. FirstNet intends to offer a robust and compelling service 
that will fulfill public safety requirements while ensuring that the 
network is available to the public safety professionals who need it 
through, among other things, locally and centrally administered 
priority and preemption capabilities. Priority and preemption would 
provide that, when there is a need, the network will prioritize public 
safety users over all commercial traffic, and that critical first 
responders and other key public safety personnel would be prioritized 
over other eligible public safety users of the network. This ability to 
prioritize and preempt is a fundamental aspect of the network that 
differentiates FirstNet from commercial carriers. Priority and 
preemption allow us to get value out of the excess capacity without 
having to give up any public safety priority use of the network. 
FirstNet also has continued refining its definition of the term public 
safety users. FirstNet recently released a third public notice seeking 
additional comment on the meaning of the term ``public safety entity'' 
as used in the Act. Comments to this third public notice are due by 
June 4.

    Question 3. The National Public Safety Telecommunications Council 
(NPSTC) has provided guidance to FirstNet on constructing a network 
that is safe, secure, and resilient. In GAO's testimony, it noted that 
implementing all of NPSTC's best practices will add significantly to 
the cost of building the network. What are your plans for implementing 
these recommendations?
    Answer. Identifying the differences between a commercial network 
and a public safety-grade network is important as FirstNet develops its 
comprehensive RFP (that it anticipates releasing by the end of this 
year or early 2016). The NPSTC report conveys the key principle that 
the network be available to the public safety community at all times. 
FirstNet fully agrees with this principle. However, as GAO correctly 
observed, implementing all of the NPSTC recommendations would add 
significantly to the cost of building the network. FirstNet intends to 
balance the need and benefits of hardening the network with the funds 
available. Also, we are working with our Public Safety Advisory 
Committee (PSAC) to strike the right balance and identify unique system 
hardening and resiliency needs and priorities to ensure that the public 
safety community receives a robust and secure network.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                             Susan Swenson
    Question 1. In your testimony to the Committee, you indicated that 
one of the requirements for the pilot programs was that ``the plan that 
the organization presented had to be self-sustainable. So in other 
words, they needed to show financial viability. In some of those cases, 
it didn't turn out to be that.''
    In a complete reversal from the conditions in the original BTOP 
grant from NTIA, did FirstNet tell Mississippi it could not derive any 
revenue from public-private partnerships to help offset state costs for 
operations and maintenance?
    Answer. The passage of the Middle Class Tax Relief and Job Creation 
Act of 2012 (Act), which is the statute that created FirstNet, changed 
the assumptions on which NTIA awarded the original Broadband Technology 
Opportunities Program (BTOP) public safety grant to Mississippi in 
2010. This new congressional mandate for public safety broadband 
instructed FirstNet to build and operate a nationwide public safety 
broadband network (NPSBN) with a single nationwide architecture, 
instead of using a ``network-of-networks'' approach in which individual 
states, regions or communities would build stand-alone networks that 
would interoperate with each other.
    The Act required the Federal Communications Commission (FCC) to 
reallocate and grant to FirstNet the same spectrum that Mississippi 
planned to use to operate its public safety broadband network. In light 
of the uncertainty over whether Mississippi could retain access to the 
spectrum needed to operate its system, NTIA partially suspended the 
grant in May 2012. This also gave FirstNet the opportunity to evaluate 
Mississippi's project to determine if it could provide value to 
FirstNet's deployment of the NPSBN under the new conditions of the Act.
    According to information sent to FirstNet from NTIA, in 2012 the 
state was in discussions with NTIA to expand its original 134 site 
system due to coverage gaps appearing in the original design. In 
December 2012, Mississippi acknowledged to FirstNet that it did not 
have the funding to expand its project without adopting a public 
private partnership (PPP) and guaranteeing the long-term use of 
FirstNet's spectrum to a third party. FirstNet could not agree to a PPP 
between the state and a third party as part of the negotiations for the 
spectrum management lease agreement (SMLA) before FirstNet had the 
opportunity to fulfill its statutory obligations to establish an 
organization, conduct state consultations, develop a business strategy, 
and complete other mandatory activities. Further, granting the 
guaranteed long-term use of FirstNet's spectrum by a third-party could 
have put at risk FirstNet's ability to deploy a nationwide system as 
mandated by Congress.

    Question 2. Why shouldn't Mississippi or any state be allowed to 
strike public-private partnerships to help offset the significant cost 
of public safety networks? Wouldn't such a partnership allow FirstNet 
additional resources to deploy a more robust system with truly 
nationwide coverage?
    Answer. As discussed in the response to the previous question, 
FirstNet was not in a position to enter into a spectrum lease agreement 
that would have negatively impacted its ability to deploy a NPSBN or 
interfere with its other responsibilities under the Act.

    Question 3. Did FirstNet expect the State of Mississippi to pick up 
all costs from its general revenue fund--or via new user fees--for an 
undefined period of time until FirstNet deployed its network in 
Mississippi?
    Answer. The BTOP grant application process required prospective 
grant recipients to demonstrate that their proposed project would be 
sustainable beyond the grant period of performance.\2\ In its BTOP 
application to NTIA, the State of Mississippi proposed to charge a user 
fee to satisfy at least part of the sustainability requirement. 
FirstNet, as part of the SMLA negotiations for all projects, did not 
advocate for additional or new user fees above those already 
contemplated by Mississippi. Rather, the demonstration of 
sustainability was required by FirstNet and NTIA for all projects 
seeking to negotiate an SMLA with FirstNet and was intended to ensure 
that BTOP grantees could continue to operate within the original 
parameters of their BTOP awards without requiring the use of additional 
FirstNet resources.
---------------------------------------------------------------------------
    \2\ http://www2.ntia.doc.gov/files/
btop_grant_guidelines_v1_0_july_10.pdf.

    Question 4. During the negotiations, would FirstNet commit to 
taking control of 100 percent of the already deployed broadband network 
as part of the nationwide network?
    Answer. Throughout spectrum lease negotiations with each of the 
BTOP public safety recipients, FirstNet reiterated that it could not 
give any guarantee that any of the systems that were being deployed 
using BTOP funds would be incorporated into the NPSBN. First, the Act 
mandates that FirstNet conduct an RFP process to select partner(s) to 
assist in the deployment of the NPSBN. Second, FirstNet could face 
numerous challenges with technology compatibility, potential partner 
network configurations and integration costs, and the potential costs 
associated with recapitalizing potentially outdated equipment if 
FirstNet committed to taking control of preexisting infrastructure. The 
Act mandates that any assets incorporated into the NSPBN must pass an 
``economically desirable test.'' Due to these challenges, FirstNet 
could not guarantee that the already deployed broadband system would 
pass such a test.

    Question 5. Mississippi will be entering its fourth Hurricane 
season on June 1, since the May 12, 2012, NTIA grant suspension without 
access to this lifesaving technology due to the fact that NTIA and 
FirstNet have yet to develop a plan for deployment and sustainability 
of a nationwide public safety broadband network. Mississippi was 
willing to continue with its original business plan, as agreed to by 
NTIA, but was not afforded the opportunity.
    When will FirstNet be deployed in Mississippi? As NTIA has 
prevented Mississippi from completing its BTOP broadband public safety 
network, which I remind you, was originally funded under President 
Obama's stimulus program at considerable taxpayer expense, couldn't one 
conclude that the Federal government has jeopardized the safety of 
Mississippi's first responders and citizens?
    Answer. It is FirstNet's goal to deploy the NPSBN in Mississippi 
and throughout the Nation as quickly as possible. Consultation with 
states is well underway and FirstNet has held initial consultation 
meetings with over half of the states and territories. FirstNet made 
further progress on the acquisition process by recently issuing a 
special notice and draft RFP documents, which will ultimately lead to a 
final RFP and an award(s) being made for the deployment of the network. 
FirstNet anticipates releasing a final RFP by the end of this year or 
early 2016. These are the steps that, by law, FirstNet must take before 
the NPSBN can be deployed.
    FirstNet will continue to work with appropriate personnel in 
Mississippi to ensure that they have the information they need to 
assist the Governor in making the decision regarding whether the State 
will decide to deploy its own RAN or choose to make a FirstNet-deployed 
RAN available to its public safety entities.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Gardner to 
                             Susan Swenson
    Question 1. FirstNet is currently not operationally capable. How 
long will it be before FirstNet is available for use across the 
country?
    Answer. There are a variety of factors that will influence when the 
NPSBN will be available for use by public safety. Some of these factors 
are within FirstNet's control, while others are not. FirstNet's 
enabling statute mandates that the organization conduct a request for 
proposal (RFP) or proposals in the development of the NPSBN. FirstNet 
is also mandated to conduct state consultation with all 56 states and 
territories in the development of these RFPs and develop individual 
state plans for governor consideration before deployment can take 
place. FirstNet has begun the formal process of state consultation and 
has released a special notice with draft RFP documents, which will be 
followed by industry days throughout the summer and fall. These two 
parallel and cross-cutting efforts are FirstNet's prime focus during 
the next year as it moves towards deploying the network on a nationwide 
scale as quickly as possible.

    Question 2. Adams County, Colorado was a recipient of a BTOP grant 
from the American Recovery and Reinvestment Act--sometimes referred to 
as the stimulus. It has created a network that is up and live and has 
met the standards set forth by the grant. My questions are as follows:

  <bullet> If interoperability is not an issue--because Adams has met 
        all the international standards that are required and will 
        commit to integrating their network into the future nationwide 
        network--why is it that the state cannot build outside of Adams 
        County to expand its network?

  <bullet> What specific part of the law prevents FirstNet from 
        allowing Adams County to do this?

  <bullet> Are you asking Adams County to wait until they receive a 
        state plan?

  <bullet> If so, when will that be?

    Answer. The Act that created FirstNet changed the vision for public 
safety broadband from a ``network-of-networks'' approach to a 
nationwide public safety broadband network. It is important that 
mistakes of the past, where states and jurisdictions built their own 
systems in isolation, are not repeated. Breaking the nationwide network 
into individual, independent systems would continue the lack of 
interoperability among first responders, contrary to the Act, and would 
introduce additional integration and equipment recapitalization costs, 
which may be prohibitive to the deployment of a nationwide network.
    FirstNet negotiated SMLAs with each of the BTOP public safety 
recipients in recognition of Congress' vision of a single, nationwide 
network. Throughout these negotiations, FirstNet stated that it could 
not give any guarantee that any of the systems being deployed using 
BTOP funds would be incorporated into the NPSBN.
    First, the Act mandates that FirstNet conduct an RFP process to 
select partner(s) to assist in the deployment of the NPSBN. Second, 
FirstNet would face numerous challenges with technology compatibility, 
potential partner network configurations and integration costs, and the 
potential costs associated with recapitalizing potentially outdated 
equipment if FirstNet committed to taking control of preexisting 
infrastructure. The Act mandates that any assets incorporated into the 
NSPBN must pass an ``economically desirable test.'' Due to these 
challenges, FirstNet could not guarantee that the already deployed 
broadband system would pass such a test.
    FirstNet also has limited resources, both in terms of funding and 
personnel. FirstNet does not have the ability to allocate resources to 
expand individual projects while it attempts to deploy a nationwide 
network. Such project expansion could significantly increase costs and 
put a nationwide deployment at risk, because there is no guarantee that 
the assets can be incorporated easily and cost-effectively into the 
NPSBN.
    To FirstNet's knowledge, ADCOM does not have the funding to expand 
its project to more areas of the state without adopting a public 
private partnership (PPP) and guaranteeing the long-term use of 
FirstNet's spectrum to a third party. FirstNet cannot agree to a PPP 
between the state and a third party before it conducts the mandatory 
activities outlined in the Act, including state consultation, issuing 
competitive RFPs, and developing state plans for governor 
consideration. Granting guaranteed long-term use of FirstNet's spectrum 
to a third party would negatively impact FirstNet's ability to deploy a 
nationwide system, as mandated by Congress. FirstNet is not in a 
position to approve a PPP process outside of the nationwide model, due 
to the technical and practical challenges that would arise as a result.
    The Act spells out the process through which a state plan is 
developed and provided to a Governor so that he/she has a choice 
whether to participate in the network deployment for the state as 
proposed by FirstNet or seek to undertake the responsibility to deploy 
the radio access network (RAN) in that state. The state plan has not 
been developed at this stage. After consultation with the state and the 
completion of the comprehensive RFP, the necessary information will be 
available to develop a state plan. Due to these contingences, FirstNet 
cannot give a specific date on when a state plan will be ready. Once 
the RFP process is complete, the state and FirstNet will work together 
to help ensure that the priorities of the state are addressed in the 
state plan.

    Question 3. Do you think all states must complete the consultation 
process before any specific states can move forward with 
implementation?
    Answer. No. Once FirstNet has completed the RFP process and a state 
plan has been developed with the necessary information from the 
consultation meetings and the RFP, the plan will be presented to the 
governor. This will be done as each state plan is completed and will 
not be held up until all state plans have been developed. Once 
presented to a governor, the governor will decide whether FirstNet will 
build the RAN in the state or whether the state itself will seek to 
undertake to build and operate the RAN through the process specified in 
the Act. If a state determines to build and operate its own RAN, it 
will need to take additional steps before that plan is approved and 
implementation can commence.

    Question 4. Please provide me with specific dates for the following 
major milestones:

  <bullet> Core network deployment

  <bullet> State plans completed

  <bullet> Network implementation

  <bullet> Significant rural coverage

    Answer. As discussed in the answer to question 1, FirstNet is 
working toward the release of a comprehensive RFP by the end of the 
calendar year or early 2016, assuming FirstNet has received the 
necessary input from industry and the states/territories. On April 27, 
FirstNet released a special notice with draft RFP documents that 
contained a timeline for network deployment with the following 
milestones for these topics. Appendix C-8 IOC/FOC Target Timeline is a 
document in the draft RFP documents that provides details pertaining to 
the target Initial Operating Conditions Final Operating Condition (IOC/
FOC) timeline for the FirstNet features and functionalities. This 
timeline correlates with the 3GPP standard body release timeline. The 
phases listed in this document are the planned deployment phases of the 
NPSBN deployment referenced throughout the draft RFP documents. At this 
time, given that state consultation informs the RFP and the RFP informs 
state plans, FirstNet cannot give specific dates on these topics until 
the RFP process is complete.

    Question 5. With regard to rural coverage, can you explain to me 
how you plan to reach the most remote areas of our state? I don't 
believe that the statute requires all areas to be covered in the same 
way; it just requires ``substantial rural coverage.''

  <bullet> What does this mean?

  <bullet> Will the speeds be the same in urban areas and rural areas?

  <bullet> Will you commit to covering all areas of Colorado?

    Answer. In September 2014, FirstNet released an initial Public 
Notice and a request for information (RFI) with a statement of 
objectives (SOO) attached. The Public Notice requested responses from 
the public on FirstNet's initial interpretation on the definition of 
``rural.'' A significant number of the 63 responses to this initial 
notice concerned the proposed definition of ``rural.'' FirstNet needs 
to define ``rural'' so it can understand what ``substantial rural 
coverage milestones'' are because the Act mandates that these 
milestones be included as ``part of each phase of deployment of the 
network.'' \3\
---------------------------------------------------------------------------
    \3\ P.L. 112-96, Section 6206(b)(3).
---------------------------------------------------------------------------
    As part of consultation and state plan development, each state will 
be given the opportunity to identify priorities and provide input 
regarding its preferences to a phased state-wide build-out. Consistent 
with the Act, state plans will include ``deployment phases'' into which 
the state will have significant input, subject to the capabilities of 
the contractor(s) selected and the funding available for deployment. 
States and territories will inform FirstNet of their priorities in 
terms of coverage, capacity, speed in rural areas, and users. As a 
practical matter FirstNet will not be able to build out to every part 
of the country. The geographical scope of deployment will be heavily 
dependent on resources, state priorities, and contractor capabilities.

    Question 6. What happens to states that opt out of FirstNet? Will 
they be charged any fees? Can you foresee an instance where you do not 
accept an opt-out proposal?
    Answer. States will be given the choice to either accept the 
FirstNet state plan or assume responsibility to deploy and operate 
their own Radio Access Network (RAN) provided that the state's 
alternative plan meets the criteria established by the Act for approval 
by the FCC and NTIA. If a state chooses to assume responsibility for 
its own RAN, it will be financially responsible for the capital, 
operational, and maintenance expenses, including the cost of 
integration with the national core, and all future upgrade expenses, 
for the RAN within its state. This is stipulated in the statute and 
discussed in the second Public Notice published in March 2015. Under 
Section 6302(f) of the Act, any state that chooses to assume 
responsibility for its own RAN shall pay user fees associated with use 
of the core network.
    The Act also outlines the significant roles that the FCC and NTIA 
have in the review and approval of the opt-in/opt-out process. Under 
the Act, if a state decides to assume responsibility for its own RAN, 
there are interoperability demonstrations that must be made in the 
state alternative plan and approved by the FCC before a state may 
proceed with its RAN build and operation. Additionally, should the FCC 
approve a state plan, a state must apply to NTIA to negotiate a lease 
for the use of spectrum capacity from FirstNet, and may apply to NTIA 
for grant funds for RAN buildout. To be approved for either, NTIA must 
determine that the state's alternative plan demonstrates that it has 
the technical capabilities to operate, and the funding to support, the 
state RAN, the ability to maintain ongoing interoperability with the 
nationwide network, and the ability to complete the RAN build within 
specified comparable timelines specific to the state. NTIA also will 
review the cost-effectiveness of the state plan and whether it 
maintains comparable security, coverage, and quality of service to that 
of the nationwide network.

    Question 7. How has consultation gone with Colorado? Where do the 
problems and concerns lie in your mind? Did you provide Colorado with 
timelines? Were you able to answer their questions and if not, did you 
follow up?
    Answer. FirstNet held the initial consultation meeting with 
Colorado on January 14, 2015. FirstNet shared information about its 
planning and strategies and received constructive feedback from the 
Colorado participants. Colorado representatives shared information 
about their current usage of broadband, discussed the need for FirstNet 
for their public safety agencies, and shared information about users 
and coverage priorities in Colorado. Many questions were asked and 
answered from both FirstNet and Colorado. It was a fruitful and 
successful dialogue. FirstNet provided a high-level sequence of events 
surrounding consultation and the ultimate release of a RFP. This 
initial consultation meeting served as a formal kickoff for 
consultation activities with Colorado. FirstNet has requested that all 
states submit data regarding users, coverage priorities, and capacity 
needs to FirstNet by September 2015. FirstNet will continue the 
consultative dialogue with Colorado through this process and will 
schedule subsequent consultation meetings with Colorado in the future.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                             Susan Swenson
    Question 1. What steps will FirstNet take to ensure that you have 
access to multiple vendors of public safety grade communications 
equipment, infrastructure, and maintenance capacity at the core, 
transport/backhaul, and RAN levels of the National Public Safety 
Broadband Network (NPBSN) throughout the entire NPBSN build out period?

    Question 2. Will FirstNet include specific mandates in the NPBSN 
acquisition strategy to ensure that any major prime contractor for the 
NPBSN build out will employ a diverse subcontracting plan that will 
create continuous competition and ensure no region of the country is 
dependent on a single vendor for infrastructure, equipment, and 
maintenance?

    Question 3. Does FirstNet plan to pre-qualify multiple vendors to 
supply equipment, infrastructure, maintenance, professional services, 
and other necessary categories of goods and services at the core, 
transport/backhaul, and RAN levels of the network?

    Question 4. How will FirstNet use competition throughout the multi-
year NPSBN build out process to control costs, reduce risk, encourage 
multiple companies to invest in bringing innovation in mission 
critical, public safety grade wireless solutions to the market?

    Question 5. What metrics will FirstNet use to measure competition 
within the NPBSN ``industrial base'' to ensure a strong supplier 
network exists throughout the country? Will the FirstNet NPSBN 
acquisition strategy include specific metrics and goals for ensuring 
multiple, qualified suppliers are represented in the NPBSN industrial 
based throughout its build out?
    Answer. FirstNet is dedicated to issuing open, transparent, and 
competitive Requests For Proposals (RFPs), pursuant to Section 
6206(b)(1)(B) of the Middle Class Tax Relief and Job Creation Act, and 
intends to satisfy this requirement by complying with the Federal 
Acquisition Regulation (FAR).
    FirstNet is committed to encouraging widespread and diverse vendor 
participation in the acquisition process. At this stage in the 
acquisition process, FirstNet has not made a decision on the use of 
specific metrics and goals regarding competition, any pre-qualification 
strategies, or specific diversity requirements for subcontractors. As 
the acquisition process progresses, FirstNet will take steps to 
leverage competition among multiple vendors, which will provide a more 
cost-effective and high-quality deployment model and the greatest value 
to public safety.
    To further encourage industry competition, FirstNet has issued 13 
Requests for Information to date, the latest of which generated 122 
responses from the stakeholder community, and intends to issue draft 
Request for Proposal (RFP) documents in the coming weeks. This will be 
followed by industry days to allow as much participation from as many 
potential vendors as possible throughout the acquisition process.
    Beginning with the draft RFP documents, and continuing throughout 
the procurement process, FirstNet will engage with the vendor community 
(as well as other interested stakeholders) to ensure access to well-
qualified vendors for each level of the nationwide network, including 
equipment, maintenance of the network, devices, the core, and states' 
and territories' radio access network (RAN).
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                             Susan Swenson
    Question 1. Tribal communities are consistently underserved by 
broadband providers, which leads to less effective first response, and 
hinders emergency efforts. The Middle Class Tax Relief and Job Creation 
Act of 2012, which created FirstNet, states that ``. . . proposals 
shall include partnerships with existing commercial mobile providers to 
utilize cost-effective opportunities to speed deployment in rural 
areas.'' and that this should be done with consultation with tribal as 
well as rural governments. There are also National Historic 
Preservation Act obligations which require consultation with the 
Tribes.
    I'm proud that in Washington we have been coordinating with Tribal 
authorities in the state consultation process. I am interested in what 
else has been done by FirstNet or by other states in order to 
communicate effectively with tribal government and take into account 
their unique technical and budget needs.
    How is FirstNet actively engaging with the tribes to meet both the 
NHPA and general consultation obligations?
    Answer. Engagement with tribes is a vital component of FirstNet's 
stakeholder outreach planning, as many tribes have an acute need for 
broadband communications. In 2014, FirstNet board member Kevin McGinnis 
was appointed to serve as the FirstNet Board tribal liaison and has 
traveled throughout the Nation engaging tribal nations in discussions 
regarding FirstNet. FirstNet has also hired a full-time head of Tribal 
Outreach who has traveled to tribal reservations and villages 
throughout the country, including meeting with the Quinault Indian 
Nation and the Tulalip Tribes in the State of Washington in October 
2014. Further, as part of state and local planning for the network, 
FirstNet continues to work with the State Single Points of Contact 
(SPOCs) to engage and incorporate tribal stakeholders throughout the 
process.
    Additionally, FirstNet's Public Safety Advisory Committee (PSAC) 
has created the PSAC Tribal Working Group to ensure that unique tribal 
issues are being discussed and taken into consideration by the public 
safety community. The PSAC Tribal Working Group held its first meeting 
this January in close coordination and consultation with the National 
Conference of American Indians in Washington, D.C.
    To meet National Historic Preservation Act (NHPA) requirements, 
FirstNet has hired a full-time Federal Preservation Officer (FPO) who 
has started direct consultation by writing to each federally-recognized 
tribe explaining FirstNet's obligations under the NHPA, as part of the 
initiation of the Programmatic Environmental Impact Statement (PEIS) 
required by the National Environmental Policy Act (NEPA). Additionally, 
the FPO met with tribal leaders at several tribal conferences: the 
National Congress of American Indians (NCAI) annual meeting in Atlanta 
this past October; the U.S. Army Corps of Engineers' sponsored 
``Consulting with Tribal Nations Training'' and FEMA's ``Emergency 
Management Overview for Tribal Leaders'' in Nashville in January; and 
the U.S. Forest Service-sponsored ``To Bridge a Gap'' tribal conference 
hosted by the Eastern Shawnee Tribe from March 30-April 1, 2015. The 
FPO will also schedule additional meetings and tribal consultations 
concerning FirstNet's NHPA obligations over the coming year.

    Question 2. Does FirstNet have a plan for serving existing tribal 
first responders?
    Answer. Once the FirstNet network is operational, existing tribal 
first responders will be able to procure FirstNet services in the same 
way as non-tribal first responders. Through continued, on-going 
engagement with the tribes, FirstNet will be in a better position to 
share information on the network so that they can be in the optimal 
position to choose whether to ultimately use FirstNet service.

    Question 3. Some tribal communities in Washington (Colville, 
Jamestown-S'Klallam, Couer D'Alene, Nez Perce) have established their 
own telecom companies. Is FirstNet able to partner with these companies 
in order to build a first responder network?
    Answer. FirstNet's acquisition process will not exclude any 
responsible vendor from participating in the process. FirstNet strongly 
encourages the vendor community, including tribal telecom companies, to 
comment on FirstNet's public notices, provide input into the upcoming 
draft RFP documents and attend upcoming industry day events. FirstNet 
has not made any decisions on vendors for its comprehensive network 
solution at this point in the process.

    Question 4. On March 22 of this past year, my state experienced a 
major natural disaster: a landslide just east of the town of Oso. The 
landslide covered a square mile, destroyed almost fifty (50) homes, and 
killed over forty (40) people.
    A report (SR 530 Landslide Commission Report) presented to the 
Governor of Washington found that there were significant gaps in 
emergency response, and technical deficiencies that inhibited rescue 
efforts.
    FirstNet is important to my state and to all of us that value the 
ability of our first responders to move efficiently and with full 
information during disasters. That is only possible with reliable 
communications systems that do not fail because of floods, landslides 
earthquakes, tsunamis, fire, hurricanes etc.
    FirstNet was authorized in 2012 to provide the kind of interagency 
communication and cooperation that was lacking in the response to the 
Oso Landslide. It's been three years since the agency was founded. I 
appreciate that my state is one of the early promoters of the FirstNet 
network, but when can we expect to start seeing functionality in some 
of these systems and is there anything we can do in Congress to support 
the process?
    Answer. Congress mandated that FirstNet ensure that a nationwide 
network is built, operated, and maintained in a manner that takes into 
consideration the unique aspects of every state and territory. To do 
this, the Act requires FirstNet to consult with all 56 states and 
territories to understand how public safety's requirements in 
Washington will differ from public safety's requirements in other 
states. These consultations are currently taking place, and we intend 
to complete the initial consultation phase for network planning by the 
end of 2015. At the same time, FirstNet is moving forward as 
efficiently as possible with its acquisition process to ensure finding 
the partner(s) necessary to make this a successful network. FirstNet 
intends to issue draft RFP documents in the coming weeks, which will be 
followed by industry days throughout the summer and fall, leading up to 
a final RFP by the end of the calendar year or early 2016 if we have 
received the necessary input from industry and the states/territories. 
These two parallel and cross-cutting efforts are FirstNet's prime focus 
during the next year as its moves as quickly as possible to start 
deploying the network on a nationwide scale. Congress' continued 
support of FirstNet's mission and dedication to public safety is a 
necessity over the coming year as it continues to work towards the 
first dedicated network for public safety.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                             Susan Swenson
    Question 1. New Jersey is using FirstNet spectrum for a public 
safety broadband project that explores the deployment of mobile systems 
during emergencies. I expect this project to greatly contribute to the 
manner in which our emergency response networks deal with 
communications system failures. In addition, because the units are 
mobile, they can be transported to nearby states during times of 
crisis. What has FirstNet learned from the New Jersey project? How does 
FirstNet envision the use of deployable assets in a future network?
    Answer. FirstNet and the State of New Jersey, a Broadband 
Technology Opportunities Program (BTOP) grant recipient, entered into a 
Spectrum Manager Lease Agreement (SMLA) under the condition that 
lessons learned in this federally-funded project be reported to 
FirstNet in a way that assists in shaping FirstNet's plan, 
implementation, and overall perspective of the nationwide public safety 
broadband network (NPSBN). In addition to New Jersey, FirstNet has 
entered into SMLAs with three other public safety BTOP projects, and a 
non-BTOP project in Harris County, Texas that is funded through another 
Federal grant program. The SMLAs for each of these projects, similar to 
New Jersey, include Key Learning Conditions (KLCs) that provide 
FirstNet a unique perspective and important lessons on how to better 
implement the network. Accordingly, members of the FirstNet technical 
offices are working with each of the projects to gather information and 
to assist in the successful completion of these systems.
    New Jersey plans to implement deployable networks utilizing Cells 
on Wheels (COWs) and Systems on Wheels (SOWs). The deployable networks 
will be capable of delivering data either to boost existing 
communications or provide communications where existing nodes have been 
compromised. The State will include three ``Proof of Concept'' 
implementations: the Route 21 Corridor, Camden in southern New Jersey, 
and Atlantic City on the Jersey Shore. New Jersey also will keep 10 
deployable systems positioned throughout the State in ready standby 
mode to provide service in the event of emergencies or special events 
in the State or surrounding region (NY, PA).
    The three KLCs are: (1) Demonstration and documentation of the use 
and capabilities of rapidly deployable assets; (2) Conduct emergency 
management exercise and training activities utilizing assets and 
provide detailed lessons learned to FirstNet; and (3) Document best 
practices Network Operations Center (NOC) notification approach 
including trouble ticketing, prioritization, reporting and close-out.
    The vendors have been selected, and the design/development meetings 
are in progress with State agencies. FirstNet will continue to work 
with New Jersey to learn lessons that it can apply to planning the 
nationwide network. It is too early in FirstNet's acquisition process 
to paint a full picture of how such solutions will be used in the 
future network.

    Question 2. It is my understanding that the State and Local 
Implementation Grant Program (SLIGP) was setup to establish funds for 
states to utilize during the consultation and planning process with 
FirstNet. Initially, those funds would be used for the capture of data 
on state and local infrastructure for planning purposes, but FirstNet 
and NTIA have decided against that. Has this indeed changed and why? 
How do you envision states using their infrastructure in the future?
    Answer. The success of FirstNet and the Nationwide Public Safety 
Broadband Network (NPBSN) will depend on our ability to deliver the 
most robust service to as many public safety users as possible at an 
affordable cost, all while ensuring that the NPSBN can be self-
sustaining. FirstNet's approach to network design and deployment aims 
to take advantage of economies of scale in the marketplace.
    FirstNet believes that leveraging existing investments in 
commercial infrastructure (as mandated by the Middle Class Tax Relief 
and Job Creation Act (Act) to the extent economically desirable)--such 
as towers currently supporting LTE deployments--may enable FirstNet to 
drive down costs and, as a result, keep service fees lower for public 
safety subscribers and speed deployment of the network.
    Through outreach and consultation with federal, state, local, and 
tribal entities, FirstNet recognizes that publicly-owned assets could 
potentially support both network deployment and long-term operations. 
FirstNet has identified, however, a number of challenges with 
leveraging public assets that could negatively impact the objectives to 
minimize costs and speed the deployment of the network, through input 
from our consultation efforts, market research, and lessons learned 
from the five early builder projects.
    These findings suggest that leveraging publicly-owned assets as a 
foundation to building out a nationwide network is not a feasible or 
practical approach. For example, entering into memoranda of 
understanding (MOUs) with individual agencies throughout a State for 
the use of assets can be complex, time consuming, and costly to 
negotiate. Additionally, leveraging public infrastructure and leasing 
excess capacity for Band 14 to commercial entities, which is critical 
to FirstNet sustainability, may compound the challenges with using 
public assets. For instance, certain limitations or restrictions on 
public-private partnerships exist in some States--a topic currently 
being studied by the Association of Public-Safety Communication 
Officials (APCO). In regard to competitive procurement issues, if 
FirstNet were to provide compensation for the use of any public asset, 
the procurement must be done using an open and competitive process, 
which would further delay the network deployment schedule.
    At this time, based on these observations and our desire to speed 
deployment and keep costs down, FirstNet does not consider the 
collection of statewide asset data to be the best approach nor an 
efficient use of limited State resources and SLIGP funds.
    Instead, FirstNet is focusing states' data collection activities on 
maximizing the collection of stakeholder input into the planning 
process, such as coverage and capacity needs and user information. 
These inputs will help shape the FirstNet NPSBN acquisition and 
ultimately the State Plans that are delivered to each and every 
Governor.
    FirstNet's acquisition approach does not prevent federal, state, 
tribal, or local assets from being considered. Rather, FirstNet would 
rely on the market to determine the most cost effective, efficient and 
ready to deploy solutions.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                          Hon. Todd J. Zinser
    Question. On March 22 of this past year, my state experienced a 
major natural disaster: a landslide just east of the town of Oso. The 
landslide covered a square mile, destroyed almost fifty (50) homes, and 
killed over forty (40) people.
    A report (SR 530 Landslide Commission Report) presented to the 
Governor of Washington found that there were significant gaps in 
emergency response, and technical deficiencies that inhibited rescue 
efforts.
    FirstNet is important to my state and to all of us that value the 
ability of our first responders to move efficiently and with full 
information during disasters. That is only possible with reliable 
communications systems that do not fail because of floods, landslides 
earthquakes, tsunamis, fire, hurricanes etc.
    FirstNet was authorized in 2012 to provide the kind of interagency 
communication and cooperation that was lacking in the response to the 
Oso Landslide. It's been three years since the agency was founded. I 
appreciate that my state is one of the early promotors of the FirstNet 
network, but when can we expect to start seeing functionality in some 
of these systems and is there anything we can do in Congress to support 
the process?
    Answer. We believe this question is best answered by FirstNet since 
it involves implementing the network and system verses our role of 
oversight.

                                  [all]

       
</pre></body></html>
